<html>
<title> - U.S.-COLOMBIA POLICY: WHAT'S NEXT?</title>
<body><pre>[Senate Hearing 107-579]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-579
 
                   U.S.-COLOMBIA POLICY: WHAT'S NEXT?
=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                   PEACE CORPS AND NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate









                          U.S. GOVERNMENT PRINTING OFFICE
80-847                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                                 ------                                

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                      CORPS AND NARCOTICS AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman
BILL NELSON, Florida                 LINCOLN D. CHAFEE, Rhode Island
JOHN F. KERRY, Massachusetts         JESSE HELMS, North Carolina
RUSSELL D. FEINGOLD, Wisconsin       MICHAEL B. ENZI, Wyoming
JOSEPH R. BIDEN, Jr., Delaware       RICHARD G. LUGAR, Indiana

                                  (ii)

  





                            C O N T E N T S

                              ----------                              
                                                                   Page

Chafee, Hon. Lincoln D., U.S. Senator from Rhode Island, letter 
  received from in-law regarding existing violence in Colombia...     5
Dodd, Hon Christopher J., Human Rights Watch report entitled 
  ``Colombia: Terror From All Sides,'' submitted for the record..    59
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement submitted for the record.............................    41
Grossman, Hon. Marc, Under Secretary of State for Political 
  Affairs, Department of State, Washington, DC...................     6
    Prepared statement...........................................    11
    Responses to additional questions for the record.............    75
Rodman, Hon. Peter W., Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense, 
  Washington, DC.................................................    16
    Prepared statement...........................................    17
    Responses from Department of Defense to additional questions 
      for the record.............................................    72
Schneider, Mark L., senior vice president, International Crisis 
  Group, Washington, DC..........................................    47
    Prepared statement...........................................    50
Speer, Maj. Gen. Gary D., U.S. Army, Acting Commander in Chief, 
  United States Southern Command, Miami, FL......................    21
    Prepared statement...........................................    23
Vivanco, Jose Miguel, executive director, Americas Division, 
  Human Rights Watch, Washington, DC.............................    53
    Prepared statement...........................................    56

                                 (iii)

  


                   U.S.-COLOMBIA POLICY: WHAT'S NEXT?

                              ----------                              


                       WEDNESDAY, APRIL 24, 2002

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
                Peace Corps, and Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:40 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd (chairman of the subcommittee), presiding.
    Present: Senators Dodd, Feingold and Chafee.
    Senator Dodd. Good morning. The subcommittee will come to 
order. Senator Chafee is on his way, and so we will start. I 
will make a short opening statement, and if he comes in before 
I complete we will move to Senator Chafee's opening statement 
and any other colleagues who may arrive, and then we will get 
to you, Mr. Secretary, and Mr. Rodman and General Speer, we 
want to hear from you as well.
    I just wanted to make note this morning that Senator Helms 
is in the hospital. It is serious, obviously, if he is in the 
hospital, but there is a possibility of some open heart 
surgery, and I would not want to begin a hearing here in this 
room this morning without expressing for myself and I am sure 
everyone else who knows Senator Helms and has worked with him 
over the years our strong, fervent hope that he will come out 
of this well and that he will return as soon as possible to his 
duties, and he should know that all of us are thinking about 
him and he is in our prayers and thoughts.
    Jesse and I have had some real battles over the years on 
various things, but there is no finer gentleman that I have 
ever served with, and we have our disagreements, but never 
disagreeable, and so he has my fervent prayers and hopes that 
he will be returning to us soon. It will not be the same around 
here without him. I like to have a good argument with him from 
time to time, and I want him and Dot to know we are all 
thinking of them.
    I thank everyone for coming this morning to this 
subcommittee hearing on ``U.S.-Colombian Policy: What's Next?'' 
For those of you who follow this at all, we had a hearing a few 
days ago on U.S.-Mexican relations. Today, we deal with 
Colombia, and the hope is over the coming weeks we are going to 
deal with the other issues in the Americas that deserve, I 
think, our review and attention.
    A lot has happened in the region in the last number of 
years that points us in a direction that is not as optimistic 
as it was when we used to have hearings and talk about the fact 
that there was only one nation in the Americas that did not 
have a democratically elected government. And today, where 
there are still strong democratic institutions in the region, 
there are mounting storm clouds on the horizon, the economic 
difficulties in Argentina, the problems economically in Brazil, 
the obvious problems we saw recently in Venezuela, the 
difficulties in Colombia we will be talking about today, and 
how that spills over into neighboring countries in the Andean 
region.
    There are trade agreements that are outstanding that need 
to be addressed, tremendous poverty, still, in Central America, 
the natural disasters that have devastated that part of the 
world, the historic and continuing relationship between the 
United States and Mexico.
    I know a great deal of attention, obviously, is on the 
Middle East, and rightfully so, a great deal of attention, 
obviously, on the war against terrorism and rightfully so, 
obviously, but in the midst of all of this the United States, 
of course, has a continuing and important set of interests that 
need to be addressed and watched on a very continuing basis in 
the Americas, so I thought it would be worthwhile to have a set 
of hearings in the midst of this to go and see where we are.
    Obviously on the issue of Colombia, this is going to be one 
of the major debates in the Congress as to how we proceed from 
here, with the change of administrations coming shortly in 
Colombia, with the departure of President Pastrana, who cannot 
succeed himself in that country, who has done a remarkable job 
in my view as President, determined from the very beginning to 
try and bring peace to his nation, and has achieved a great 
deal.
    We should not consider his administration, because he did 
not resolve ultimately all the issues, he should not be seen as 
not having succeeded. He has moved the ball forward, and any 
successor of his is going to have to pick up on those efforts 
and move forward with them, and so I will be very interested 
this morning in hearing from the administration and other 
witnesses as to where we go from here, and what are the 
pitfalls, what kind of problems we face.
    There are dozens and dozens of questions that I know we all 
ask ourselves, let alone ask each other about, and so I am 
looking forward this morning to the testimony from the 
administration and others as to how we can work closely 
together here in formulating and framing a policy that will 
serve, first and foremost, the interests of our own country, 
but obviously, as well, Colombia and its neighbors in the 
region. So today the subcommittee will hold its second hearing 
in a series of hearings to assess the challenges to democracy 
in the Western Hemisphere, and the effectiveness of U.S. policy 
in responding to those challenges.
    This morning, as I have said, we are going to focus on 
U.S.-Colombia policy. The hearing has been appropriately, I 
think, titled, ``U.S.-Colombia Policy: What's Next?''
    Colombia's democracy is in crisis. That is to state the 
obvious, and it did not happen overnight. Colombia's civil 
society has been ripped apart for decades by having one of the 
most violent societies in the Western Hemisphere, despite also 
having one of the longest records of democracy in the 
hemisphere. Historically, Colombian civil leaders, judges, 
politicians have put their lives in jeopardy simply by aspiring 
to positions of leadership and responsibility.
    The introduction of illicit drug cultivation and production 
has only heightened further this climate of violence in 
Colombia. Despite fears that must be pervasive in every 
Colombian's heart, tens of thousands of men and women have 
allowed and still allow their names to appear on electoral 
ballots in election after election. These are truly courageous 
people who deserve our respect and complete admiration for 
their willingness to stand up and to fight for democracy in 
their communities throughout Colombia.
    Two years ago, I supported U.S. efforts to become partners 
with the Pastrana administration's efforts to address 
Colombia's problems. I said at that time that I believed that 
it was critically important that we act expeditiously on the 
Plan Colombia assistance package, because our credibility was 
at stake with respect to responding to a genuine crisis in our 
own hemisphere.
    We also needed to make good on our pledge to come to the 
aid of President Pastrana and the people of Colombia in their 
hour of crisis, a crisis that has profound implications for 
institutions of democracy in Colombia, throughout this 
hemisphere, and right here at home as well. No one I know has 
claimed that things have dramatically turned around in Colombia 
since the United States endorsed Plan Colombia and began to 
provide significant resources to support its implementation.
    Narco-traffickers, in concert with right and left-wing 
paramilitary organizations, continue to make large portions of 
the country ungovernable. Until recently, their activities were 
restricted to sparely populated rural areas of the nation, to 
places where the government, government order and services had 
never existed. Now, with the end of the FARC-Government peace 
process, and in an effort to disrupt upcoming elections, the 
FARC has increasingly focused on urban areas, especially 
critical economic infrastructures in the nation.
    Nor have these threats to Colombia's democracy remained 
within its borders. The ill effects are being felt by all of 
Colombia's neighbors, Ecuador, Colombia obviously, Peru, 
Bolivia, Venezuela, Panama, and Brazil. Colombia's problems are 
having a profound impact on the stability and security of the 
entire region, yet there is little or no sustained regional 
support for Colombia's efforts to deal with the narco-terrorist 
threat. This is very difficult to understand. It is deeply, 
deeply disappointing to this Member of the U.S. Senate that we 
have not seen more interest and cooperation from the 
neighboring countries in the Andean region on this issue.
    The Bush administration has decided that our current policy 
is too narrowly focused to counternarcotics cooperation, and is 
seeking to loosen restrictions on past and future assistance. 
What the administration has not done yet, in my view, is to 
clearly describe what our stake is in Colombia, what changes 
are needed to the current policy, and what we hope to achieve 
by making these changes.
    The administration needs to describe whether and how they 
will mobilize regional support for our policy. Nor has the 
administration, in my view, outlined the costs and benefits of 
our deeper involvement in this issue. I am certainly open to 
considering changes to our existing policy, but I want to know 
with more specificity what those changes are and how they are 
going to make things better, not only for Colombia and the 
region, but also the United States' interests.
    I hope in the course of this morning's proceedings that we 
will hear the administration's rationale for seeking the 
loosening of restrictions on past and future aid to Colombia, 
examine the state of the ongoing conflict in that nation, 
assess the effectiveness of current counternarcotics programs, 
and scrutinize the human rights situation.
    I mentioned earlier the kind of numbers and statistics over 
the last 15 years in Colombia, and I know I have cited these on 
many occasions, but I think they deserve being repeated over 
and over again to make the point. We have seen more than 200 
bombs exploded in Colombian cities, including one recently 
against Presidential candidates, the Archbishop of Cali was 
murdered, an entire democratic party was assassinated, 4,000 
people all wiped out in one political party as part of the 
violence in Colombia.
    A Colombian Senator and her aide, Marta Daniels, were 
assassinated. Ingrid Betancourt has been kidnaped, a candidate 
for the Presidency in Colombia; four Presidential candidates 
have been executed, assassinated; 200 judges and investigators 
have been killed, assassinated; one half of Colombia's Supreme 
Court was wiped out by terrorist activity; 1,200 police 
officers, 151 journalists, and 300,000 ordinary citizens have 
been displaced in the process; 40 candidates running for 
municipal office in the last election were either kidnaped or 
killed in Colombia, to give you some idea of the magnitude of 
this problem that goes on in that nation. It is staggering, the 
numbers, when you think of it, what has occurred in just 15 
years of violence in Colombia.
    At any rate those numbers, as I say, I have repeated them 
often, but I think for those who may not be familiar with what 
has occurred in Colombia in recent years, it will give you some 
idea of the magnitude of civil unrest and civil violence in the 
nation.
    But anyway, I welcome the witnesses here this morning. I 
thank them immensely for their willingness to be here and to 
participate in this important hearing, and before turning to 
them, we have been joined by my colleague from Rhode Island, 
the ranking member of the subcommittee and someone who cares 
deeply about the region, Senator Chafee. Any opening comments 
you want to make?
    Senator Chafee. Mr. Chairman, thank you very much. Sorry 
for my tardiness.
    My own thoughts on Colombia are that it is important that 
we keep a sense of how the public themselves in Colombia are 
feeling about the violence, and it has, of course, been four 
decades, and on and on it goes. And I think as it first 
started, perhaps, it was a movement against, I think, what one 
of the insurgents called the ``rancid oligarchy,'' but my sense 
now is that that has changed, and that public opinion is 
opposed to the insurgents of both right wing and left wing, and 
I think that is important for our own experience as to how much 
the United States is going to get involved, given the 
experiences we have had, some good, some not-so-good in 
Southeast Asia and Somalia and some other places around the 
world.
    My cousin is married to a Colombian, and he, my cousin's 
husband, Guillermo, writes to me occasionally, and I just got a 
letter last night saying that as he wrote the thoughts to me a 
car bomb exploded. And as the chairman mentioned, all the 
violence throughout the country--this particular bomb was in 
his parents' home town and, as he said, ``My parents, who are 
in their eighties, have walled themselves in their own home for 
fear of this wave of bombings.''
    It is just a situation that cries out for civilized 
countries to come to their aid, and I think that we do have a 
role to play, and the key is whether the citizens themselves in 
Colombia want our intervention or not, and whether we can, in 
the short term or the long term, bring some kind of stability 
to that good country.
    Senator Dodd. Very good, excellent statement, and we will 
make that letter part of the record, unless there are parts of 
it you do not want to include in the record.
    Senator Chafee. Yes, I would like to make it a part of the 
record. I will amend parts of it.
    Senator Dodd. Well, thank you.
    [The letter referred to follows:]
                                             April 9, 2002.
    Dear Linc and Steffanie,

    Thanks for your kind handwritten note about Colombia.
    Everything is downhill for Colombia. Two prominent women are killed 
and the country is in shock. After a commercial airplane is hijacked 
and a senator kidnapped, the peace process is broken. lngrid 
Betancourt, a presidential candidate is also kidnapped so that she may 
be ransomed for imprisoned guerrillas. The infrastructure of the 
country is being blownup by the guerrillas as a way of demonstrating 
their frustrating strength that has not won them any popular following. 
When the news could not get any worse, after daily news of 
assassinations, massacres, kidnappings, attempts to poison the water 
supply of Bogota, the archbishop of Cali is barbarically shot after he 
has happily married over one hundred couples in a poor neighborhood.
    The FARC do not want to negotiate in good faith. After 40 years in 
the jungle they still cling to the idea that power is within their 
grasp. They have not abandoned their hard line ideology of coming to 
power by random acts of terror and the belief that the masses would 
rise to crush the existing order that oppresses them. Though, 
Colombians, no matter how poor they are do not support a state system 
that did not work in Cuba or the old Soviet Union.
    After 9/11 the world changed. Unbeknown to the FARC, their world 
also changed. The welcome doors that had been flirtatiously open to the 
them by the European left, are now closed to them since almost no 
country in the world would support an organization that has been 
labeled terrorist and drug trafficking. Venezuela, is the only country 
that covertly supports them. Chavez of Venezuela sees himself as 
Bolivar's heir. A Colombia under turmoil would be ripe to fall under 
his orbit, the first of many countries that would reestablish his dream 
a Gran Colombia re- born and re-united under him to break the grip, in 
his words, of the ``rancid oligarchies'' that have kept these old 
Bolivarian countries poor and rootless. Chavez, who is testing the 
resolve of the American Administration to maintain the supply of 
Venezuelan oil flowing to the East Coast does not fully understand that 
his world also changed on 9/11. He will not learn much from the failed 
coup d'etat. His personal government will continue on a mercurial and 
erratic path.
    In a guerrilla war, the insurgents adopt hit and run tactics 
against a numerically superior enemy. A very small number of men, can 
destroy the infrastructure and morale of a country by phantom tactics 
of violence. ln the absence of good faith political efforts to end the 
conflict, the Colombian Government will have to dramatically quintuple 
its forces. From 200,000 soldiers it will have to increase its military 
forces to a million men under arms. This is also the view of Alvaro 
Uribe. A million armed men would impose a double pronged solution: The 
military one would re-establish control over its territory, and the 
social one would make the country fairer and juster.
    The roots of the conflict are unmet social expectations. High 
unemployment, a poor educational system, a high level of corruption. A 
generation of children who went to school in the 60s and 70s were 
educated by socialist teachers, and a new generation of Colombian 
school children would need to be educated to respect the rights and 
political opinions of others. Sometimes it is cheaper for a candidate 
to have his political rival assassinated rather than having to campaign 
in the open against him.
    Colombia will elect a new president on May 26th. The majority of 
the country, if the elections were held today, would vote for Alvaro 
Uribe, who feels an open war is inevitable. The killing of his father 
in a failed kidnapping in 1983 defines his political and personal life. 
His father was killed because a weak state was unable to protect him. 
Kidnappings occur by the thousands. Children might be kidnapped for 
groceries, the guerrillas ``retain'' anyone at random to collect a 
``peace tax'', or to bring the war to the heart of the ``oligarchs''. 
As a reaction to this violence and chaos, Uribe represents the 
political center that desires safety, education, and tranquility for 
all. Colombians want to live in peace; the political center is tired of 
concessions to the guerrillas by a weak state. The state handed over to 
FARC a large part of its territory without demanding concrete goals. By 
creating a haven for the guerrillas, Colombia received no benefits: the 
kidnappings, disappearances, and killings make Colombia one of the most 
dangerous places on earth. The coca and poppy fields in the area of 
rebel control increased in area at a faster rate faster than the areas 
that were eradicated.
    Uribe's is very popular because he spouses a firm return to law and 
order. The country is on a war footing because the peace talks led to 
nowhere. This center feels caught between the old order of a very 
passive elite, and the violent actions of criminal groups that have 
destroyed the ``liberty and order'' of their lives. He dreams of a 
``firm and just society'' run by the middle class and small businessmen 
who are afraid of the present chaos and violence. He supports the plan 
Colombia because Colombia's problems are more regional than local.
    Is he different from other politicians? He is ahead in the polls 
because the average Colombian trusts his political analysis of the 
country. The other candidates are in a rush to stop him. Anyone but 
Uribe they say by questioning his good faith and judgement. The 
paramilitaries sympathize with his candidacy but no links to them have 
ever been proved.
    As I am ready to mail you my random thoughts on Colombia, a car 
bomb killed over 13 young people and injured almost a hundred of them 
as it exploded outside a disco in Villavicencio, my hometown. The FARC 
urban cells, as a way of deflecting the pressure that the army is 
inflicting on the guerrillas in the country side, have gone on a 
senseless bombing rampage of towns and cities. My parents, who are in 
their 80s, have walled themselves in their own home for fear of this 
wave of bombings. The FARC would like to have anyone elected president 
but Uribe. They will try again to assassinate him because he is the 
candidate most feared by them.
            Love to all of you,
                                                  Guillermo

    Senator Dodd. Marc, we appreciate your being here, and I do 
not know how you want to proceed. You mentioned to me you 
wanted to make a statement, a broader statement, and then 
supporting statements from your two colleagues, and if that is 
the way you would like to proceed, then we will do that. And I 
will make this apply to all of our witnesses, but any data, 
materials, maps, supporting material you would like to have as 
a part of this permanent record will be included in the record.
    So I am going to put a clock on here, but I do not want you 
to feel required to live by this. This is just to give you some 
sense, and let us make it--why don't we make it 8 minutes or so 
here, and if you need a longer time, obviously, take it, but to 
give some sense of what the time is like.
    Thank you for being here.

 STATEMENT OF HON. MARC GROSSMAN, UNDER SECRETARY OF STATE FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Grossman. Mr. Chairman, thank you very much. Let me 
first of all join you, and I am sure all of us on the panel, in 
wishing Senator Helms the very best. We were surprised and 
shocked to hear about his entry into the hospital this morning, 
and we join you very much in saying, especially in this room at 
this time, that we hope he will be back with us soon.
    I also want to thank you very much for allowing us to put a 
longer statement and maybe some maps and charts in the record. 
That will help us very much.
    I also want to thank you and Senator Chafee both for your 
opening statements. I appreciate what you say. We have a hard 
job to do. There are very hard questions here that, as you say, 
we ask ourselves and that you ask yourselves, and I hope this 
hearing and this conversation will help you understand a little 
bit better where we have come out and also move this process 
forward. And Senator Chafee, I agree with you also very much 
that this is a time when civilized countries really need to 
come to the aid of Colombia, and I think that was very well 
said, Senator.
    If I could get this down to one sentence, one bullet, it is 
that Colombia matters to the United States. You both made that 
point I think extremely well. I also want to say that Colombia 
has been a key partner in our effort to try to help Colombia as 
they deal with these issues of narcotrafficking, 
underdevelopment, human rights abuses, and terrorism.
    I also want to say that many members of this committee and 
the subcommittee have traveled to Colombia, and we very much 
appreciate that effort that people make to travel, and for 
those who were considering travel, I hope that they will go, 
because the U.S. Senate and the U.S. Congress has a big impact 
in making your points in Colombia as well.
    If I also might just start out if I could, Senator, by 
paying tribute to the tremendous men and women who represent 
the United States of America in Colombia. They do a great job. 
They have great leadership under Ambassador Ann Patterson and 
all the people who are there, civilian or military, I think 
deserve our support for a very difficult job that they 
undertake.
    I also cannot pass up the opportunity, Senator, if you 
would allow me to just make a pitch for the Andean Trade 
Preferences Act, and I hope the Senate will find a way to deal 
with that.
    Senator Dodd. I hope so, too. It is outrageous we have 
taken this much time.
    Mr. Grossman. Senator, you sent me a letter in which you 
asked us to try to deal directly with what is going on in 
Colombia and what kind of changes we seek in the law, and on 
March 21, the administration asked the Congress for new 
authorities. We believe that the terrorist and the narcotics 
threat in Colombia are linked, they are intertwined. As 
President Bush and President Pastrana spoke last week when they 
were together, we need a strategy now about how to change the 
focus on counternarcotics to include counterterrorism.
    If I can just deal with this up front as clearly as I 
possibly can, here is what these new authorities would allow us 
to do. First, we want to address the problem of terrorism in 
Colombia as vigorously as we are currently addressing 
narcotics, and second we want to help the Government of 
Colombia address the heightened terrorist risk that has 
resulted from the end of the demilitarized zone.
    If I can also be as clear and up front as I possibly can, 
here are the things we will not do. We are not seeking--first, 
we will not stop a human rights vetting of Colombian military 
units receiving U.S. assistance. We are committed to abiding by 
the Leahy amendment.
    Second, we will not exceed the 400-person cap on U.S. 
military personnel providing training in Colombia, nor the 400-
person cap on U.S. civilian contractors. We are committed to 
the Byrd amendment.
    Third, we will not do away with the requirement in the 
Foreign Operations Act that the Secretary of State certify on 
Colombian Armed Forces human rights records before we provide 
assistance to the Armed Forces, and finally we do not intend, 
we will not bypass regular reprogramming requirements.
    What we seek is flexibility that would enable Colombia to 
use U.S.-provided helicopters and the counterdrug brigade from 
Plan Colombia to fight terrorism. We would also be in a 
position, as General Speer will talk about, to provide more 
information to the Colombians.
    Let me also be clear that as Colombians use these 
helicopters and this equipment, if this authority is granted, 
they would continue to be subject to existing Leahy 
restrictions and, as I said to you before, we look very much 
forward to talking with you about this and debating this 
proposition with you.
    Senator Dodd, in your introduction you contrasted where we 
were perhaps some years ago and where we are today in the 
hemisphere, and I think that we all have got to work hard to 
preserve this hemisphere consensus in favor of democracy, the 
rule of law, human rights, open markets, and social progress.
    I thought one of the great events of last year was the 
Quebec summit, where democratically elected heads of state and 
governments came together and set the goals of the hemisphere, 
democracy, security, and prosperity, and my question is, what 
good are these principles if they are trampled in Colombia?
    Colombia's democracy is under assault, and Senator Dodd, 
you gave statistics that are right in line with mine, in fact, 
better than mine. Colombian democracy is under assault from 
three terrorist groups, from the FARC, from the AUC, from the 
ELN. The FARC and the AUC are involved in every single facet of 
narcotics trafficking, including cultivation, processing, and 
transportation, and the income they derive from this narcotics 
trafficking, which we estimate to be almost $300 million a 
year, has been a key to their expansion.
    As you said, Senator, they attack democracy by attacking 
candidates, by attacking leaders, by attacking representatives 
of Colombian democracy, but they also attack Colombian 
democracy by bombing key infrastructure, by bombing, for 
example, the Cano Limon oil pipeline, which cost the government 
almost $500 million in lost revenue.
    Terrorist attacks resulted in almost 300,000 Colombians 
killed in 2001, and another 2,856 were kidnaped. And as you 
say, the FARC and the ELN and the AUC also threaten regional 
stability. Those groups also threaten American interests. Since 
1992, the FARC and the ELN have kidnaped 51 U.S. citizens and 
murdered 10 and, of course, there are American victims of 
Colombian violence on our streets, because Colombia supplies 90 
percent of the cocaine consumed in the United States, and is a 
significant source of heroin as well.
    Mr. Chairman, you talked about President Pastrana's efforts 
and President Pastrana's great goal in Plan Colombia. He 
launched Plan Colombia in 1999, a $7.5 billion effort, and we 
believe that the Government of Colombia is well on its way to 
funding its commitment under Plan Colombia, having spent $2.6 
billion for Plan Colombia projects and another $426 million on 
social services and institutional development that are related 
to Plan Colombia and, with the strong support of the Congress, 
since July 2000 the United States has provided Colombia with 
$1.7 billion in support for that plan to combat narcotics 
trafficking and terrorism, strengthen democracy, strengthen 
Colombia's institutions, strengthen our effort on human rights, 
foster development, and mitigate the impact of violence on 
Colombian citizens.
    We get asked a lot, have we made any progress in this area? 
And in my statement for the record, Mr. Chairman, I have given 
you 11 specific examples of where we have made progress. For 
example, we have delivered to the Colombian National Police 8 
of the 11 helicopters to be provided under Plan Colombia, and 
the Colombian military has now received 35 of the 54 
helicopters that it is programmed to receive under the plan.
    The Government of Colombia, another example, has extradited 
23 Colombian nationals to the United States in 2001, which is 
an unprecedented level of cooperation.
    Senator Dodd. You might just, as a matter of comparison--
President Pastrana mentioned that the other day. I forget the 
number he cited, but prior to his assumption of office I think 
the number was----
    Mr. Grossman. It is tiny. We have actually got a chart 
here. It is pretty graphic, and one of the reasons we have been 
involved with them on such a great level, and also their 
commitment to dealing with the drug problem, and as I say, that 
is quite a telling chart.
    As I say, we have trained and equipped the Colombian Army's 
counternarcotics brigade, which has destroyed 818 base 
laboratories and 21 hydrochloride laboratories, and provided 
security for our aerial eradication. Most people believe this 
is the best-trained unit in the Colombian military.
    We have sprayed a record number of hectares against drugs. 
We funded a program that has provided protection to 1,676 
Colombians whose lives were threatened, including human rights 
workers, labor activists, and journalists. We have got an early 
warning system going so when the Government of Colombia hears 
about a potential attack from a FARC or the ELN or the AUC they 
have got a chance to go in and stop it, and that has been used 
106 times over the past year, and we have also provided 
assistance to almost 300,000 Colombians who have been made 
internally displaced by this violence. And so we think in a lot 
of categories--and as I say, for the record I have given you 11 
of them where we have really made progress since September of 
last year, when we started to spend money on Plan Colombia.
    Alternative development. I think it is worth spending a 
moment here, Mr. Chairman, even though perhaps we are not the 
greatest experts in alternative development, that this remains 
a key part of U.S. interest and a key part of our overall 
effort in Plan Colombia. As you know, and everybody else who 
has looked at this program knows, promoting alternative 
development in Colombia is not easy. The security situation 
makes it more difficult.
    The challenges of alternative development in the area in 
which we are working make it more difficult, and here I pay 
tribute to our people in Colombia and in AID who are changing 
the way we do alternative development. And again, in my 
statement for the record I tried to provide some details in the 
new way we intend to make this issue a success for the United 
States and for Colombia as well.
    Human rights. It has got to be said, and I want to say it 
as clearly as I possibly can. The human rights remain, are, 
must be a central element in our Colombia policy. When I was 
last in Colombia in February, I had a chance to tell President 
Pastrana and his senior leadership that human rights remains 
for us absolutely key to all of our efforts. I had the chance 
to say exactly the same thing to all of the Presidential 
candidates. Army Commander General Shineki was there a few 
weeks ago, gave the same message, and I know General Speer does 
as well.
    We think that this human rights message we are giving to 
the Colombians and very much to the Colombian military is 
having a difference. A couple of statistics. The Colombian 
military captured 590 paramilitary people last year and killed 
92 in combat. Eight military personnel, including two colonels, 
a lieutenant colonel, were charged in civilian court for 
collaborating with paramilitaries who were committing gross 
human rights violations in the year 2001, and a senior 
Colombian naval officer's career has been effectively ended 
because of allegations that he collaborated with the 
paramilitaries, so we think our message is having some effect.
    Still, it is clear that too many Colombians suffer human 
rights abuses, and this is an area we need to continue to focus 
our attention on.
    Our view is, the best way to ensure that Colombia continues 
to make progress in human rights is through continued U.S. 
engagement. One of the most interesting meetings I had, 
Senator, when I was in Colombia in February, was with a group 
of human rights groups, and to a person, all of them said that 
the most important thing we could do in Colombia is 
professionalize the military, train the military so that they 
would have a fair and honest chance of being secure.
    I was really struck by this, and one of the things I think 
we can be most proud of is the way that vetted unit of ours 
operates in the field. As I say, we have asked for new 
authorities. We believe those new authorities will help both 
President Pastrana, his successor, and the United States.
    President Pastrana asked for help just after 20 February 
when he ended the zone, and inside of our regulations and our 
laws we tried to provide as much help as possible, but it was 
in consulting with the Congress, both in the House and in the 
Senate, that we heard back one very important thing. People 
said, do not stretch the definition of counternarcotics. Do not 
play games with the law.
    So we came up and we said, fair enough. That is a fair 
point. We want to stay within the law, but here is now an 
opportunity to test, to talk, and to debate whether we want to 
move from just a counternarcotics mission to a counterterrorist 
mission, so one of the reasons we are here, one of the reasons 
we have made this proposition is, in our consultations after 20 
February people urged us, if we needed something different, to 
come up, talk about it honestly, and ask for it 
straightforwardly. The new authorities recognize that terrorist 
and narcotics problems together threaten Colombia's security 
and prosperity and democracy.
    Two other quick points, Senator, then I will stop. First, 
the peace process. I think you very rightly said that President 
Pastrana should not look back on his time as a failure because 
he was not able to make peace with the FARC and the ELN. We 
support his peace effort, and we continue to do so, and to the 
extent that he can move forward on some peace process with the 
ELN, we will continue to support that as well.
    Mr. Chairman, Mr. Chafee, your support will be crucial in 
the days ahead as we discuss our proposal for new and 
supplemental funding for our assistance to Colombia as well as 
our 2003 budget request and, as you said in your opening 
statement, Senator, we want to work together with you to make 
sure that the United States has the very best policy possible 
for Colombia so that Colombians are not denied what we all 
want, which is this prosperity, security, and democracy, which 
ought to be the consensus in this hemisphere.
    So I thank you very much, sir. That was an overview, and I 
hope my colleagues will not abuse your time and make the points 
that they want in a useful way.
    [The prepared statement of Mr. Grossman follows:]

Prepared Statement of Hon. Marc Grossman, Under Secretatry of State for 
                           Political Affairs

    Thank you for inviting me to testify before you today on our policy 
in Colombia.
    I greatly appreciate the opportunity to exchange views on how we 
can best help Colombia address the tremendous challenges it faces as 
well as to review with you how we are doing in trying to advance 
American interests in Colombia. I will also detail the new authorities 
the Administration is seeking in order to better meet these challenges 
and enable Colombians to defend their democracy and achieve a secure 
and prosperous future.
    Colombia matters to the United States.
    Congress has been a key partner in our efforts to help Colombia 
defend its democracy from the demons of narcotrafficking, 
underdevelopment, human rights abuses, and terrorism.
    Many of you have traveled to Colombia. I thank you for your 
engagement. For those who are considering travel to Colombia, I urge 
you to go. Your visits make clear everything America stands for--
democracy, security and prosperity--both in the U.S. and in Colombia.
    I cannot pass up this opportunity, Mr. Chairman, to urge you to 
pass the Andean Trade Preferences Act as soon as possible.

  <bullet> Renewing ATPA is a national security issue.
  <bullet> ATPA has been an effective weapon in our fight against drugs 
        by fostering economic alternatives to illegal narcotics 
        production.
  <bullet> ATPA will promote economic development which in turn will 
        help defeat the scourge of drug trafficking while building 
        stronger democratic institutions.
  <bullet> ATPA is a reflection of a long-term U.S. commitment to 
        working with the Andean region to address issues of fundamental 
        interest to all of us.

    On March 21, the Administration asked the Congress for new 
authorities. The terrorist and narcotics problems in Colombia are 
intertwined. President Bush recognized this link when he stated on 
April 18 after his meeting with President Pastrana, ``We've put FARC, 
AUC on our terrorist list. We've called them for what they are. These 
are killers, who use killing and intimidation to foster political means 
. . . By fighting narco trafficking we're fighting the funding sources 
for these political terrorists. And sometimes they're interchangeable. 
It is essential for Colombia to succeed in this war against terror in 
order for her people to realize the vast potential of a great, 
democratic country . . . I am confident that with the right leadership 
and the right help from America . . . Colombia can succeed. And it is 
in everybody's interests that she does succeed.'' The President added 
that he discussed with President Pastrana ``how to change the focus of 
our strategy from counternarcotics to include counterterrorism.''
    Here is what the new authorities we seek would allow us to do:

  <bullet> address the problem of terrorism in Colombia as vigorously 
        as we currently address narcotics; and
  <bullet> help the Government of Colombia address the heightened 
        terrorist risk that has resulted from the end of the 
        demilitarized zone.

    Here is what we will not do:

  <bullet> We will not stop our human rights vetting of all Colombian 
        military units receiving U.S. assistance. We are committed to 
        abiding by the Leahy amendment.
  <bullet> We will not exceed the 400 person cap on U.S. military 
        personnel providing training in Colombia, nor the 400 person 
        cap on U.S. civilian contractors. We are committed to abiding 
        by the Byrd amendment.
  <bullet> We will not do away with the requirement in the Foreign 
        Operations Appropriations Act that the Secretary of State 
        certify on Colombian Armed Forces' human rights record before 
        we can provide assistance to the Armed Forces.
  <bullet> We will not bypass regular reprogramming requirements.

    We were not interested in stretching the existing counter-drug 
authorities and because we are committed to abiding by the restrictions 
and laws you enact, we come to you today to seek new authorities to 
respond to the needs for a new mission--to combat terrorism.
    The authorities we seek would enable Colombia to use U.S.-provided 
helicopters and the counter-drug brigade from Plan Colombia to fight 
terrorism some of the time as needed. Let me be also clear that use of 
those helicopters and all other equipment and units would continue to 
be subject to existing Leahy restrictions.
    I look forward to discussing this proposal with you.
         hemispheric vision: democracy, prosperity and security
    We can be proud of the hemispheric consensus in favor of democracy, 
rule of law and human rights, open markets and social progress. As 
President Bush stated at the April 2001 Quebec Summit of the Americas, 
``We have a great vision before us, a fully democratic hemisphere bound 
together by goodwill and free trade. That's a tall order. It is a 
chance of a lifetime. It is a responsibility we all share. The 
interests of my nation, of all our nations, are served by strong, 
healthy democratic neighbors, and are served best by lasting 
friendships in our own neighborhood.''
    At Quebec, 34 democratically-elected heads of state and government 
agreed on:

  <bullet> a democracy clause which makes democratic government a 
        requirement for participation in the summit process;
  <bullet> an approved action plan to promote economic prosperity, 
        protect human rights, and fight drug trafficking and organized 
        crime; and
  <bullet> a 2005 deadline for the Free Trade Area of the Americas.

    Democracy, security, prosperity.
    What good will these principles be if they are trampled in 
Colombia?
                     colombia: assault on democracy
    Colombia's 40 million inhabitants and its democracy are under 
assault by three narcoterrorist groups--the Revolutionary Armed Forces 
of Colombia (FARC), the National Liberation Army (ELN) and the United 
Self-Defense Forces of Colombia (AUC).
    The three groups--with a combined force of over 25,000 combatants--
regularly engage in massacres, kidnappings, and attacks on key 
infrastructure. The FARC and AUC are involved in every facet of 
narcotics trafficking, including cultivation, processing, and 
transportation. The income they derive from narcotics--estimated at 
over $300 million a year--has been key to their expansion--both in 
numbers and armament--over the last ten years.
    These groups attack your counterparts. AUC killed two Colombian 
legislators over the last twelve months. The FARC kidnapped six 
Colombian legislators, including presidential candidate Ingrid 
Betancourt. The three terrorist groups assassinated 12 mayors in 2001. 
FARC efforts to disrupt the March 10 legislative elections failed, but 
the terrorist group will undoubtedly try to interfere with the May 26 
presidential elections as well.
                    colombia: assault on prosperity
    ELN and FARC bombings of the key Cano Limon oil pipeline cost the 
Government of Colombia almost $500 million in lost revenue last year--
equal to almost one-third of Bogota's spending on health for its 
citizens. FARC strikes against the country's power grid in February 
left 45 towns, including two departmental capitals, without electricity 
for days. The FARC also attempted twice to blow up a dam near Bogota, 
actions which--if successful-- could have killed thousands of 
civilians. Fortunately, Colombian security forces thwarted both 
attempts.
                     colombia: assault on security
    Terrorist attacks on Colombia's security have resulted in over 
3,000 Colombians killed in 2001. Another 2,856 were kidnapped, with the 
ELN, FARC and AUC responsible for almost 2,000 victims.
    In the former demilitarized zone, the Colombian military recently 
found two large FARC-run cocaine laboratories and 7.4 metric tons of 
cocaine.
    AUC Commander Carlos Castano has publicly admitted that the AUC 
obtains 70% of its income from narcotics. FARC and AUC activities in 
southern Colombia have been a major obstacle to our aerial eradication 
and alternative development programs, especially in Putumayo and 
Caqueta.
    The FARC, ELN, and AUC also threaten regional stability. The FARC 
regularly uses border regions in Panama, Ecuador, Brazil and Venezuela 
for arms and narcotics trafficking, resupply operations, and rest and 
recreation. The insecurity created by the FARC, AUC, and ELN creates a 
haven for criminal activity that affects Colombia's neighbors.
    Since 1992, the FARC and ELN have kidnapped 51 U.S. citizens and 
murdered ten. Colombia supplies 90% of the cocaine consumed in the U.S. 
It is also a significant source of heroin.
           colombian response to growth in terrorist violence
    In 1999, President Pastrana responded to the crisis undermining 
Colombia's democracy, prosperity and security with the launch of the 
six-year, $7.5 billion Plan Colombia. Plan Colombia calls for 
substantial Colombian social investment, judicial, political and 
economic reforms, modernization of the Colombian Armed Forces, and 
renewed efforts to combat narcotrafficking.
    The Government of Colombia is well on its way to funding its 
commitment under Plan Colombia having spent $2.6 billion for Plan 
Colombia-related infrastructure projects, including a hospital in 
Puerto Guzman, a school in Orito and a farm to market road in Mocoa, as 
well as projects regarding human rights, humanitarian assistance, local 
governance, and the environment. Colombia has also spent $426 million 
on social services and institutional development, including family 
subsidies and programs for job creation and youth training.
    The Government of Colombia's contribution to Plan Colombia is being 
used for counterdrug efforts and social and economic development 
projects. These projects include social and infrastructure programs in 
Putumayo Department, in southern Colombia, the site of the heaviest 
concentration of coca growth. Colombia has also continued to modernize 
its armed forces; stabilized its economy in accord with IMF guidelines; 
and undertaken an aerial eradication program resulting in the 
destruction of unprecedented amounts of coca.
                     u.s. support for plan colombia
    U.S. support has been a key component of Plan Colombia. With your 
support, since July 2000, the U.S. has provided Colombia with $1.7 
billion to combat narcotics trafficking and terrorism, strengthen 
democratic institutions and human rights, foster socio-economic 
development, and mitigate the impact of the violence on Colombian 
civilians. Our assistance to Colombia using Plan Colombia funds is 
limited to support of counternarcotics activities.
    Have we had any success? Let me give you eleven examples of what we 
have already in the works:

  <bullet> First, we have delivered to the Colombian National Police 8 
        of the 11 helicopters to be provided under Plan Colombia. The 
        Colombian military has received 35 of the 54 helicopters that 
        it is programmed to receive under the plan.
  <bullet> Second, The Government of Colombia extradited 23 Colombian 
        nationals to the U.S. in 2001, an unprecedented level of 
        cooperation.
  <bullet> Third, we trained, equipped, and deployed the Colombian 
        Army's counternarcotics brigade, which destroyed 818 base 
        laboratories and 21 HCL (hydrochloride) laboratories, and 
        provided security for our aerial eradication operations in 
        Southern Colombia. Operating as part of a Colombian Joint Task 
        Force (JTF-South), we judge it the best brigade-sized unit in 
        the Colombian military.
  <bullet> Fourth, with Colombians we sprayed a record potential 84,000 
        hectares of coca cultivation last year, up from 58,000 in 2000, 
        and have set a goal of 150,000 hectares in 2002.
  <bullet> Fifth, through Colombia's Ministry of Interior, we have 
        funded, since May 2001, a program that has provided protection 
        to 1,676 Colombians whose lives were threatened, including 
        human rights workers, labor activists, and journalists.
  <bullet> Sixth, the U.S. Government-funded Early Warning System 
        alerts Colombian authorities to threats of potential massacres 
        or other human rights abuses, enabling them to act to avert 
        such incidents. To date, the EWS has issued 106 alerts.
  <bullet> Seventh, the U.S.--working with non-governmental 
        organizations and international agencies--has provided 
        assistance to 330,000 Colombians displaced by violence since 
        mid-2001.
  <bullet> Eighth, our program to demobilize child soldiers has helped 
        272 children to reintegrate into society.
  <bullet> Ninth, we have implemented programs to help the Government 
        of Colombia reform its administration of justice and strengthen 
        local government. We have opened 18 Casas de Justicia, which 
        provide cost-effective legal services to Colombians who have 
        not previously enjoyed access to the country's judicial system.
  <bullet> Tenth, our program to help municipalities improve their 
        financial management, fight corruption, and boost community 
        participation has completed six Social Investment Fund projects 
        in southern Colombia.
  <bullet> Eleventh, we are also helping the Prosecutor General's 
        Office set up human rights units throughout the country to 
        facilitate the investigation and prosecution of human rights 
        abuses.
                        alternative development
    We remain committed to alternative development as a key component 
of our overall effort in Colombia.
    Promoting alternative development in Colombia is not easy. The 
security situation is a major obstacle and there is no alternative 
agricultural production that can match the income of coca production. 
The limited insitutional capacity of the Colombian Government agency 
charged with implementing the programs has also been a problem.
    I have great respect for the people in our Mission in Bogota, and 
USAID here in Washington, who recognized that we were not achieving the 
results we hoped for in alternative development and are making 
adjustments to our program.
    USAID wants communities to participate in drug control efforts and 
is designing programs that are less risky to implement under current 
security conditions. These adjustment include:

  <bullet> Working more closely with individual communities to tailor 
        the program to help these communities with the needs they 
        identify. For example, many villages are willing to abstain 
        from coca production in return for access to potable water or a 
        road to link them to a neighboring market.
  <bullet> Funding activities which improve the economic potential of 
        isolated regions such as Putumayo and boost temporary 
        employment and income of rural residents, encouraging them to 
        make the transition from coca to legal crop production or 
        employment opportunities.
  <bullet> Extending the alternative development program to areas 
        beyond southern Colombia, where conditions may be more 
        favorable for alternative income generation.

    As we move forward, we need keep in mind that, as the recent 
General Accounting Office February report on alternative development in 
Colombia noted: ``Without interdiction and eradication as 
disincentives, growers are unlikely to abandon more lucrative and 
easily cultivated coca crops in favor of less profitable and harder to 
grow licit crops or to pursue legal employment.''
    Therefore, it is critical that we continue an aggressive spraying 
and eradication campaign if we are to persuade communities to 
participate in alternative development programs.
                              human rights
    Human rights concerns are a central element in our Colombia policy. 
In meetings with senior Colombian civilian and military officials, U.S. 
officials regularly stress the need for Colombia to improve its human 
rights performance. During my visit to Bogota last February, I 
emphasized to President Pastrana that the Colombian military must take 
additional actions to sever any links between military personnel and 
paramilitary forces. I also met with the leading presidential 
candidates and made clear our expectation that they too be fully 
committed to improving human rights. Chief of Staff of the Army General 
Eric Shineki and Acting Commander for the Southern Command Major 
General Gary Speer have also traveled to Colombia and delivered strong 
human rights messages to their counterparts in the Colombian Armed 
Forces.
    Our human rights message is making a difference. President Pastrana 
and Armed Forces Commander Tapias have repeatedly denounced collusion 
between elements of the Colombian military and the paramilitaries.
    The Colombian military captured 590 paramilitaries and killed 92 in 
combat last year.
    Eight military personnel, including two colonels and a lieutenant 
colonel, were charged in civilian courts with collaborating with 
paramilitaries or with committing gross human rights violations in 
2001. A senior Colombian naval official's career has effectively ended 
because of allegations that he collaborated with paramilitaries.
    Still, too many Colombians continue to suffer abuses by state 
security forces or by terrorist groups acting in collusion with state 
security units. Those responsible for such actions must be punished. 
The establishment of the rule of law and personal security for all 
Colombians cannot happen if human rights abuses and impunity for the 
perpetrators of such crimes continue to occur.
    The best way to ensure that Colombia continues to make progress on 
human rights is through continued U.S. engagement. In fact, when I 
visited Colombia in February, representatives from civil society and 
human rights groups said that what Colombia needed most was a 
professional, accountable and strong military that can provide security 
against the terrorist actions of the FARC, ELN and AUC throughout the 
country. They said strong United States involvement was needed to make 
this happen.
    Colombia needs more U.S.-provided training and human rights 
vetting, not less. We would do this under the new authorities and 
programs we are proposing.
           new situation requires new authorities adjustments
    On February 20, President Pastrana ended the demilitarized zone and 
the Government of Colombia's peace talks with the FARC.
    Since February 20, the Colombian military has reoccupied the main 
urban areas in the former zone, while the FARC has continued its 
terrorist violence.
    President Pastrana has announced plans to increase Colombia's 
defense budget, currently at 3.2 percent of GDP, to cover the cost of 
heightened military operations, and to add 10,000 soldiers to the army. 
He also requested additional aid from the U.S. to help cope with the 
increased terrorist threat.
    We answered Pastrana's request for immediate help by providing 
increased information sharing on terrorist actions, expediting the 
delivery of helicopter spare parts already paid for by the Government 
of Colombia, and assisting the Colombians with eradication activities 
in the former zone.
    In the counterterrorism supplemental submitted on March 21, we are 
seeking new legal authorities that would allow our assistance to 
Colombia, including assistance previously provided, to be used ``to 
support a unified campaign against narcotics trafficking, terrorist 
activities, and other threats to its national security.''
    These new authorities recognize that the terrorist and narcotics 
problems together threaten Colombia's security, prosperity and 
democracy.
    Expanding the authorities for the use of aircraft and other assets 
to cover terrorist and other threats to Colombia's democracy does not 
ensure that Colombia will be able to address these multiple threats in 
the short-term. However, if approved, they will give us the flexibility 
we need to help the Government of Colombia attack this threat more 
efficiently and more effectively, in the shortest possible time, with 
resources already in Colombia.
    Our request for new authorities is not a retreat from our concern 
about human rights nor does it signal an open-ended U.S. commitment in 
Colombia. Our proposal expressly states that we will continue to do 
human rights vetting of all Colombian military units receiving U.S. 
training or equipment and will maintain the 800 person cap on U.S. 
military personnel and contractors providing training and other 
services in Colombia.
    In addition to new legal authorities, we are also seeking $35 
million in the counterterrorism supplemental to help the Colombian 
Government protect its citizens from kidnapping, infrastructure attacks 
and other terrorist actions. Our $35 million request is broken down as 
follows:

  <bullet> $25 million in Non-proliferation, Anti-terrorism, Demining 
        and Related Programs (NADR) funding for anti-kidnapping 
        training and equipment for the Colombian police and military;
  <bullet> $6 million in Foreign Military Funds (FMF) funding to begin 
        training for Colombian military units protecting the key Cano 
        Limon oil pipeline; and
  <bullet> $4 million in International Narcotics Control Law 
        Enforcement (INCLE) funding to help organize, train, equip and 
        deploy Colombian National Police units that will provide 
        security for the construction of reinforced police stations to 
        enable the police to reestablish a presence throughout 
        Colombia.
                              peace corps
    The U.S. Government remains supportive of the peace process. We are 
encouraged by the current talks between the ELN and the Government of 
Colombia, and hope that they will soon produce a viable, lasting peace 
accord.
                          colombian commitment
    The U.S. is committed to helping Colombia in its fight against 
terrorism's assault on its democracy, prosperity and security, but 
Colombians must take the lead in this struggle. Colombia needs to 
develop a national political-military strategy, boost the resources 
devoted to security, implement economic reforms, improve human rights 
protection, and sustain vigorous and effective counternarcotics 
programs.
                               conclusion
    Mr. Chairman, members of the Committee, your support will be 
crucial in the days ahead as you discuss our proposal for new and 
supplemental funding request for our assistance to Colombia, as well as 
our FY-03 budget request. I look forward to maintaining a dialogue with 
you as we work together to help provide Colombia's democracy the tools 
it needs to build a secure, prosperous and democratic life for its 
citizens. The people of Colombia must not be denied the opportunity to 
enjoy the benefits of a hemisphere united by open markets, democratic 
governments, respect for human rights, and the rule of law. Thank you.

    Senator Dodd. Thank you very much, Mr. Secretary. We will 
now hear from Peter Rodman, Assistant Secretary for 
International Security Affairs in the Department of Defense.

   STATEMENT OF HON. PETER W. RODMAN, ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Rodman. Thank you, Mr. Chairman. I, too, want to thank 
the chairman and Senator Chafee and the subcommittee for your 
courtesy to us. I, too, want to associate myself with the good 
wishes for Senator Helms. You have my prepared statement, so I 
just wanted to speak briefly to highlight a couple of points, 
if I may.
    We have had in the past few years a bipartisan consensus in 
support of Plan Colombia, and I am sure that has a lot to do 
with its effectiveness. We believe it has been a success. It 
has achieved many of its objectives, and I think our hope is in 
coming before you to help nurture a similar bipartisan 
consensus in support of the modifications in policy that we are 
proposing.
    Plan Colombia, as Marc said--I want to wholeheartedly 
endorse his statement of what the stakes are. Colombia is a 
friend, it is a democracy, it is a country we have a huge stake 
in, for a number of reasons. This is a friendly government that 
is under pressure from extremists of both left and right. We 
believe we have the ability to help it, and that that is 
something that the United States really has to do and, in fact, 
the failure, if Colombia fails in this present effort, this is 
a disaster for the hemisphere.
    The new approach that we are proposing is not a wholesale 
new policy, it is not a vastly expanded commitment. To some 
extent it is a request for some new flexibility, which would in 
our view allow us the more effective use of many of the things 
we are already doing to support the Colombians, particularly in 
the military field.
    The reason for coming before you with some new ideas is 
that a number of things have changed in the recent period. 
First of all, I might mention there may be a new understanding 
that we have of the nexus between narcotics and terrorism with 
respect to the FARC, perhaps more awareness of this than we had 
in earlier periods, and of course our sensitivity to terrorism 
at this moment needs no explanation.
    The second major development is President Pastrana's 
closure of the safe haven. As Marc said, we supported him while 
he was conducting and committed to the diplomacy, and we also 
should support him now that he has come to this very fateful 
decision that the diplomacy was not working, that he had to 
take on the FARC. This is a very difficult and consequential 
decision that he has made, a courageous decision, in which in 
our view he needs to be supported.
    The third factor I would mention is what we see as the 
improved performance of the Colombian military. Again, as Marc 
referred to, not only their human rights performance, we think 
their military effectiveness, their professionalism in that 
respect as well is evident in the last year or so. We think 
this is in part, in considerable part, the product of the 
training and support that we have been providing, and it is 
this improvement in performance that encourages us to believe 
that additional support, and with the flexibility in the form 
that we are discussing here, will indeed make a difference, and 
may perhaps tip the balance more decisively in favor of this 
friendly democracy.
    So in sum, it is a pivotal moment in Colombia, and that 
makes this hearing especially timely and especially important.
    Thank you again, Mr. Chairman.
    [The prepared statement of Mr. Rodman follows:]

  Prepared Statement of Hon. Peter W. Rodman, Assistant Secretary of 
               Defense for International Security Affairs

    Thank you for the opportunity to appear before this Subcommittee. I 
want to associate myself with the testimony of my distinguished 
colleague, Under Secretary of State Grossman. I am honored to provide 
the Defense Department's perspective on threats to Colombian democracy 
and the Bush Administration's proposed initiatives to assist the 
Government of Colombia in addressing those threats.
              policy that adapts to changing circumstances
    The Administration has wrestled with developing a more effective 
policy and strategy to address terrorism as well as narcotics 
trafficking--the twin challenges posed by Colombia's illegal armed 
groups.
    Both the U.S. and Colombian governments recognize that the threat 
has evolved and now requires new thinking and new programs. President 
Pastrana's decision to terminate the FARC safehaven and this 
Administration's request for new authority, as described by Ambassador 
Grossman, reflect our shared assessment that terrorism and narcotics 
trafficking are inextricably linked in Colombia today.
    For the past decade, U.S. aid has focused almost exclusively on 
counternarcotics. Although counterdrug programs remain an important 
part of the security equation in Colombia, our assistance has not yet 
had a decisive impact on the political and security challenges that 
continue to threaten both Colombian democracy and U.S. interests.
    Therefore, President Bush has asked Congress for:

  <bullet> expanded authority for Colombia to use U.S.-provided support 
        in its unified campaign against narcotics trafficking and 
        terrorist activities; and
  <bullet> new funding in Fiscal Year 2003 that would provide 
        assistance to train and equip units to protect critical 
        economic infrastructure.

    These authorities will provide the Government of Colombia with the 
flexibility and resources needed to combat violent and formidable 
narcoterrorist threats to Colombia's national security. Over the past 
several years, these groups have increased their involvement in illicit 
drug operations. These drug revenues contribute to their war chests and 
have enabled them to increase their terrorist activities, placing 
further pressure on Colombia's democracy. This critical assistance will 
allow the Colombian security forces to confront more vigorously the 
increasing narcoterrorist attacks by the Revolutionary Armed Forces of 
Colombia (FARC) and National Liberation Army (ELN) and deal more 
effectively with the narcoterrorist paramilitary groups, like the 
United Self Defense Group of Colombia (AUC).
    These three groups--the AUC, ELN, and FARC--already are designated 
under U.S. law as terrorist organizations. Although not considered 
terrorists with global reach, they threaten regional stability and U.S. 
interests through transnational arms and drug trafficking, kidnapping, 
and extortion. Together, these groups are responsible for more than 90 
percent of the terrorist incidents in this hemisphere. The changes in 
authorities described by Ambassador Grossman will help Colombia fight 
these groups more effectively, not only in traditional coca-growing 
regions such as Putumayo and Caqueta, but throughout Colombia.
    Beyond the toll in Colombian lives and treasure, these 
organizations have kidnapped and murdered U.S. citizens with impunity 
and damaged major U.S. commercial interests, such as oil pipelines. 
Accordingly, the Administration's strategy is to provide the Colombian 
government with the wherewithal and incentive to confront these groups 
throughout the national territory, whether or not individual units or 
combatants are engaged directly in drug-related activities. This is 
because, as we have learned, Colombia's major terrorist organizations 
both enable the drug trade and are financed in significant part by the 
revenues drugs provide. Attempting to segregate drugs and terrorism 
into distinct and severable threats is both politically unrealistic and 
militarily futile. Colombia urgently needs to establish the rule of law 
in its many regions that are presently ruled by lawless violence. A 
crucial component in this objective is a stronger, more effective 
security presence.
    Today, the political/military situation in Colombia has reached a 
stalemate. Taken together, the FARC, ELN and AUC effectively control 
over 40% of Colombian territory. This stalemate works to the advantage 
of those groups, whose acts of terror and narcotics trafficking 
continue unabated even though the overall military contest remains 
inconclusive. Hence, this situation compounds all of Colombia's 
problems:

  <bullet> It delegitimates the democratic state.
  <bullet> It undercuts any real possibility of negotiation with the 
        guerrillas on better-than-surrender terms.
  <bullet> It places a ceiling on what can be accomplished with the 
        counternarcotics effort.
  <bullet> It creates a security vacuum that is filled in part by the 
        rightist paramilitaries. It is a vicious circle.

    The Colombian State's weakness in many parts of the country leads 
many citizens to believe that the paramilitary groups are more 
effective in promoting security. In turn, these groups receive greater 
support and legitimacy, making the state's ability to fill the vacuum 
even more difficult.

  <bullet> The activities of the paramilitaries, of course, also 
        undercut political support for Colombia in the United States.

    The United States cannot solve all of Colombia's problems with 
increased levels of aid, and given Colombia's human and capital 
resources, we need not do so. Currently, the government devotes 
approximately 3.5% of GDP to combating the narcoterrorists. Colombia 
must shoulder more of the burden by funding its security structure--
meaning both military and police--at levels that are more appropriate 
for a wartime footing.
    We are encouraged by President Pastrana's recent decision to 
increase the force structure by 10,000 soldiers and provide an 
additional $110 million for military operations related to elimination 
of the FARC safehaven. But current funding for security forces is 
simply inadequate to meet the current threat, and Colombian forces are 
simply too small and poorly equipped to provide basic security to large 
areas of the country. At the end of the conflict in El Salvador, the 
military had 50 helicopters while Colombia, fifty times larger, has 
only roughly four times as many. The Colombian military has roughly an 
8:1 soldier advantage over the narcoterrorist, an inadequate ratio if 
the military is to seize the initiative in the conflict.
    The Colombian military's situation is partly due to the evolving 
nature of the threat, partly due to a lag in the Colombian public's 
learning curve, and partly due to lingering hope that numerous peace 
proposals would be successful.
    As Ambassador Grossman pointed out, after three years of FARC 
duplicity at the negotiating table, on 20 February 2002 President 
Pastrana eliminated the FARC safehaven. Frustrated at the FARC's lack 
of good faith, the Colombian public appears to be gaining a more 
realistic understanding of the security challenges their country faces. 
But Colombia's difficulty in providing for its own security is due in 
no small part to its inability to protect significant revenue-producing 
infrastructure such as oil pipelines, which leads us back to the 
imperative for expanded authorities that Ambassador Grossman has 
described.
                effective sovereignty and basic security
    If U.S. aims in Colombia are cast solely in terms of reducing the 
production and export of drugs to the United States, important aspects 
of the violence there and the inability of the government to respond 
effectively will be ignored. As a practical matter, we cannot view 
Colombia as a country in which we either adhere to a counterdrug 
program or slide unwittingly into a Vietnam-style counterinsurgency. 
More realistically, we must pursue policies and fashion programs that 
permit Colombia to meet the challenge of the narcoterrorists so that 
U.S. forces are not called upon to do so. There is a strong moral and 
strategic impetus behind this support for one of the United States' 
oldest and most reliable hemispheric allies.
    Virtually all experts concur that the problems of narcotrafficking 
and guerrilla violence are intertwined. Both the United States and the 
Government of Colombia hold that reducing drug exports can serve 
important political and security objectives by reducing drug-related 
income available to illegal armed groups. Nevertheless, though drug-
related income is an important factor in sustaining insurgents and 
paramilitaries, it is doubtful that even effective counternarcotic 
operations in specific areas within Colombia can, on their own, be 
decisive in disabling illegal armed groups or forcing them to negotiate 
seriously for peace.
    Continuing to link U.S. aid to Colombia to a narrow 
counternarcotics focus means that, by law, we must refrain from 
providing Colombia certain kinds of military assistance and 
intelligence support that could immediately strengthen the government's 
position throughout the country. Hundreds of attacks by the ELN and 
FARC have been directed at electrical, natural gas and oil 
infrastructure. As Ambassador Grossman has noted, the guerrillas' 
sabotage of oil pipelines alone has cost the Government of Colombia 
lost revenue on the order of $500 million per year. The pipeline was 
bombed 170 times in 2001, spilling 2.9 million barrels of oil--eleven 
times the amount of the Exxon Valdez.
    The Administration has proposed to Congress $6 million in FY02 
supplemental funding and $98 million in FY03 Foreign Military Finance 
funding to train and equip vetted Colombian units to protect that 
country's most threatened piece of critical economic infrastructure--
the first 170 kilometers of the Cano-Limon oil pipeline. This segment 
is the most often attacked. U.S. assistance and training will support 
two Colombian Army brigades, National Police and Marines operating in 
the area. These units through ground and air mobility will be in a 
better position to prevent and disrupt attacks on the pipeline and 
defend key facilities and vulnerable points such as pumping stations. 
These units will also send a message that the Colombian State is 
committed to defending its economic infrastructure--resources that 
provide sorely needed employment and revenue--from terrorist attacks.
    Basic security throughout Colombia's national territory is the 
essential but missing ingredient. The Pastrana administration's Plan 
Colombia was an admirable start toward resolving Colombia's 
interrelated problems, of which the security component is only one 
part. But there can be no rule of law, economic development and new job 
creation, strengthening of human rights or any other noble goals, where 
there is no basic security.
    Therefore, our policy in Colombia should augment traditional 
counterdrug programs with programs to help Colombia enhance basic 
security. A friendly democratic government in our hemisphere is 
struggling to preserve its sovereign authority under assault from 
extremists of both left and right. U.S. policy towards Colombia 
requires a bipartisan consensus at home for a long-term strategy aimed 
at strengthening Colombia's ability to enforce effective sovereignty 
and preserve democracy. The new and more explicit legal authorities 
that the Administration is proposing are intended to serve these goals.
                         human rights concerns
    The Administration is concerned, as are many Members of Congress, 
about human rights in Colombia. President Pastrana has instituted 
important reforms. The practices and procedures that the U.S. 
government has put in place, often at the behest of concerned Members 
of Congress, and the example set by the small number of our U.S. troops 
training Colombian forces, have also had an impact. Professionalism is, 
after all, what we teach. Human rights violations attributed to the 
armed forces dropped by 95% during the period of 1993-1998, to fewer 
than three percent of the total reported abuses.
    Armed forces cooperation with the civilian court system in 
prosecuting human rights violations committed by military personnel has 
improved. Over 600 officers and noncommissioned officers have been 
relieved of duty under a 2000 Presidential decree that provides 
military commanders a legal means for removing personnel suspected of 
human rights violations and collusion with the paramilitaries. Officers 
have been dismissed for collaboration with or tolerance of paramilitary 
activities, while others face prosecution. The armed forces have 
demonstrated aggressiveness recently in seeking out and attacking 
paramilitary groups.
    Indeed, as already stated, the problem of the paramilitaries is 
itself partly a function of the vacuum left by the weakness of the 
national government and the Colombian military. By bolstering the 
democratic government and its effective assertion of national 
sovereignty, we weaken the paramilitaries.
                  colombians must make the main effort
    Although a policy cast in terms of basic security should enhance 
overall prospects for peace and for more effective counternarcotics, 
neither goal is assured without a firm and enduring commitment by the 
Colombian government and Colombian people to devote a greater share of 
their own national resources to the effort. The key principle should 
remain that the Colombian people bear the ultimate responsibility for 
their own security and must demonstrate their national will through a 
commitment of resources.
    The Colombian military, by its own admission, is not optimally 
structured or organized to execute sustained operations. The Colombian 
military has greatly improved in many respects over the last several 
years--especially in the areas of tactical and operational 
effectiveness, increased professionalism, human rights training and 
awareness, and has realized a modest but sustained increase in force 
structure. But the military continues to suffer from limited resources, 
inadequate training practices, significant shortfalls in intelligence 
and air mobility, and lack of joint planning and operations. They need 
to better coordinate operations among the services and with the 
Colombian National Police. Adequate funding and restructuring of the 
military are essential if Colombia is to have continuing operational 
success against its national threats.
    The adoption of Plan Colombia demonstrates that Colombia is moving 
forward aggressively, exercising its political will to address, and 
ultimately solve, domestic problems that have persisted for decades. 
The U.S. has an enormous stake in the success of this plan.
    Victory in Colombia can only come--and U.S. interests in Colombia 
can best be served--once the Government of Colombia asserts effective 
sovereignty over its national territory. It is time for the United 
States to reinforce its commitment to Colombian democracy.
                               conclusion
    President Pastrana has asked for both international and U.S. 
support to address an internal problem that has international 
dimensions--fueled in part by our country's and the international 
demand for cocaine. It is time to move forward, in partnership between 
the Administration and Congress.
    Mr. Chairman, members of the Committee, I again thank you for the 
opportunity to discuss these issues with you.

    Senator Dodd. Thank you very much, Mr. Secretary.
    General Speer, we thank you for your presence here this 
morning, and General Speer is the Acting Commander in Chief of 
the U.S. Southern Command, located in Miami, Florida, and we 
appreciate your presence and your comments.

    STATEMENT OF MAJ. GEN. GARY D. SPEER, U.S. ARMY, ACTING 
      COMMANDER IN CHIEF, U.S. SOUTHERN COMMAND, MIAMI, FL

    General Speer. Mr. Chairman, Senator Chafee, thank you both 
for the opportunity to represent the United States Southern 
Command about this important issue as we talk about Colombia, 
but I would like to first of all thank all the members of the 
committee, this committee, certainly for your unwavering 
support of the United States Southern Command as we go about 
our business in executing our mission throughout Latin America 
and the Caribbean. And certainly at this point in time, thank 
you all for your support of the men and women in uniform 
deployed around the world in the global war on terrorism and 
other military activities.
    This committee certainly is aware of the growing importance 
and significance of Latin America and the Caribbean to the 
United States and, Mr. Chairman, you highlighted very well the 
progress over the last quarter of a century and the 
transformation to a hemisphere of democratic nations.
    I would like to give credit to the men and women of the 
U.S. military over that 25-year period, because I think that to 
a certain degree it has been the military presence in the mil 
groups working day-in and day out with their host nation 
counterparts, the joint exercises and combined training and the 
professional military education opportunities for foreign 
officers and noncommissioned officers to come to the United 
States and study professional military education, all of which 
provide the U.S. military as a role model for the conduct of 
the military in a democratic society, with the respect for the 
rule of law, human rights, and subordination to civil 
authority.
    This is something we have to continue, because you rightly 
highlighted the challenges we face throughout the Southern 
Hemisphere, the challenges of instability and corruption that 
stem from arms and drug traffic and money laundering, illegal 
migration, and the backdrop of terrorism. Certainly no place is 
more at risk than Colombia in terms of violence as a milestone 
and, as you pointed out, Colombia certainly is the linchpin for 
the Andean Ridge from the potential spillover effects, not only 
of the violence, but also the other ill effects of corruption.
    A lot has changed in Colombia since your last visit in 
February 2001. At that point in time, Plan Colombia 
operationally was only in the second month of implementation. 
Now, after 15 months, Secretary Grossman highlighted the 
progress that we have seen, for example, with the 
counternarcotics brigade. It focused on the south, that was the 
focus for phase one of Plan Colombia, and it is important to 
remember, of the 6-year plan we are only at the 15-month mark 
in terms of Colombia's execution of Plan Colombia.
    Certainly, 20 February marked a significant milestone in 
the landscape in Colombia, with the elimination of the despeje 
and setting aside the peace process.
    The Colombian military performed very well in the military 
reoccupation of the despeje. Their military operations were 
very deliberate, deliberate in the context that they focused 
their efforts on securing the five major population centers and 
went about their business in a way to minimize the chances for 
collateral civilian casualties, and they executed that very 
well. And it took longer than we would have liked to have seen 
from a military perspective, but they did it very effectively, 
and I only heard of three collateral casualties as a result of 
that entire operation, attributed to both the FARC and the 
military through the reoccupation.
    The fact is, the military in Colombia has demonstrated 
tremendous progress over the past few years, progress 
tactically, progress operationally, and also, Mr. Chairman, 
progress in human rights. The real problem in Colombia is not 
just about drugs, though. It is the problem of security. You 
described the situation in terms of the violence that persists 
throughout the country, and until the Government of Colombia 
can reestablish a safe and secure environment using all of its 
security forces, the police and the military, to do so, the 
other aspects of governance cannot take hold, the judicial 
reform, the alternative development, and all the other things 
that are necessary.
    The challenge in Colombia today for the military, as we 
look at the sit rep every morning, I see a number of 
kidnapings, bombings, and civilian casualties through a variety 
of activities, not only the FARC but the ELN and the 
paramilitaries, so the military challenge on a day-to-day basis 
is to try to protect critical infrastructure throughout the 
country, and the Colombian military leadership has identified 
over 18,000 specific sites that they deem as critical 
infrastructure that require protection.
    Additionally, they have to provide protection to the major 
population centers because that is where the FARC is taking the 
terror campaign at the present time.
    In addition, they continue their support to counterdrug 
operations, and they continue to provide support to the CNP in 
overall law enforcement operations in terms of providing 
security to allow the police to do law enforcement actions, as 
well as continuing to combat the FARC, the ELN, and the illegal 
paramilitaries in their spare time, also to try to set the 
conditions to preserve the electoral process for 26 May and the 
Presidential election, a monumental task.
    They have demonstrated great progress, but the fact of the 
matter is, they lack the resources in terms of manpower, 
mobility, and equipment to reestablish a safe and secure 
environment throughout Colombia.
    And again, Mr. Chairman, Senator, thank you for your 
support for SOUTHCOM, and certainly we look forward to your 
continued support as we try to address these challenges. Thank 
you very much.
    [The prepared statement of General Speer follows:]

   Prepared Statement of Maj. Gen. Gary D. Speer, U.S. Army, Acting 
               Commander in Chief, U.S. Southern Command

    Mr. Chairman, Senator Chafee, and distinguished Members of the 
Committee, I am honored to appear before you to discuss United States 
Southern Command's role in assisting Colombia. The men and women of 
United States Southern Command deeply appreciate the hard work by the 
Members of this Committee and we thank you, and your colleagues in 
Congress, for your commitment and steadfast support.
    I have served as the Acting Commander in Chief of United States 
Southern Command since October 1, 2001 when General Pace assumed the 
position of Vice Chairman of the Joint Chiefs of Staff. In the past ten 
months, I have traveled to Colombia eight times. I have met key leaders 
in Colombia and here in the United States, both military and civilian. 
I appreciate their challenges and am convinced that the Colombian 
military is led by experienced and principled officers. I have seen 
first hand the commitment of the Colombian military's leadership 
towards professionalizing their force, to include respect for human 
rights and the rule of law.
    I am grateful for the opportunity to provide an overview of the 
problems facing Colombia and its neighbors, and what we have done to 
date to address these threats and enhance security and stability, which 
are the underpinnings of economic growth and legitimate governance.
                          security environment
    During the past twenty-five years, nations of our hemisphere have 
made substantial progress toward achieving peace through democratically 
elected governments, economic development, and the subordination of the 
military to civilian authority. All countries, except for Cuba, have 
democratically elected governments. Without a clear or imminent 
external threat, Latin American and Caribbean nations essentially 
appear to be at peace with their neighbors.
    Underlying this perception of tranquility are the multiple 
transnational threats of terrorism, drug and arms trafficking, illegal 
migration, and organized crime, all of which threaten the security and 
stability of the region. Some of our hemispheric neighbors are 
suffering from the effects of political instability, faltering economic 
growth, and institutional weakness. High unemployment, endemic poverty, 
corruption, and crime combined with the effects of terrorism, drug 
trafficking, and other illicit transnational activities challenge and 
threaten the legitimacy of many of these governments and consequently 
threaten U.S. hemispheric interests. Governments are feeling the strain 
of weak economies, rampant corruption, ineffective judicial systems, 
and growing discontent of the people as democratic and economic reforms 
fall short of expectations.
    Transnational threats in the region are increasingly linked as they 
share common infrastructure, transit patterns, corrupting means, and 
illicit mechanisms. These threats transcend borders and seriously 
affect the security interests of the United States.
                               terrorism
    Southern Command recognized a viable terrorist threat in Latin 
America long before September 11. If not further exposed and removed, 
that threat potentially poses a serious threat to both our national 
security and that of our neighbors. We in Southern Command have 
monitored terrorist activities for years with such incidents as the 
bombing of the Israeli Embassy and Jewish-Argentine Cultural Center in 
Argentina in 1992 and 1994 attributed to Hizballah.
    Recently, international terrorist groups have turned to some Latin 
American countries as safe havens from which they sustain worldwide 
operations. As an example, the tri-border area of Argentina, Brazil, 
and Paraguay serves as a base of support for Islamic Radical Groups, 
such as Hizballah, HAMAS, and Al Gama'at al-Islamiyya. These 
organizations generate revenue through illicit activities that include 
drug and arms trafficking, counterfeiting, money laundering, forged 
travel documents, and even software and music piracy.
    The Revolutionary Armed Forces of Colombia (FARC), the National 
Liberation Army of Colombia (ELN) and the United Self Defense Group of 
Colombia (AUC) are all on the State Department's list of Foreign 
Terrorist Organizations. The FARC has been implicated in kidnappings 
and attacks against United States citizens and interests, including the 
murder of three U.S. citizens in 1999. According to the Department of 
State's most recent ``Patterns of Global Terrorism'' report, 86 percent 
of all terrorist acts against U.S. interests throughout the world in 
2000 occurred in Latin America, predominately in Colombia.
    The recent bombing outside the U.S Embassy in Peru preceding 
President Bush's visit is indicative that other domestic terrorist 
groups pose threats to the United States elsewhere in the hemisphere. 
These include, but are not limited to, the Sendero Luminoso (Shining 
Path) and Tupac Amaru Revolutionary Movement (MRTA) in Peru and the 
Jama'at al Muslimeen (JAM) in Trinidad and Tobago.
                            drug trafficking
    Illegal drugs inflict an enormous toll on the people and economy of 
the United States and our hemispheric neighbors, and appropriately, 
have often been characterized as a weapon of mass destruction. 
According to the latest Office of National Drug Control Policy figures, 
Americans spend more than $64 billion on illegal drugs while drug abuse 
killed more than 19,000 Americans and accounted for $160 billion in 
expenses and lost revenue. Most of the world's cocaine and a 
significant portion of the heroin entering the United States are 
produced in the Andean Region.
    Drug trafficking persists as a corrosive threat to the democracy, 
stability, and prosperity of nations within the region, especially in 
the Andean Ridge, adversely affecting societies and economies as scarce 
resources are diverted to rehabilitation, interdiction, and crime 
prevention efforts. Drug trafficking generates violence, fosters crime, 
and corrupts public institutions. Increasingly, terrorist organizations 
support themselves through drug trafficking. This trend is particularly 
troubling in Colombia where we find clear connections between drug 
trafficking, guerrillas, and terrorist activities.
    It is not only the drug producing countries that suffer. No country 
in this hemisphere through which drugs transit escapes the violence and 
corrupting influences of drug trafficking. Additionally, as traffickers 
exchange drugs for arms and services in the transit countries, transit 
nations are now becoming drug consumers as well.
                            arms trafficking
    Although Latin America and the Caribbean spend less than any other 
region on legal arms purchases, illegal arms sales pose a significant 
threat to the stability of the region. Of particular concern is the 
rising trend in which Drug Trafficking Organizations exchange drugs for 
arms, which are then provided to terrorist organizations such as the 
FARC, ELN, and AUC in Colombia. Illegal arms originate from throughout 
the world and transit through the porous borders of Colombia's 
neighbors. Arms traffickers use a variety of land, maritime, and air 
routes that often mirror drug and human trafficking networks.
                           illegal migration
    Latin America and the Caribbean are major avenues for worldwide 
illegal migration. Although not a problem directly tied to Colombia, 
illegal migration and human smuggling operations are linked to drugs 
and arms trafficking, corruption, organized crime, and the possibility 
for the movement of members of terrorist organizations.
    According to the Census Bureau's latest figures, more than eight 
million illegal immigrants reside in the United States; nearly two 
million of them are from the SOUTHCOM area of responsibility. The 
United States Immigration and Naturalization Service estimates more 
than 300,000 illegal immigrants annually originate in, or transit 
through, Central American countries destined for the United States. 
Also, many Chinese illegal immigrants destined for the U.S. transit 
through Suriname, Ecuador and other countries in the hemisphere. Human 
trafficking is highly profitable, providing revenue of more than $1 
billion annually to smuggling organizations within the region. 
Moreover, human trafficking provides the potential means of entry into 
the U.S. for criminals and terrorists.
                                colombia
    No other region is suffering the destabilizing effects of 
transnational threats more than the Andean Ridge countries. In 
Colombia, the FARC, ELN, and AUC have created an environment of 
instability in which the Government of Colombia does not control 
portions of the country. In the areas where military and police are not 
present and do not have control, there is lack of a safe and secure 
environment, which undermines the ability to govern and permits 
terrorism and crime to flourish.
    The violence in Colombia remains a significant threat to the region 
as the combination and links among guerrillas, terrorists, drug-
traffickers, and illegal self-defense forces have severely stressed the 
government's ability to exercise sovereignty and maintain security. The 
FARC and other illegal groups cross into neighboring countries at will. 
In addition, neighboring countries remain transshipment points for arms 
and drugs entering and exiting Colombia.
    Colombia is critically important to the United States. With over 40 
million people, it is the second oldest democracy in the hemisphere, 
and it is an important trading partner, notably for oil. More 
importantly, it is the linchpin of the Andean Region; as such, it is 
critical for the United States that Colombia re-establish a safe and 
secure environment within its borders and survive as an effective 
democracy. Venezuela, Panama, and Ecuador are certainly at risk to some 
degree based on what happens in Colombia.
    The current political and security situation in Colombia is at a 
critical juncture. Notwithstanding the Government of Colombia's 
eleventh hour extension of the despeje, the FARC's ``safe haven,'' on 
January 20 of this year, the FARC initiated a countrywide terror 
campaign with more than 120 attacks against the nation's infrastructure 
and cities. These attacks ultimately prompted President Pastrana to 
eliminate the despeje on February 20, and initiate operations to occupy 
the area. From a military perspective, it was the right move. The FARC 
used the despeje as a sanctuary to support their drug trafficking 
operations, launch terrorist attacks, and recruit and train their 
forces. Simply put, the FARC is a terrorist organization that conducts 
violent terrorist attacks to undermine the security and stability of 
Colombia, financed by its involvement in every aspect of drug 
cultivation, production and transportation, as well as by kidnapping 
and extortion.
    The Colombian military immediately initiated operations to reoccupy 
the despeje, focusing on occupying population centers with deliberate 
operations to prevent civilian casualties. This strategy averted 
significant displacement of the population. In response, the FARC 
avoided confronting the military and has broken down into small 
elements, retreated into the jungle and rural areas, and concentrated 
its actions on terrorist attacks against the country's infrastructure.
    While the March 10 Congressional elections were executed relatively 
problem-free, the weeks leading to the upcoming Presidential elections 
on May 26 will be particularly critical as the Colombian Military 
dedicates significant resources to ensure the security of the electoral 
process.
            u.s. southern command's support to plan colombia
    We continue to execute the Department of Defense's counterdrug 
support to Plan Colombia, Colombia's national security plan. Colombia 
is just beginning the second year of this six-year plan. The initial 
phase of operations focused in the Putumayo and Caqueta Departments of 
Southern Colombia where approximately half of Colombia's coca 
cultivation takes place. In implementing U.S. Support to Plan Colombia 
initiated by the FY 2000 Emergency Supplemental, Southern Command has 
been responsible for training and equipping a Counter Narcotics 
Brigade, riverine units, fielding Blackhawk and Huey II helicopters, 
training pilots and crews, infrastructure upgrades, and providing 
counterdrug intelligence support. We are seeing positive results from 
our support. Although our focus has been support to counterdrug 
operations, the increased professionalism of the Colombian military, 
significant progress in respect for human rights and the rule of law, 
and improved operational planning and execution are all directly linked 
to our support.
                       counter narcotics brigade
    The Counter Narcotics Brigade (CN Brigade) headquarters and its 
three battalions are now fully trained and equipped. United States 
trainers performed staff and light infantry training for almost 2,300 
troops. The brigade headquarters and the second battalion of the 
brigade completed training and began operations in December 2000; we 
completed training of the third battalion last May. We continue to 
provide sustainment training to the CN Brigade.
    The CN Brigade is the best-trained and equipped unit in the 
Colombian Army. It has impressive results during drug interdiction 
operations by destroying coca processing labs, providing security to 
eradication operations, and seizing chemical precursors and coca leaf 
in Southern Colombia. Since operations began in December 2000, over 890 
drug labs have been destroyed and 119 people detained for judicial 
processing. The CN Brigade has also provided the ground security for 
the spraying of 59,000 hectares of coca in the Putumayo and Caqueta 
regions. Colombia's spraying effort in Putumayo last year would not 
have been possible without the CN Brigade's aggressive ground support 
to spray aircraft. There have been no allegations of human rights 
abuses against the CN Brigade.
    In addition, indications are that the Colombian military's 
concerted interdiction efforts combined with aerial spraying are having 
an effect on the narco-traffickers. Cocaine labs are being established 
away from the Putumayo and Caqueta cultivation areas; in fact, large 
scale, industrial size labs were discovered in the former despeje. With 
the training and capabilities of the CN Brigade, no longer does the 
FARC own the military initiative in Putumayo and Caqueta Departments, 
but avoids head-on engagements against the Colombian military. This 
increased security in the coca growing areas affords a better 
environment for interdiction efforts by the CN Brigade and the 
Colombian National Police.
                              helicopters
    Since December 2000, the United States has provided air mobility to 
the first CN Brigade using 33 UH-1Ns with a combination of Colombian 
and Department of State contracted pilots. The UH-1N aircraft are based 
in Tolemaida with the Colombian Army Aviation Battalion and are forward 
deployed to Larandia for operations. Last year, the UH-1Ns flew over 
10,000 flight hours in direct support of Joint Task Force South CN 
operations, moving over 26,700 soldiers and 261 tons of cargo. The 
current operational focus remains providing air mobility support for 
Joint Task Force South counterdrug missions in Colombia.
    Our training and logistics programs are on track to provide greatly 
enhanced air mobility capability to the Colombian Army. All fourteen 
UH-60L Blackhawk helicopters procured under Plan Colombia for the 
Colombian military were delivered by December 2001. The first 6 of the 
25 Plan Colombia Huey II aircraft arrived in March 2002. Under the 
current delivery schedule, we expect the remaining 19 Huey II 
helicopters to be delivered by the end of September 2002.
    Department of Defense training programs specifically designed to 
fulfill the requirement for trained Colombian Army pilots, crew chiefs, 
and maintenance personnel for the Blackhawk and Huey II helicopters are 
currently underway and progressing well in Colombia and in the United 
States. In addition to training pilots, crew chiefs and maintenance 
personnel will also be trained.
    This has been a real success story: Colombian Air Force Instructor 
Pilots under the quality control of an U.S. Army Technical Assistance 
Field Team are training Colombian Army pilots in the Blackhawk 
transition and the Initial Entry Rotary Wing (IERW) courses. The night 
vision training, advanced or readiness level progression training, and 
the Huey II transition are being executed through a DOD contract in 
Colombia. Crew chiefs are being trained in Spanish, both in the United 
States and Colombia. The various special aviation and avionics 
maintenance training is conducted in Army schools in the United States. 
The Plan Colombia Blackhawk pilot and crew training will be complete in 
July. The first IERW course is in progress and Huey II transition will 
commence this month with a projected completion of Colombian Army 
pilots and crews for the 25 Huey 115 by mid 2004. The long pole in the 
aviation training is the CONUS specialized maintenance training, which 
will last through 2003 due to the extensive technical courses and the 
limited throughput possible. As such, contractor logistics support will 
be required throughout this entire period.
                          riverine capability
    For much of Colombia, the rivers are the highways. Consequently, 
the rivers are the only means of transportation and commercial 
communication. As a result, an integral part of our support to Colombia 
has been the training and equipping of the Colombian Riverine forces. 
The goal of the Riverine Forces is to permit the Colombian government 
to exercise sovereignty throughout the vast regions where other 
governmental entities are otherwise absent. Colombia's plan is to 
establish controls at critical river junctures along its borders and 
throughout the heartland of the country. The plan includes 
establishment of 58 riverine combat elements, with support structures, 
at these critical river nodes. The operational objective of the 
Riverine Forces is to establish control over the riverine 
transportation network and interdict illicit trafficking of precursor 
chemicals used in the production of cocaine.
    To date five riverine battalions, composed of thirty riverine 
combat elements, have been deployed and are operating throughout 
Colombia. These riverine combat elements have successfully supported 
the operations of the first CN brigade in destroying riverside labs and 
by providing convoy security for building material used to construct 
the Tres Esquinas airbase. Furthermore, these riverine units have 
established the first continuous presence of the Colombian government 
in areas previously abandoned to control of narco-terrorists 
organizations. Continued support to complete the fielding of the 
remaining riverine combat elements and establishment of a self-
sustaining training capability are high priorities in our strategy for 
the future.
                           engineer projects
    Extensive projects are underway in Larandia to support the CN 
Brigade and associated helicopters. They include helicopter pads, a 
fueling system, maintenance hangar and storage warehouse, operations 
building, control tower, and an ammo storage facility with arm/disarm 
pads. The first helicopter projects will be completed later this year, 
with the overall construction complete in 2003. Other projects at 
Larandia include additional barracks for both counter narcotics and 
aviation brigade personnel, a counter narcotics brigade headquarters 
facility, and a supply warehouse. These support projects will be 
complete later this year also. At Tres Esquinas (a forward operating 
site in Southern Colombia), construction was recently completed on the 
riverine facilities, an A-37 ramp, and taxiway. The remaining projects 
at Tres Esquinas (runway extension and Schweizer hanger) are in 
progress with completions also scheduled for later this year. The 
riverine base at El Encanto (forward base in Southern Colombia) and the 
riverine maintenance facility at Nueva Antioquia are complete. However, 
the airfield runway improvements at Marandua remain unfunded; this 
airfield will be critical to supporting operations in Eastern Colombia. 
The military base and improvement projects, which we have funded and 
overseen, have effectively enabled the Colombian military to expand its 
influence over the coca growing areas of Putumayo and Caqueta.
    Additionally, we continue to improve our infrastructure at the 
Forward Operating Location (FOL) in Manta, Ecuador. Last year, 
operations at the FOL ceased for six months while we made runway 
improvements. The current construction for living quarters and 
maintenance facilities will be completed in June 2002. The 
infrastructure upgrades for the FOL at Curacao are in progress, but 
Aruba remains unfunded. The FOLS are critical to our source zone 
counterdrug operations and provides coverage in the transit zone 
Pacific where we have seen the greatest increase in drug smuggling 
activity.
    The United States Army Corps of Engineers (USACE) is assisting the 
United States Agency for International Development (USAID) in providing 
employment for the alternative development program in Colombia. Due to 
the long process for crop substitution to develop into major income 
producing industries, USAID determined that a large-scale jobs-via-
infrastructure program is needed to provide short-term income to 
individuals shifting from coca production as well as eliminating the 
competitive disadvantages resulting from the lack of infrastructure 
where crop substitution will take place. The USACE is currently 
analyzing and evaluating infrastructure works in Putumayo and Caqueta. 
One project already approved for development includes the repair and 
widening of a road connecting the Putumayo and Caqueta river systems. 
This project will reduce the time required to move products through 
Putumayo and Caqueta while providing employment to those individuals 
shifting from coca production. Additionally, it will enhance the mutual 
support of Colombian military units operating along the rivers.
                    professionalism and human rights
    We have witnessed a steady improvement in the professionalism and 
respect for human rights and the rule of law by the Colombian military, 
accompanied by increased effectiveness in counterdrug operations. The 
increase in professionalism starts with the continued professional 
military education, the confidence gained by technical proficiency, and 
resources available for operations.
    Our legal assistance projects in Colombia, which include developing 
a Judge Advocate General (JAG) school as well as legal and human rights 
reform, continue on track. We have worked closely with the Colombian 
military to establish and build a Military Penal Justice Corps that has 
made significant strides in a short period of time. The initial JAG 
school courses began in February 2002 for 60 judge advocates and clerks 
in temporary facilities. The Department of State recently approved 
funding for construction of a permanent JAG facility, and we expect 
completion in July 2003.
    In the area of human rights, United States Southern Command has 
supported Colombian efforts to extend human rights training throughout 
its ranks. Additionally, we sponsor opportunities for the continued 
exchange of information on human rights issues, such as: a recent Human 
Rights Seminar with 60 Colombian media and international 
representatives, bimonthly human rights roundtables involving 
representatives from various sectors of Colombian society, 
incorporating human rights in every training initiative, and advanced 
education programs. This summer, twenty students from the Armed Forces, 
National Police, Ministry of Defense, and Commanding General's office 
will receive specialty degrees in International Humanitarian Law.
    I am convinced the military leadership in Colombia is firmly 
committed to human rights and is taking action on any new reports of 
wrongdoing that come to their attention, to include any reports of 
collusion with illegal self defense forces. They have suspended 
officers and noncommissioned officers for acts of wrongdoing and have 
stepped up their operations against illegal defense forces.
    Colombian military combat operations increased against illegal 
self-defense groups in 2001. With increased operations against these 
groups, the Colombian military captured or killed approximately 700 
illegal defense force individuals in 2001, compared to 239 in 2000. 
During this period there has been positive institutional response with 
prosecutions of military members with credible allegations of ties to 
illegal self defense forces rising and improved cooperation with 
civilian legal authorities.
    In fact, in a short period of time, the Colombian military has 
emerged as one of the most respected and trusted organizations in 
Colombian society. Fewer than three percent of complaints of human 
rights abuses last year were attributed to the Colombian Security 
Forces, down from a high of 60 percent just a few years ago. There have 
been zero allegations of human rights abuses against the U.S. trained 
counter narcotics drug brigade.
    This is a success story that often gets overlooked. Colombia should 
publicize what the military is doing and take credit for the 
accomplishments they have attained. This progress reflects a strong and 
principled leadership and the genuine desire of the Colombian military 
to honor and promote democratic principles in their country.
          fiscal year (fy) 2002 andean counterdrug initiative
    The Department of State's Andean Counterdrug Initiative is designed 
to sustain and expand programs funded by the FY 2000 emergency 
supplemental. It addresses potential production, processing, and 
distribution spillover due to successful Plan Colombia execution. Since 
the beginning of 2001, we have been working with the Department of 
State to help develop, prioritize, and validate requirements for 
partner nation militaries. In each case, although still counterdrug 
focused, we are seeking to sustain the military contacts focused on 
professionalization of the armed forces and the specific challenges and 
security needs within available resources.
    Approximately $100 million of the Andean Counterdrug Initiative 
will be allocated to support the Colombian military. This funding will 
be used to sustain the capabilities initiated under the FY 2000 
supplemental appropriation, particularly in the areas of training and 
aviation support for the first CN Brigade, riverine programs, and the 
Colombia military legal reform program.
                    second counter narcotics brigade
    Based on the success of the first CN Brigade, the U.S. government 
is supporting Colombia's request to train and equip a second CN Brigade 
in FY 2003 for employment elsewhere within the country. The existing CN 
Brigade has been successful in forcing the drug traffickers to move 
their operations outside of the Putumayo and Caqueta departments. A 
second CD Brigade will enable the Colombians to attack the other main 
coca growing areas to the east of the Andean Ridge or elsewhere in the 
country.
    Using the first CN Brigade as a baseline, we will profit from our 
experience in training and equipping the second CN Brigade. The second 
CN Brigade will be made up of approximately 1,700 troops. If approved, 
using U.S. Special Operations Forces, we could train one battalion per 
quarter, commencing with the second CN Brigade Staff. This training 
will continue to emphasize professionalism and human rights 
requirements. The equipment will include weapons, ammunition, and 
communications equipment. Additionally, the Department of State's FY 
2003 request includes funding to continue sustainment training of the 
existing CN Brigade.
                    infrastructure security strategy
    In addition to counterdrug assistance, the Administration has 
proposed to Congress $98 million, for FY 2003, to help Colombia to 
enhance the training and equipping of units to protect the Cano Limon-
Covenas oil pipeline, one of the most vulnerable elements of their 
economic infrastructure. The FARC and ELN are active in carrying out 
attacks against Colombia's energy infrastructure. Attacks on the Cano 
Limon-Covenas pipeline cost the Government of Colombia more than $40 
million per month in revenues when the pipeline is not operational. 
During the past year, the pipeline was of fline for more than 266 days. 
In addition, the amount of oil spilled during these attacks is eleven 
times greater than the Exxon Valdez spill, creating significant 
environmental damage.
    The Administration has included $6 million in the FY 2002 
Supplemental to begin the training. The first unit to be trained for 
this program will be the recently human rights vetted, Arauca-based 
Colombian Army 18th Brigade. Subsequent units to be trained for 
infrastructure security include the 5th Mobile Brigade, designated 
Colombian National Police units, and Colombian Marines. The Colombian 
units will also be equipped with weapons and ammunition, vehicles, 
night vision devices, and communications equipment, as well as a 
helicopter tactical lift capability for a company-sized quick reaction 
force.
    If approved, this training will assist the Colombians to exert 
effective sovereignty in the Arauca Department, where these attacks 
primarily occur. Through a comprehensive strategy of reconnaissance and 
surveillance, offensive and quick reaction operations, the Colombian 
military will be better able to mitigate the debilitating economic and 
financial effects of constant attacks on critical infrastructure.
                               challenges
    Despite extensive eradication in the source zone and successful 
interdiction in the transit zone, cocaine supply continues to exceed 
demand. Although Colombia and other partner nations are willing to work 
with us to counter the production and trafficking of illegal drugs, 
effective and sustainable counterdrug operations are beyond the 
capabilities of their thinly stretched security forces.
    United States counterdrug assistance to security forces helps 
Colombia and other nations in the region develop more effective 
counterdrug capabilities; however, drug trafficking organizations have 
shown considerable flexibility in adjusting their operations in 
reaction to counterdrug efforts.
    With Colombia's narcoterrorists increasingly supporting themselves 
through drug trafficking, it is increasingly difficult for the security 
forces to sustain a secure environment that allows democratic 
institutions to fully function, permits political, economic, and social 
reforms to take hold, and reduces the destabilizing spillover into 
neighboring countries.
    In addition to combating the FARC and its current terror campaign, 
the Colombian Military must contend on a daily basis with the 
conventional and terrorist attacks by the ELN and AUC, as well as the 
drug trafficking organizations. This requires not only the continuous 
conduct of military and counterdrug operations, but the protection of 
population centers, critical infrastructure to include electrical 
towers and power grids, communication towers and facilities, the oil 
pipelines, dams, roads and bridges. Also, the Colombian military must 
devote significant resources and manpower to secure the Presidential 
election process.
    Although we have seen great progress through the military portion 
of the first year of Plan Colombia, the Colombian military still lacks 
all of the essential resources to create a safe and secure environment 
in Colombia. As mentioned previously, fundamental security and 
stability are necessary for the Government of Colombia to remain a 
viable, legitimate government and for other supporting programs to 
succeed.
    U.S. support to the Colombian military is currently restricted to 
support for counterdrug operations. We are further limited by 
restrictions on sharing non-counterdrug information with the 
Colombians. The Colombians are also limited in their use of U.S. 
provided counterdrug-funded equipment, such as the Plan Colombia 
helicopters.
    If enacted, the Administration's FY 2002 supplemental request to 
expand our authorities in Colombia will provide some relief by lifting 
these restriction for United States funded equipment, assets, and 
programs for Colombia. Even, without any additional funding or 
resources, this authority would allow us to look at the FARC, (AUC and 
ELN) not only as drug traffickers, but also as a narco-terrorist 
organization and to gather and share information on their activities 
across the board. Additionally, from an interdiction standpoint, again 
with the assets already provided, instead of attempting to interdict 
only drugs leaving Colombia, we would be able to look for the arms 
entering the country, which are fueling the FARC, ELN, and AUC. For 
Colombia, the expanded authority, if approved, would allow them to use 
the helicopters we provide and the CN Brigade for missions other than 
counterdrug.
    We support reinstating the Air Bridge Denial Program in Colombia 
and Peru as an effective means to interdict the flow of drugs, arms and 
contraband. In the past, this program was very successful in breaking 
down a critical network of conveyance for the drug traffickers. 
Furthermore, we know that arms traffickers smuggle weapons to the FARC 
by air. By incorporating the recommendations of the Beers and Busby 
reports, we can safely resume U.S. support to the air bridge denial 
operations and reinforce our commitment to partner nations. As we look 
to the future, we need to ensure that our efforts are focused on 
fighting terrorism throughout this hemisphere and on preserving and 
stabilizing Colombia's democracy. The problem in Colombia is not just 
about drugs.
                    professional military education
    One of the cornerstones of our security cooperation strategy is to 
provide the opportunity for professional military education in the 
United States for students from Latin America and the Caribbean. Our 
professional military education institutions dedicated to the region 
provide those opportunities and serve as vital tools in achieving 
United States strategic objectives in Latin America and the Caribbean. 
Our professional military education program has been a significant 
factor in shaping the current leadership in Colombia. All of the 
members of the current high command in the Colombian military have 
received training and instruction at United States institutions. With 
over 2000 Colombian military students graduating from United States 
schools within the past three years, the Colombian military's 
receptivity to professionalizing the force and significant progress in 
respecting human rights and the rule of law is a by product of 
professional military education opportunities with us.
    The National Defense University's Center for Hemispheric Defense 
Studies (CHDS) at Ft. McNair, Washington D.C. supports the development 
of civilian specialists from Latin American and the Caribbean in 
defense and military matters by providing programs in defense policy 
planning, resource management, and political and civil-military 
relations. CHDS significantly enhances the concept of military 
subordination to civilian authority by training a core of civilian 
defense specialists who serve in the region's defense ministries and 
legislatures.
    As an element of the Interamerican Defense Board and Organization 
of American States, the Interamerican Defense College (IADC) provides 
senior service level professional military education for senior 
officers, including officers from the United States.
    The Western Hemisphere Institute for Security Cooperation (WHINSEC) 
at Ft. Benning, Georgia, offers instruction that promotes democratic 
values, respect for human rights, and regional cooperation. WHINSEC 
provides an opportunity for regional military and police leaders to 
receive, in Spanish or English, the same instruction we provide our own 
Armed Forces. The capstone course at WHINSEC is the yearlong resident 
Command and Staff Course, which includes approximately 40 percent 
United States officers from all services. Concepts and values taught at 
WHINSEC are continually reaffirmed, as our hemisphere's militaries are 
increasingly supportive of democratic values and the subordination of 
the military to civilian control.
    The Inter-American Air Force Academy (IAAFA) at Lackland AFB, 
Texas, and Naval Small Craft Instruction and Technical Training School 
(NAVSCIATTS) at Stennis, Mississippi provide specialized technical and 
tactical training on aircraft maintenance and small boat operations to 
the region's militaries. This training enhances the interoperability 
and increases the life cycle of U.S. equipment used by countries in the 
region.
    For some of these courses and other military schooling, the 
International Military Education and Training (IMET) Program are 
critical. We appreciate the continued support of this valuable program. 
However, in order to reach the future military leaders for Guatemala, 
we need to remove the prohibitions on junior and field grade officer's 
attendance of the same professional military training as their U.S. 
counterparts such as command and staff college and advanced courses.
    These and other United States schools produce graduates who make 
positive contributions to their countries through distinguished 
military and public service. In many cases, the interpersonal 
relationships forged during a common educational experience serve as 
valuable tools for security cooperation while promoting regional 
stability.
                          security assistance
    Security Assistance is an important element of the U.S. national 
security strategy that fosters and supports cooperative security 
arrangements. The International Military Education and Training (IMET) 
Program has been essential to the effort of professional military 
education and professionalization of the militaries of the region. We 
appreciate the continued congressional support of this valuable 
program.
    Although military expenditures in the region are the lowest in the 
world, Latin American and Caribbean militaries do have legitimate 
defense sustainment and modernization requirements. We need the 
assistance of partner nations in both regional cooperation and in 
protecting their own borders against terrorism and other transnational 
threats. Foreign Military Financing (FMF) is a critically important 
source of equipment and training for resource strapped countries.
    Against these requirements, Latin America and the Caribbean were 
allocated in 2002 less than one-tenth of one percent of the annual 
worldwide FMF program, which although an increase over previous years, 
was just $8.7 million. This allocation does not take into account the 
need to sustain aircraft and other equipment previously provided to our 
regional partners, nor does it provide for modernization or new 
initiatives. In light of the security cooperation requirements that 
exist, the United States has not provided substantive security 
assistance to Latin America and the Caribbean over the past decade, and 
this is a region of vital significance to the United States in terms of 
demographics, trade, natural resources, and proximity.
    There may be a perception that the FY 2000 Plan Colombia Emergency 
Supplemental and the FY 2002 Andean Counterdrug Initiative fully 
satisfies the requirements for Colombia and neighbor militaries. While 
these programs are essential, especially for Colombia, they are not 
concentrated on military assistance, and the assistance provided is 
counterdrug related.
    Limited FMF resources constrain our ability to influence the 
direction and scope of regional military modernization and enlist the 
full cooperation of partner nations. Likewise, the capabilities of the 
militaries within the region could be increased to assume a more active 
role in security cooperation against transnational threats, disaster 
response, and peacekeeping.
          intelligence, surveillance and reconnaissance (isr)
    Our global war on terrorism continues to reinforce the critical 
role that a comprehensive ISR posture plays in any operational 
environment, whether home-based or abroad. Secretary Rumsfeld noted in 
the 2001 Quadrennial Defense Review that: ``We cannot and will not know 
precisely where and when America's interests will be threatened . . .'' 
His observation is particularly applicable to the Southern Command area 
of responsibility, where threats take many forms and are often 
ambiguous. These threats present a range of intelligence challenges--
from tracking terrorist groups and drug trafficking organizations in 
Colombia to monitoring international criminal and terrorist activities 
throughout Latin America and the Caribbean.
    The restrictions placed on the use of certain collection assets 
exacerbate the constraints inherent to the limited availability of 
intelligence resources in our area of responsibility. Today, most 
intelligence assets allocated to Southern Command are funded from 
counterdrug appropriations. Therefore, the employment of these scarce 
assets is further restricted to supporting only counterdrug operations 
or force protection of those involved with counterdrug activities. 
Also, our access agreements on the Forward Operating Locations of 
Manta, Ecuador, Aruba and Curacao, and Comalapa, El Salvador restrict 
operations from the FOLs to counterdrug only.
    Our ability to assist operations in Colombia is also limited by 
restrictions on sharing data. We are prohibited from providing 
intelligence that may be construed as counterinsurgency related. For 
the operator, it is very difficult to distinguish between the FARC as a 
drug trafficking organization and the FARC as a terrorist organization 
and the FARC as a insurgent organization. In my opinion, we have tried 
to impose artificial boundaries where one no longer exists.
                               conclusion
    In summary, the United States Southern Command remains committed to 
providing the assistance needed by Colombia and other partner nations 
in the region within Congressional authority. We continue to execute 
operations and activities to enhance the region's militaries, advance 
democracy, promote regional security, support hemispheric cooperation, 
foster economic opportunities, promote peace, sustain freedom, and 
encourage prosperity. Additionally, we will continue to prioritize 
these activities in areas that offer the greatest leverage for 
protecting and advancing United States regional and global interests.
    While Southern Command's priority since September 11 has been on 
the planning and coordination necessary to execute the global war on 
terrorism, everything we are doing in Colombia and in the region 
supports that end. Our efforts in Colombia are not only to fight drugs 
but also to save democracy in that country and promote security and 
stability in the Andean Region.
    We are seeing progress in our efforts. Although in the past few 
years the Colombian military has emerged as a much more capable and 
professional force, they still lack the resources, manpower, airlift 
and mobility, to reestablish a safe and secure environment throughout 
the country.
    Your continued support will help to ensure the stability of 
Colombia and safeguard U.S. national security interests throughout 
Latin America and the Caribbean against the transnational threats that 
concern us all. Thank you for providing me this opportunity to discuss 
these issues with you today. I will be happy to respond to any 
questions you may have at this time.

    Senator Dodd. Thank you very much, general, and let me 
underscore the point you made about the competency of our 
military personnel in the region. My older brother, Tom, was an 
American Ambassador in Uruguay and Costa Rica. He would often 
comment to me how impressed he was with the officers associated 
with the embassy and others in terms of their knowledge of the 
language, the culture, the relationships they built within the 
community. He was always deeply impressed with the level of 
competency and knowledge, and that is something we hear about 
often, so thank you as well for your efforts.
    What I am going to do is keep a clock on ourselves up here, 
not that the Senators have a reputation for talking too much, 
but why don't you put it on for 10 minutes apiece here so that 
we can complete some thoughts here with all of you.
    I wanted to include in the record a report from Human 
Rights Watch, ``Colombia: Terror From All Sides.'' You may have 
seen this, and I will include it in the record.\1\
---------------------------------------------------------------------------
    \1\ The report referred to can be found on page 59.
---------------------------------------------------------------------------
    It points out here the terror from the FARC and the AUC, we 
have a tendency to talk about the FARC, obviously, because of 
their major involvement historically going back 40 years. It is 
beginning to appear, though, that both of these organizations 
are achieving sort of an equilibrium in terms of balance of 
forces. It appears, while the AUC does not have quite as many 
people in their ranks, they are growing.
    You talk about, according to this report, anyway, some 
11,000 people as opposed to 17,000 in the FARC, so 11,000 in 
the AUC, and then you go down and you look at the kidnapings 
and assassinations and if you switch the names it would be hard 
to distinguish the level of violence that goes on from both of 
these organizations.
    I agree with the statement made by Senator Chafee earlier, 
there may have been a time when the FARC represented some 
social aspirations within the country, but when you hear and 
see the activity that goes on, even the case recently of a 
father who had been kidnaped and a son, a young boy dying, and 
even the appeal of Fidel Castro in a letter to the FARC to 
allow this father to see his dying son, and they denied--in 
fact, they then executed the father. The boy died and the 
father died as well--you begin to get some sense of what we are 
dealing with here. And as you see, with the AUC here--in fact, 
the language of both organizations, their statements, is pretty 
much similar in terms of what they do.
    So as we talk about this, it is going to be important as 
well to keep in mind here that while the attention is on FARC 
to a large extent, what we are dealing with, the ELN, that many 
of us are going to raise questions about this AUC issue. It is 
a growing concern.
    I understand in some ways, when people are frightened to 
death, literally, that they will grasp and hold onto elements 
that they think are going to provide some security for them. In 
the face of 3,700 kidnapings last year alone in the country, 
you get some appreciation of what people are apt to lurch to in 
their desperation, but it is deeply concerning to me, and I 
know to many of us up here, this growing paramilitary activity 
does not seem to be abating at all here, and I would like to 
have your comments on that.
    Let me ask, if I can, some questions related to this, and 
let me begin by U.S. policy objectives, Secretary Grossman. We 
have all heard, and you have articulated it again this morning 
here, the objectives of U.S. policy in Colombia, and I am not 
quoting these exactly, but to strengthen democracy, reduce drug 
production and trafficking, deal with counterterrorism, reduce 
the violence, promote human rights and the rule of law, sort of 
I think in one sentence all these issues, and the armed 
conflict, obviously.
    It is a difficult question, but if you had to prioritize 
those goals, how would you do so? That is a large order I have 
just laid out there, but there is some sense of priority how we 
address these questions. One leads to the other in some 
instances, so I wonder if you might give us some sense of 
priority from the administration's standpoint on those issues.
    Mr. Grossman. Yes, sir, let me try to do that. If I might, 
Senator Dodd, take up your invitation to speak a little bit 
about the AUC-FARC business in the beginning of your comments. 
First, one of the things that I hope everyone will do, and I 
have worked very hard to train myself to do this, is when you 
talk about terrorism in Colombia to always talk about the FARC, 
the ELN, and the AUC, to always use all three, and I think that 
is a very important thing to do for American officials. I also 
think it sends the right signal to Colombians.
    The second point I wanted to make is that I appreciate your 
mentioning the Human Rights Watch report. We have worked very 
closely with Human Rights Watch. We appreciate the information 
that they give us. We appreciate the fact that they also 
recognize that we have got to be engaged in Colombia, and so we 
work very, very closely with them.
    The third point that I would make is that one of the things 
that this administration did which I think is absolutely right 
was to put the AUC on the foreign terrorist list, and in fact 
if you will remember, Secretary Powell was in Lima, Peru, on 
September 11. He was on his way to Colombia, where he hoped to 
be on the 12th, and on the 10th we notified the Congress that 
we wanted to put the AUC on the foreign terrorist list. I think 
it was a very good decision. It has helped us a lot, and 
absolutely shows where we stand on the AUC.
    I think as you do, we are all worried about the increasing 
numbers in the AUC, in the FARC and as you say, it shows us 
that getting that security is absolutely key, because as you 
say, people will hold on to anything when their lives and their 
families and their prosperity is under attack.
    That leads me to your second question. You have listed 
exactly all of our objectives. Colombia matters to the United 
States. If you want to pin me down, what I would say is, we 
have got to start with security, because security is the 
beginning that leads us to all the other things. I cannot 
accomplish my goals on alternative development unless there is 
security.
    As you very well pointed out, how can people have a real 
democracy when politicians and judges and mayors and Governors 
are kidnaped and murdered? How can you really have prosperity 
when people are afraid to invest in Colombia, when an American 
company cannot make an investment work on a pipeline? So I 
would put security at the base of this.
    But, Senator, what you said was exactly right, these things 
are linked, and I think the days are gone when you could kind 
of work on security Monday and Tuesday, and democracy and human 
rights on Wednesday and Thursday, and your economy on Friday, 
Saturday. These things are all together, and one of the things 
that attracts me about supporting Plan Colombia is the fact 
that it is multifaceted. It is not just about one thing or the 
other.
    So I will try to answer your question, I think you have got 
to get at the security question, but I do not answer it by 
leaving all the other things aside. Exactly as you said, they 
are related.
    Senator Dodd. So let us focus on the security issue, then, 
and General Speer, let me draw you into this one as well, and 
the burden-sharing issue, and again Senator Chafee I think 
rightfully pointed out in his brief comments about, to what 
extent can we--I mean, we obviously know what the Colombian 
people are going through, 80-year-old people barricading 
themselves in their homes, and the details we have cited 
already cite statistically what is going on in the country.
    Plan Colombia, of course, we talked about not only our 
commitment, which I think we have fulfilled, the financial 
commitments and so forth. Part of that included, of course, $4 
billion over 3 years to be spent by the Colombians. Now, 
obviously, their economy is suffering, and I realize they are 
under a lot of pressure. They have not met that goal, but I 
want to get some sense from you in the midst of all of this, 
some expression in your analysis of where the commitment is in 
Colombia to address this, rather than hopefully--well, not 
relying exclusively on sort of the United States coming in on 
this question.
    Second, related to that--and I want you to address this, 
general, if you can--I am still troubled by the fact that the 
Colombian legislature I am told, anyway, has not effectively 
dealt with the issue of conscription in the country, that you 
still have a prohibition against college-bound, or university 
bound--I think the rules are, students from being conscripted 
into the Armed Forces.
    We have seen the problems in our own country when this 
occurs, and obviously here, if you are talking about a nation 
under siege from the FARC, the AUC, the ELN, and you are 
excluding the elites from having to bear the burdens, then you 
contribute, it seems to me, to some of that dismembering of the 
social fabric of a country when they see people not being 
treated relatively equally in this regard.
    I wonder if that is going to change, what effect it is 
having on the ability to build the kind of support for 
institutions in Colombia to respond to this, the military, the 
public community, rather than lurching to the AUC as a more 
viable and credible organization to protect their security.
    My question again is in the absence of some of these things 
occurring from an institutional standpoint, in fact 
contributing to the very point I tried to make earlier about 
the success of AUC and its growing numbers of support by the 
civilian population. And what are we doing to try to reverse 
that trend so the ranks of AUC do not become enlarged in the 
coming weeks and months?
    General Speer. Thank you, Senator. I guess, let me go to 
the bottom line up front, which is, even the Colombian military 
leadership looks to the illegal paramilitaries, the AUC, as the 
greater long-term threat as they look at the challenges of 
dealing with the FARC, the ELN, and the AUC, because of what 
you just talked about. They have increased in numbers, and for 
all the reasons you just described, because there are at least 
some people in Colombia that look to the AUC as doing 
something. Of course, the AUC is not concerned about the rule 
of law in their application of how they deal with people.
    The other thing that is important to remember, though, is 
that the illegal paramilitaries, the AUC, is also involved in 
the drug trade, as are the FARC and the ELN, so in all three 
cases the FARC, ELN and AUC are self-financed through drugs, 
extortion, and kidnaping.
    Now, you highlighted--in my discussions with the Colombian 
military in terms of their leadership, frankly, if they could 
do it, they would love for the Government of Colombia to 
finance their total military budget and all of their demands. 
They really would prefer not to have to go elsewhere, or ask 
for outside assistance. I mean, they view it as a Colombian 
problem. I am giving you the military frame of reference. They 
view it as their responsibility, their problem, and they would 
hope that their country could finance all of their needs. That 
is not the case.
    Now, the other aspect in terms of dealing with legislation, 
you highlighted a problem, and that is their law in terms of 
not only who may be drafted, and where they may serve once they 
are in the military, but the other aspect is the term of 
service. And again, this is something that we have discussed 
with our counterparts, and our counterparts are working within 
their legislative framework to try to change the law.
    Senator Dodd. This has been an issue, though, now, for 
several years.
    General Speer. Yes, sir.
    Senator Dodd. And again, it is a Colombian decision, but it 
just seems to me, looking at this, and how we are getting 
deeper involved here, now, we are going to change the law in 
terms of how military equipment is used, and I appreciate the 
Secretary going down and telling me the things we are not going 
to do differently here, the vetting, the human rights and the 
military, the four points that you made. But I have got this 
eerie feeling you are going to be back at this table next year 
and saying, look, it has not gotten better. It may, in fact, 
have gotten worse.
    So I want to get some sense from you, too, where is this 
going? And if the financial commitments for the obvious reason 
in some cases are not being met by Colombians, they are not 
dealing with some of these very issues, and instead of talking 
about 11,000 people here in the AUC, I am back here next year 
and Human Rights is saying, oh, those numbers now are 18,000 
people, you know, where are we going with this?
    I do not have too much difficulty in supporting the request 
you are making this year. I have not made a firm decision on 
that yet, but I can understand that request, and so that is not 
my problem this year. I am trying to look down and say, where 
is this taking us? And so I am going to get to in a minute the 
regional questions, but before I get to regional issues, I do 
not have the sense yet--I do not have any doubt about President 
Pastrana's commitment. I do not have any doubt, based upon the 
numbers I have seen here, obviously, what the people are going 
through, but I do not have that sense yet that there is this 
determined effort by the Colombian structures and the military, 
the political structures, that they have come to terms with 
this yet.
    And one of the glaring pieces of evidence is, they do not 
seem to understand yet that, how do I make a case of dumping 
U.S. dollars and equipment into a region here when you cannot 
get college age kids to serve in the military to take on the 
AUC and the FARC? How do I make that case?
    And if they will not do it in the midst of this, when do 
you do it? That is my point, I guess, and you are making the 
same point. You are not disagreeing with me, but I am using 
this opportunity to say to you what I hope they are getting 
down there, because it is awfully difficult for Senator Chafee 
and me to keep coming back here, despite all of these horrible 
statistics that we read about, and obviously the impact here, 
where 50,000 people die in America here of drug-related deaths, 
and obviously a connection in all of this.
    So let me turn to my colleague from Rhode Island.
    Senator Chafee. Thank you, Mr. Chairman. I guess along the 
same lines if we are going to have increased flexibility in our 
relations with Colombia, what is the general plan to be 
successful? Just looking over the border, whatever Fujimori's 
faults might have been, they did have some success in Peru with 
their insurgents and their narcotics issues. Is there anything 
to be learned from what occurred in Peru?
    Secretary Grossman, your boss is an advocate of the Powell 
doctrine, come in with overwhelming force to be successful. 
What is the general outline in order to be successful in this 
effort? What is it going to take? I guess I will start with 
Secretary Grossman.
    Mr. Grossman. Yes, thank you very much, Senator.
    First, if I could say that we believe, as Peter testified 
we believe that one of the reasons we feel we can be successful 
is the success we have had in the past. This counternarcotics 
brigade that we have trained and equipped is the best military 
unit in Colombia, and we think that if we can get another 
counternarcotics brigade, if we can train another brigade to 
protect the pipeline so that money could flow again to 
Colombians, that we could have some success. And it is because 
we have been successful, we believe we can be increasingly 
successful.
    Yes, of course there are lessons to be learned in Peru. One 
of the most important ones, as I think our colleague from AID 
would say, is, it is in Peru that we have had some success 
offering alternative development, and the combination of moving 
people away from coca to something else was actually quite 
successful in Peru.
    You refer, sir, to the Powell doctrine. Of course, he is 
testifying some place else in the Senate, so I will let him 
speak for himself. But I think it is very clear, and I hope I 
can take the opportunity to say that not one of us here is 
talking about U.S. troops in a combat role. We are talking 
about U.S. troops and U.S. forces training and equipping 
Colombians to do this work, and I think that goes back to the 
point the chairman just made, which is to say that Colombians 
have to do more. Colombians have to change their laws. 
Colombians need to take the brunt of this, but as I think we 
have all tried to testify, we ought to be there to help them.
    If I could just make one other point, it is too soon to 
tell, perhaps, but I think that 9/11 has had a big impact on 
Colombians. One of the big differences between my visit there 
last August and a visit I made there in February was a real 
clear focus on this terrorism question. Colombians would have 
to speak for themselves, but I do not think President Pastrana 
would have come to, as Peter said, the courageous decision that 
he did on 20 February to clear out the zone had it not been for 
9/11. And I hope, to both of you, that that will bring more 
focus for Colombians on Colombia's problem.
    Senator Chafee. Thank you. General Speer, any additional 
comments on an outline of success in the region as we go 
forward and make a commitment here, as Secretary Grossman said, 
the key word is security, and in order to achieve that, amend 
our legislation to have increased flexibility?
    General Speer. Senator,I think it is important to say where 
we are today in terms of what we are allowed to do. First of 
all, in terms of published U.S. Government policy, our work and 
contact with the Colombian military is predominantly focused on 
counterdrug support, so that is a limited aspect of our 
interaction, in training and equipping the Colombian military.
    The issue is, it is not just about drugs, it is about 
security in a broader spectrum. The reality is today--and I 
will use the FARC as the example--I cannot distinguish between 
the FARC when the FARC is acting as a narco-trafficker and the 
FARC as a terrorist, or the FARC as an insurgent. Those 
distinctions that may have existed at one time are really 
blurred, certainly at the tactical level, and the real problem 
is, we have got to get at the security issue, or Colombians 
have to get at the security issue. So that really is what 
changing the authorities is all about.
    Senator Chafee. You served in the region, I know from your 
background, quite a bit. Are there lessons to be learned from 
Peru? And as I said, for all his faults President Fujimori 
seemed to have a plan that worked fairly well in this area. Are 
there lessons to be learned from that, the interdiction and the 
fly in zones? I am not intimately familiar with his plan, but 
at least he pushed it out of Peru into Colombia to some extent.
    Senator Dodd. That is part of the problem.
    General Speer. Well, certainly the counterdrug aspect in 
Peru did just that. The air bridge denial program from a 
regional perspective was a very effective program over a period 
of years, and that helped to close out the air bridge that 
existed previously in terms of Peru to Colombia. And that is 
what forced, shall we say, the end to the cultivation in one 
country and the base being changed into the actual cocaine in 
another country, so it forced the drug traffickers to 
consolidate, if you will, and eliminate that movement.
    But the other thing, fundamentally, if you look back at 
what President Fujimori and the Government of Peru did is, they 
resourced their security forces to deal with the security 
threat, and consequently they did.
    Now, on the other side of the coin, if you want to talk 
about human rights performance, at least during that time I am 
not sure the Peruvian security forces had adhered to any human 
rights vetting, so there were some tactics used that we do not 
want to see applied elsewhere.
    Senator Chafee. Switching subjects a little bit to talk 
about the upcoming elections, Mr. Secretary, what are the 
dynamics, and certainly we talked about the lurching to the 
right and increased support for the AUC. I know you look at the 
elections in France. What is happening there? What are the 
dynamics in Colombia as we come forward to their elections? Is 
there a rightward swing to--I know candidate Uribe is generally 
considered the law and order candidate. I do not know how 
accurate the polls are, but is he the front runner at this 
point?
    Mr. Grossman. I certainly would not be involved in 
predicting Colombian elections from here, but it is certainly 
true that all the polls, Senator, show that people are 
interested in security, and people are moving to the right, no 
question about it.
    One of the things that General Speer and I did, along with 
a number of other people, when we visited Colombia in February, 
was we had a chance to meet each of the three leading 
Presidential candidates. And really our message to them was the 
same, which was to say, the United States is interested in 
Colombia, you have got to be interested in doing your part in 
this.
    And then especially, and with all three candidates we made 
a very big point of this linkage, of how important it was for 
the United States on democracy and on human rights, so as much 
as people are concerned about security, if you are going to be 
elected the President of Colombia, you have to understand how 
much the United States is interested in security that is being 
maintained and protected, along with human rights and 
democracy.
    We will see how people vote, but we found that all three 
candidates were interested in a good relationship with the 
United States, were interested in Colombia doing more for 
itself, recognized they had a big challenge, and I think would 
generally go forward with Plan Colombia.
    Senator Chafee. You do not foresee any surprises on the 
horizon?
    Mr. Grossman. I think one of those three people is going to 
be the President of Colombia.
    Senator Dodd. That is why we pay you the big bucks.
    Mr. Rodman. May I add a point? I have the same assessment, 
that all of the leading candidates are in favor of prosecuting 
the war, a harder line, if you will, and I think first of all, 
a lot of it is a reflection of the collapse of the peace 
diplomacy. But the second point I would add is, this may well 
be a society that is now coming to terms with the necessity to 
take on this campaign and to commit resources to it. I think 
before, while there was a peace diplomacy, there were a lot of 
hopes invested in it, and perhaps that was an excuse for not 
making this a larger military commitment, or a commitment of 
resources.
    Now it seems that the society as a whole has tested that 
option, found it wanting, and it may well be that whoever is 
the next President will follow President Pastrana in this 
stronger line, so I think it is a sea change in Colombian 
politics in the direction that we want, if what we are looking 
for is a greater commitment on their part.
    Senator Chafee. Thank you, Mr. Chairman.
    Senator Dodd. Thank you very much. Before turning to--our 
colleague from Wisconsin has joined us, and we thank you, 
Senator Feingold, for being here. I just want to underscore 
that point that Senator Chafee has just made, and I hope, in 
addition to other things, that this hearing will serve as a 
basis for sending a message to the candidates there.
    They are going to be electing new candidates there in May, 
and a new President will emerge in Colombia in the next month 
or so. We are going to be voting on a package that will be good 
for a year or so, and I hope that these candidates understand 
that it is going to be very, very important to continue the 
efforts that President Pastrana has made and others have made 
in the country.
    So, I am not suggesting they are going to have an exact 
duplicate plan, but deviating from that particular effort would 
certainly not be welcomed, and I just want to raise the issue 
once more, because, quote, our own State Department's 
designation of the AUC on September 10 of last year--it says, 
``The AUC has carried out numerous acts of terrorism, including 
the massacre of hundreds of civilians, the forced displacement 
of entire villages, the kidnaping of political figures, and the 
forced recognition of AUC demands.''
    The AUC has committed at least 1,000 killings, over 100 
massacres in 2001, at least 50 percent of all political 
killings, and according to some reports here, at least Human 
Rights Watch, the 11,000 people who are part of the AUC is a 
560-percent increase since 1996, and the question obviously 
becomes, why? Why the numbers? If security is the issue, and 
their ranks are swelling, that is a reflection on people's lack 
of confidence, in my view anyway, of the governmental 
structures, principally the ability of the military.
    Do you agree with that conclusion, first of all, Mr. 
Secretary?
    Mr. Grossman. I do.
    Senator Dodd. So if we are looking here a year from now and 
these numbers continue rising, instead of 11,000, we are 
talking numbers that are moving up, then we have got to 
question whether or not the present policy we are following 
here is really working very effectively.
    Mr. Grossman. Well, I would say, Senator, one of the 
reasons we want to do more with the military and not less is 
for precisely this reason. If what we have learned since 
September 2000, that if we can train a counternarcotics brigade 
with the wonderful men and women of our uniformed services, and 
it turns out to be the best unit in the Colombian military, 
then we ought to do another one. And if we can do the same, and 
do some training so they can protect the pipeline, we ought to 
do that, too.
    So the question that we all have to debate here as you look 
at our budget request is, are we prepared to spend that extra 
money, are we prepared to do extra, and we believe the more of 
these units we can train, the better security there will be, 
and on top of that the better human rights performance there 
will be.
    There has not been one credible proved allegation of a 
human rights abuse for this counternarcotics brigade that has 
been trained by the United States of America, and we are very 
proud of that, so if you ask me, I do more vetting, I do more 
units, for precisely the reason that people ought to be 
confident about their own military.
    Senator Dodd. I will come back to this theme in a minute, 
but let me get to my colleague from Wisconsin. Senator 
Feingold.
    Senator Feingold. I thank you, Mr. Chairman, for holding 
this hearing and for your leadership on these issues. I am 
sorry I was not here earlier, but I am glad to just have a 
chance to ask a couple of questions.
    Mr. Grossman, you know of my interest on the fumigation 
program, and I would ask you, do you believe fumigation, in the 
absence of credible, well-managed alternative development 
projects, is really a policy that makes sense? And I ask this 
because some people have concluded that there is no alternative 
development strategy that will convince economically rational 
coca growers to stop growing it. I do not know whether that is 
accurate, but if it is, it leads me to say, what do we hope to 
gain through the fumigation program?
    Mr. Grossman. Senator, let me say that in my view, and 
perhaps there are people, and there are people certainly much 
more expert than I am, is that you cannot have alternative 
development alone, and you cannot have fumigation alone, so if 
your proposition to me is, wouldn't it be wrong to have a 
fumigation program without an alternative development program? 
Absolutely. But I would also say in reverse, sir, that if 
someone proposed to me that we have a great alternative 
development program without fumigation, I would say that that 
is not going to work, either. There has to be some hammer here, 
if I can use a nondiplomatic term, to keep people focused on 
what it is they are supposed to do.
    As I tried not very well to say in my statement, we 
recognized some months ago that the alternative development 
program we were pursuing was not producing the kind of results 
we want. And I give great credit to people here at AID and in 
our mission in Colombia for changing the way that they are 
thinking about alternative development, and they are now 
focused better on communities, they are focused on alternative, 
not just development, but alternative jobs, and I think very 
wisely they have expanded the geography of alternative 
development.
    We were looking just at Putumayo, but the studies that we 
had done both by the GAO and work that we did showed that you 
have to expand your geography, and if you can employ somebody 
outside of the county, and they will move there for a job, it 
is something they ought to do, and so I believe that with this 
new focus on alternative development we are going to be doing a 
better job in there. We will have it planned, and combined with 
spraying we will have a serious anti-narcotics effort.
    Senator Feingold. I appreciate that answer, and let me just 
follow it a little more specifically. Under an amendment that I 
offered to the foreign ops bill last year, the State Department 
must certify that community development programs are in place 
in all fumigation areas in mid-July, and certification is 
required for the fumigation program to continue.
    I am aware that there has been some concern about the 
provision, but I think it is essential, and I think your 
comments tend to support that, if we are to implement an 
effective and humane fumigation program in Colombia.
    In the absence of alternative development opportunities, 
evidence suggests to me that farmers will simply replant their 
coca crops in other regions, perhaps causing more instability, 
and of course more environmental damage over the longer term. 
So my question, then, is to ask for a status report on 
community development programs. Will they be in place, as 
required, before heavy fumigation begins again in July?
    Mr. Grossman. The experts tell me that the answer to that 
question is yes, and that based on all the available data, and 
the work that AID has done, we will be able to certify that to 
you as the law requires.
    Senator Feingold. I thank you, and I thank you, Mr. 
Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    Mr. Chairman, thank you for calling this important hearing. I am 
grateful for the opportunity this hearing provides to discuss our 
important but increasingly complex relationship with Colombia. In 
particular, I hope that this hearing will allow us to step back and 
evaluate the effectiveness to date of our various policy objectives in 
Colombia. We must consider, for example, whether current and future 
initiatives have been effective in reducing the levels of violence in 
the country, in seeking accountability for grave human rights 
violations, and in cutting off the narco-traffickers who provide both 
financing and incentives for insurgent forces. We must also ask whether 
our policy in Colombia provides an effective balance of military 
assistance and well-managed development support. And we have an 
obligation to the people of Colombia to consider the human and 
environmental effects of our ongoing fumigation campaign. To answer 
many if not all of these questions, we must also consider the viability 
of a military solution to the escalating conflict.
    At this hearing, I would also like to highlight an amendment that I 
offered to the foreign operations bill last year. Under the terms of my 
amendment, the State Department must soon certify that community 
development programs are in place in all fumigation areas. In the 
absence of alternative development opportunities, evidence suggests 
that farmers will simply replant their coca crops in other regions, 
causing more displacement, more instability and ultimately more 
environmental damage over the longer term. I am anxious to hear whether 
progress is being made in achieving this crucial development objective.
    I hope we will also have an opportunity today to explore the very 
troubling reports that suggest ongoing collusion between the Colombian 
military and paramilitary forces. I find it difficult to support 
assistance to the Colombian military if it maintains military 
relationships with a paramilitary force that has been certified by the 
United States as a terrorist organization. We must stand firm in 
opposing violence and narco-trafficking in Colombia, but in the 
process, we must never inadvertently provide either direct or indirect 
assistance to any terrorist groups.
    These are difficult questions. They deserve a candid discussion and 
frank answers if our ongoing financial support for the Colombian 
Government is to be effective. I look forward to beginning that 
discussion today.

    Senator Dodd. Thank you. Senator Chafee, do you have any 
more questions?
    Senator Chafee. No, Mr. Chairman.
    Senator Dodd. Let me ask about a couple of other issues if 
I can, and let me just pick up on what Senator Feingold has 
raised about the counternarcotics efforts. One of my concerns 
is, if we go now we are going to start utilizing this equipment 
not only in the counternarcotics area but obviously in dealing 
with the anti-insurgency efforts.
    The obvious issue comes up in my mind, we are sitting here 
around a year from now, we are having these reports on the 
eradication efforts and, given the resources that are 
committed, there will be a diminution of these resources, 
obviously, in the counternarcotics field, although you can say 
it overlaps, that we are coming back and we are watching--
because more of these resources are being committed to dealing 
with the insurgency efforts. Although again I accept the notion 
there is some overlap here, that we could be looking at a 
situation where the counternarcotics efforts are beginning to 
slip and fail and fall behind. How do you address that 
question?
    Mr. Grossman. Let me start. Our proposition is that we can 
do both of these things, and that----
    Senator Dodd. With the present level of resources?
    Mr. Grossman. Yes, sir. That is why we have asked for 
additional funds in 2003 to train a second counternarcotics 
brigade. It is why also we have asked in 2003 funds for the $98 
million to train and equip a unit to look after the pipeline, 
to the infrastructure, and it is also why, in the emergency 
supplemental that is here now, we have asked for $35 million, 
$25 million in anti-kidnaping assistance, $6 million to begin 
work on the pipeline, and $4 million to help police, to really 
build police stations that they can be secure in.
    So we think that level of funding is the right level of 
funding, that is why we asked for it, and we believe we can 
operate these missions and do them successfully.
    Senator Dodd. President Pastrana, the other day when he was 
here, I asked him about the success of the talks with the ELN, 
and at least his report was they are going fairly well, and he 
was even hopeful that before he left office there may actually 
be some resolution of those talks, successful resolution with 
the ELN.
    One of the factors is, of course, that these talks are 
being conducted in Cuba, and I asked him very directly whether 
or not, in this particular case, Castro was being of any help 
on this matter, and he said he was. How do you answer that 
question?
    Mr. Grossman. We have supported President Pastrana in his 
efforts with the ELN. They have not asked us for anything in 
that regard. Near as I can tell, it's the right report, that 
they seem to be making some progress. You know, obviously, I 
think I would like to have it in another venue, but that is 
really not for me to choose, and if they can get this job done, 
and bring peace, and have some reasonable agreement with the 
ELN, I think we would support that.
    Senator Dodd. I presume our interest section is giving us 
some reports on how they are going.
    Mr. Grossman. Actually, sir, we get them mostly from the 
Colombians, through Ann Patterson. I think they come to Cuba, 
they use it as a facility, but our reporting and our 
interaction with that peace process to the Colombians is done 
through Bogota.
    Senator Dodd. Well, let us assume for a second President 
Pastrana is right, that in this particular case, despite our 
obvious differences with Castro on a whole host of issues, that 
in this particular case, whatever the motivations may be, it is 
being constructive and working fairly well. Would we object to 
having a role for Fidel Castro in dealing with any political 
resolution dealing with the FARC?
    Mr. Grossman. With the FARC?
    Senator Dodd. With the Colombians seeking the assistance of 
the Cuban Government in coming to some political resolution, in 
addition to the other steps we are taking with the FARC? What 
would our view be on that?
    Mr. Grossman. Our view on this is, we would support 
President Pastrana. He is the President of Colombia, and he is 
pursuing a peace process, and if he came to us and said, this 
is how we would do this, we have been quite open about that.
    Senator Dodd. We would not object to that?
    Mr. Grossman. We would support President Pastrana.
    Senator Dodd. We are being clever here with the wording.
    Mr. Grossman. You said that is why I get paid all this 
money.
    Senator Dodd. I think I am hearing what I want to hear.
    Mr. Grossman. I hope so.
    Senator Dodd. Well, have you told--well, the ELN obviously 
is on a terrorist list.
    Mr. Grossman. Yes, sir.
    Senator Dodd. Have we laid out some conditions in which 
they come off that list if, in fact, these negotiations are 
successful?
    Mr. Grossman. Luckily, the list of what it would take to 
get off the terrorist list is a public list, and anyone who has 
asked us, whether it has been President Pastrana or other 
governments, what would it take, we say, here it is. Here is 
the law. Here is the standard by which we judge whether people 
are on or off that list. And when the ELN or any other 
terrorist group in the world moves away from that list, we are 
prepared to consider it.
    The law is designed to require us to meet certain criteria. 
They meet the criteria. When they stop meeting the criteria, we 
would be prepared to consider it. I think we are a long way 
from that, given what they are doing on the pipeline and 
kidnaping, and they are dealing with drugs, but in the 
theoretical, there is the list.
    Senator Dodd. Let me get back to the regional issue again 
with you, and when I made the comments I did at the opening of 
this hearing, in my disappointment at the lack of support--
first of all, let me address the issue of Venezuela and the 
connection.
    I asked President Pastrana when he was here as well whether 
or not the events that unfolded in Venezuela and how they were 
handled helped or hurt the situation. He felt they had hurt the 
situation.
    We do not seem to be getting the kind of commitment and 
support in some of these neighboring countries. We are 
providing, I think, $5 million in assistance to Ecuador, if my 
memory serves me well, as part of the proposed budget request. 
There may be additional levels of support in the area, $35 
million--$3 million to Ecuador, I guess is what it is that has 
been committed.
    We obviously had President Bush visit President Toledo in 
Peru, lending his presence to strengthen the government there. 
Bolivia has had some difficulties. Obviously, there are changes 
occurring in Brazil, and obviously the problems in Venezuela 
surrounding this particular issue.
    What is your assessment of the regional support for this 
particular effort, and do you share my concern that if this is 
sort of a bilateral Colombian-U.S. deal, with no one else doing 
much except being spectators in the region, that we are going 
to have a more difficult time resolving this issue in the long 
term? And if you draw that same conclusion that I have, what 
steps are we taking to try and build some regional support for 
Plan Colombia, including the participation beyond just 
rhetorical commitments from these neighboring nations to share 
in the burden that the present situation poses in Colombia?
    Mr. Grossman. Senator, I agree with you, if this is a 
bilateral U.S.-Colombia deal it will not work. I think we ought 
to be clear about that, and all of the people who are behind me 
listening to this broadcast, or listening to this hearing, 
understand that.
    I would say a couple of things. One is that we, I think, 
have taken some steps to try to show our interest in the 
region. When I took my job there were two great criticisms on 
what we were doing on Plan Colombia. Criticism number 1 was 
that it was too focused on the military, and criticism number 
2, it was too focused on Colombia, not on the region.
    And when President Bush took a look at this, his 
proposition to you all was that we have the Andean Regional 
Initiative [ARI], which is a better balance in terms of the 
money between Colombia and some of the surrounding states, 
including Ecuador. In fact, of that FY 2002 ARI funding, some 
$46.86 million was for Ecuador.
    Senator Dodd. I am glad to hear that. That is a 
supplemental request.
    Mr. Grossman. Actually, no, that was the amount in the 2002 
ARI budget for Ecuador. The corresponding FY 2003 request for 
Ecuador is higher still at $65 million.
    Senator Dodd. I am glad you mentioned Ecuador, because they 
have been a great ally and supporter of us.
    Mr. Grossman. That is correct. We try to show the way by 
changing our support for Plan Colombia from just support for 
Plan Colombia to the support for the Andean Regional 
Initiative, but we need to do more, and exactly as you say, we 
need to make sure that the other countries in the region are 
not spectators.
    I had a chance a few weeks ago to go to Brazil, and one of 
the things we did in a long list of consultations with the 
Brazilians, I came back and back again to the need for them to 
support Colombia, so in all of our conversations with Latin 
Americans and with Europeans as well, we need to just continue 
to push ahead and recognize that Colombia is not just an 
American problem, it is really a worldwide problem.
    Senator Dodd. Well, I mentioned Ecuador specifically, and 
they have been very, very helpful and, of course, the base in 
Ecuador which has allowed us to have these overflights and 
views, that has been critically supportive, I think, in terms 
of our ability to deal with the eradication effort.
    And yet I also know that on the eastern border of Ecuador, 
the border with Colombia, it is an open frontier, and I gather 
there is a lot of back-and-forth. In fact, it is almost a safe 
harbor in a sense. This is true also in Brazil, I am told, and 
so as I said, more than just the kind of help, there is a real 
problem here, that people actually in the FARC particularly, 
and maybe in the other groups as well, are able to have sort of 
free access to these neighboring countries, and not the level 
of support yet we need to deal with those issues. And there is 
some concern, obviously, that these governments, if they become 
too difficult on these questions, then the problems that 
Colombia is facing are going to spill over into their areas, so 
it is a serious issue that needs addressing.
    Last, let me raise one specific question with you dealing 
with the counterterrorism, counterinsurgency support 
initiative, and whether this will fall outside the caps. 
Secretary Rodman and General Speer can comment on this as well. 
The administration is not requesting a waiver of use of these 
personnel caps in the fiscal year 2002 supplemental, and the 
question is, do you believe the cap limitations apply to the 
additional programs that you are proposing to support in 
Colombia such as the protection of infrastructure, 
antiterrorism programs, counterinsurgency support, which 
arguably fall outside of the scope of the definition contained 
in existing law? And the further question is, will you support 
legislative language that makes it clear in statute that the 
existing caps apply to these additional activities as well?
    Mr. Grossman. We do not intend to exceed the caps. We want 
the Byrd amendment. We support the Byrd amendment. I would not 
give you advice about how to legislate or not legislate. All I 
can tell you is that the 400 military, 400 civilian are caps we 
want to live with.
    Senator Dodd. So you would not object to legislative 
language that made that clear, if someone were to propose that? 
We are going to run the language by you, I am not going to 
spring it on you, but you understand the thrust of what I am 
asking?
    Mr. Grossman. I do. Since we are saying that the Byrd 
amendment as it exists continues to be the law, in our view it 
would be the law.
    Senator Dodd. Staff tells me here the Plan Colombia is 
defined here, and that is why we raise the very specific 
question. Plan Colombia means the plan of the Government of 
Colombia instituted by the administration of President Pastrana 
to combat drug production and trafficking, foster peace, 
increase the rule of law, improve human rights, expand economic 
development, and institute justice reform.
    We are going to expand the definition to include other 
activities, and I just want to make sure that as we expand that 
list here, that we are not going to have someone coming back 
and saying, well, that statement I gave you about the caps 
persists, except that we have now moved into a whole new area, 
and it does not apply there.
    Mr. Grossman. The reason I tried in my testimony to be 
clear on the four or five commitments I gave you is that is the 
administration's commitments. Those are the commitments we give 
you.
    Senator Dodd. Secretary Rodman, do you agree with that?
    Mr. Rodman. I concur in that.
    Senator Dodd. General Speer.
    General Speer. Sir, with what the administration has 
recommended in terms of the way ahead, the second CD brigade, 
the infrastructure security force, which involves the Fifth 
Brigade and the Eighteenth Brigade, and continuing the 
sustainment training, training for the original counterdrug 
brigade, as well as the Riverine force, the support to the C-
130 fleet and other Air Force programs, all of that can be 
executed within the cap.
    Senator Dodd. OK. Someone is going to draft language here, 
and we are going to want you to look at it. We want to make 
sure that no one is trying to play games with each other here 
so you understand it, and so we are clear on it.
    We have got about 2 minutes left on a vote here, with my 
colleagues, so we may leave the record open for some additional 
questions, but I appreciate your testimony here this morning. 
We did not cover every issue, obviously, but I am very 
appreciative of your response to the questions we have raised, 
and we look forward to a close and important working 
relationship with you as we go forward here with these 
proposals.
    Mr. Grossman. We thank you, and we would be glad to come 
back any time.
    Senator Dodd. Thank you, Mr. Secretary, Mr. Secretary, 
general, the committee will stand in recess. We will come back 
and pick up the second panel.
    [A brief recess was taken.]
    Senator Dodd. The committee will come to order. I apologize 
for the delay. We had a vote on the floor of the Senate, and 
getting back here, I want to thank our next panel for their 
patience and waiting to be heard. In some ways I hope that just 
hearing the first panel is of some assistance to you, and 
allows you to even modify some of the comments you may have 
made in light of some of the statements being made, or that 
have been made by the administration in regard to the Colombia 
policy, U.S.-Colombia policy, what's next?
    We are pleased to welcome to the committee today Mr. Mark 
Schneider, senior vice president of the International Crisis 
Group located here in Washington, DC. Mark is, I should say for 
the record, a very dear and longstanding friend of mine. We 
have worked together over many, many years on numerous issues. 
A former volunteer and most recently the Director of the Peace 
Corps, an organization near and dear to my heart as a former 
volunteer in the Dominican Republic--high school students ask 
me when was I a Peace Corps volunteer. I say, when Thomas 
Jefferson was President, to give you some idea of the gray hair 
here.
    Mr. Jose Miguel Vivanco is the executive director of the 
Americas Division of Human Rights Watch. You have heard me 
already quote the Human Rights Watch, and you have heard the 
administration officials refer to your studies in positive 
terms as being worthwhile products for monitoring and 
considering human rights issues. So we are very pleased you are 
here with us today as well, and with that, let me turn to both 
of you for your statements, and again, I will keep the clock on 
here to give you some indication of how time is moving, but do 
not feel constrained by it when the bell goes off, then we will 
get to some questions.
    Mark, thank you.

      STATEMENT OF MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Schneider. Thank you very much, Mr. Chairman. As always 
it is a pleasure to be here at the Senate Foreign Relations 
Committee to testify now on the current conflict in Colombia. I 
would like to convey some of the findings, conclusions, and 
recommendations of our recent report \2\ on the elusive quest 
for peace in that nation, and I ask the chairman's consent to 
incorporate the report.
---------------------------------------------------------------------------
    \2\ The report referred to is entitled ``Colombia's Elusive Quest 
for Peace,'' March 26, 2002, and can be accessed at the International 
Crisis Group's Web site at http://www.crisisweb.org
---------------------------------------------------------------------------
    Senator Dodd. As I said earlier, we will try to include all 
documentation you think worthwhile in the record.
    Mr. Schneider. The ICG is a multinational NGO based in 
Brussels, committed to the goals of preventing conflict and 
where it exists working to contain and hopefully resolve those 
conflicts.
    Former Senate Majority Leader George Mitchell was the 
founding chair of this group, which came into being following 
the bombings of Sarajevo and the genocide in Rwanda. Its 
founders believed that early warning drawn from field-based 
analysis and translated into policy recommendations might help 
the international community to prevent a repetition of those 
avoidable disasters.
    Senator Chafee, Mr. Chairman, the ICG report on Colombia 
that I mentioned, concluded--with respect to the stake the 
United States has in Colombia that you mentioned. We concluded 
that the United States and the international community need to 
help that nation respond to the threats from insurgents and 
paramilitary alike, for the following reasons.
    First, because the conflict in Colombia is already spilling 
over its regional borders and posing further dangers to already 
fragile neighbors. With respect to that, Senator, you mentioned 
the regional issue, and I just would note that in our 
recommendations, we made several recommendations with respect 
to how to link the other neighbors to the effort to respond to 
the threat from the insurgents and paramilitary in Colombia. 
Second, because Colombia still remains the major source of 
drugs, both cocaine and heroin, coming into this country.
    Third, because the human costs are unacceptable, as we have 
heard today: 1.5 to 2 million people displaced; 3,000 kidnaped, 
mostly at the hands of the insurgents, and you have listed some 
of the victims, including just 2 days ago, the Governor of 
Antioquia.
    Between 1,000 and 2,500 men, women and children killed and 
massacred, the vast majority the work of the paramilitary; an 
equal number assassinated, including labor union organizers, 
journalists, local and indigenous leaders, human rights 
advocates, and just innocent people in Colombia.
    And 400 credible reports of torture and 6,000 children 
forced into the armies on either side.
    And finally, we have a stake because the conflict threatens 
a democracy, a democracy with flaws, but a democracy, and one 
where the people are willing to brave death threats and bombs 
to vote, as they did last month in the congressional election.
    For those reasons, it deserves support, although it also 
must make progress on mending shortcomings in its judicial 
system, closing gaps in addressing social and economic 
inequities, and most crucially, openly and clearly rejecting 
collusion with the paramilitary. Much more needs to be done in 
this area, and presumably that is why the administration has 
not yet certified the human rights conditions in the fiscal 
year 2002 appropriations bill.
    ICG found in the report that the conflict itself has 
changed. It is no longer what we used to think of as a classic 
ideological guerrilla war, but a foul mixing bowl for drugs, 
weapons, money laundering, criminals, and terrorists. The 
guerrilla groups also have shifted dramatically since the end 
of the cold war, losing popular sympathy, and drawing their 
financing from drugs, kidnaping, and extortion.
    The rhetoric remains ideological, but there has been little 
substantive agenda behind it, and for 4 years, they failed to 
use the opportunity that President Pastrana gave them to 
negotiate a settlement of the conflict. It also should be noted 
that their paramilitary enemies are probably even more 
dependent on drug money, earning some 70 percent of their 
income from that source.
    Given those concerns, ICG has focused its recommendations 
on four specific areas that relate to the questions that you 
were asking earlier. First, protecting Colombian citizens 
against the insurgents and the paramilitary, reenergizing the 
peace process, combating the drug trade, and extending police 
and judicial institutions, as well as basic social services, to 
the rural areas.
    Protecting Colombian civilians from insurgents and 
paramilitaries requires a better and stronger military and 
police. But as you noted, Mr. Chairman, Colombia must do more 
to finance its own defense and end the draft evasion that 
appears to benefit the wealthy.
    Most immediately, it must replicate its massive protective 
effort during the congressional elections to assure the safety 
and security of candidates and voters during the May 
Presidential balloting.
    ICG also recommended specific actions to address the rising 
power of the paramilitary. For Colombia, we suggest they should 
create special police and prosecutorial units to go after the 
leadership of the AUC, like the successful strike forces that 
ultimately dismantled the Cali and Medellin cartels in the 
early 1990s.
    Colombia also should do more to prosecute military officers 
who assist the paramilitary, and to prosecute all those who 
finance them. We believe the United States has a special role 
in this area. Yes, we conclude that there is justification to 
extend additional military aid to the Government of Colombia, 
and to approve the dual use of U.S.-trained forces, currently 
permitted only to fight drug-trafficking, as the Bush 
administration has requested, but only after the Colombian 
military makes significant further progress in ensuring 
accountability for human rights violations, and in severing all 
links with the paramilitaries.
    The existing conditionality--the Leahy amendment, the Byrd 
amendment, section 567 of last year's appropriations bill, the 
existing conditionality which seeks to promote those ends, 
should apply to the new funds and to the new authority. It will 
help Colombia in furthering the professionalization of its own 
military and police. It will strengthen those inside the 
Colombian Government and military who are seeking to build 
internal safeguards against human rights abuses, and break the 
links to the paramilitary, and it will increase the U.S. 
Government's leverage for those same objectives.
    ICG also recommends ways to reenergize the peace process in 
the future, because we believe there will need to be a future 
peace process. Initially, we recommend that President Pastrana 
pursue the talks in Cuba aimed at a verifiable cease-fire with 
the ELN, if at all possible, before a new President takes 
office. You mentioned that, Senator.
    Let me just note in that regard that while there is 
currently a group of five international ambassadors who form a 
group of friends, at one of their last meetings, the ELN and 
the government both requested that the United States become 
more actively engaged in that process. One of our 
recommendations is that the United States examine how, in fact, 
it can do that.
    As for negotiations with the FARC, we believe that it first 
must recognize that it can neither win a military victory nor 
continue forever to strike fear throughout Colombia. As its 
military capacity diminishes, the FARC then would have no 
alternative, other than to engage in substantive negotiations.
    We recommend that the next President also remedy one of the 
flaws of the past negotiations with the FARC, the absence of 
third party mediation. The next administration should invite 
the U.N. Secretary General to play a much stronger role, 
appointing a Special Representative and establishing a good 
offices mission in Colombia at the earliest useful moment. At 
some point, clearly, international monitors will likely be 
required to verify a cease-fire. We also think that the United 
States has to consider how it will engage with those future 
negotiations.
    Mr. Chairman, our report also recognizes the importance of 
the drug issue. Our recommendations on that subject are 
preliminary. We are going to be doing a separate report on the 
issue of counternarcotics efforts in Colombia, but we also 
share the concern expressed by Colombia's President and other 
international leaders that there is a need to review and 
rethink the elements of the current strategy, given the 
increase in cultivation over the past several years. I know 
that you have heard that the administration also is re-
examining some of those elements of the strategy.
    We think we should also engage the hemispheric community in 
that effort, perhaps through the OAS, and we endorse President 
Pastrana's call for a hemispheric summit on that subject like 
the one that took place in Cartagena in 1990 to help produce a 
new common regional counterdrug strategy, that goes beyond the 
bilateral.
    Finally, there is a fourth issue, looking at the conflict 
one has to consider, and that is how to strengthen Colombia's 
institutions and their ability to deliver services into rural 
Colombia. At this point, we believe that Colombia and the 
international community need to consider how to help it 
introduce legitimate police and justice forces into rural areas 
and to pursue economic and social development for 80 percent of 
the rural population estimated by the World Bank to be living 
in poverty.
    You mentioned that one of the major gaps is the presence of 
the state in rural Colombia. That was a reality event before 
the conflict that continues today. One way that we can begin, 
and Colombia can begin that process, is to look at former 
combat areas like the former demilitarized zone, and undertake 
an emergency economic, political, and social recovery program 
in those areas to demonstrate the capacity of the state to 
respond to the needs of the people. And more also needs to be 
done building on what AID, ICRC, UNHCR are doing to help 
displaced persons, and we are talking about some 2 million 
people.
    Finally, let me just note that Colombia's Government and 
its new President face a significant military challenge in 
containing the FARC. They face an equal law enforcement 
challenge in confronting the paramilitary, and they face the 
political challenge of leading a nation to address both of 
those threats while initiating the democratic reforms that 
Colombia requires, and ultimately bringing Colombia the peace 
its people so deeply desire and deserve, and the United States 
should help Colombia achieve those goals.
    Thank you.
    [The prepared statement of Mr. Schneider follows:]

    Prepared Statement of Mark L. Schneider, Senior Vice President, 
                       International Crisis Group

    It gives me great pleasure to return to the Senate Foreign 
Relations Committee to testify on the current conflict in Colombia. As 
Senior Vice President of the International Crisis Group, I would like 
to convey some of the findings, conclusions and recommendations of our 
recent report on the ``Elusive Quest for Peace'' \1\ in that nation. I 
would ask the chairman's consent to incorporate our report into the 
hearing record if that would be possible.
---------------------------------------------------------------------------
    \1\ This report can be accessed on ICG's Web site at http://
www.crisisweb.org
---------------------------------------------------------------------------
    The International Crisis Group is a multinational non-governmental 
organization (NGO) based in Brussels. We are committed to the goals of 
preventing conflict and, where it exists, of working to contain and, 
hopefully, resolve those conflicts. Former Senate Majority Leader 
George Mitchell was the founding chair of this group which came into 
being following the bombings of Sarajevo and the genocide in Rwanda. 
Its founders believed that early warning, drawn from field-based 
analysis and translated into policy recommendations, might help the 
international community to prevent a repetition of those avoidable 
disasters.
    ICG's first Colombia report reviews the origins of the 40 year-old 
conflict, the current actors and the peace efforts of President Andres 
Pastrana; it also offers an analysis of the reasons for their failure. 
The major focus is on the collapsed peace process with the FARC, while 
noting that negotiations continue with the smaller ELN guerrilla group, 
with at least the theoretical possibility of achieving a ceasefire. The 
report also looks forward to the challenges facing Colombia's next 
government, which will take office in August following May presidential 
elections. We have also published a second briefing paper \2\ on the 
implications of last month's congressional elections.
---------------------------------------------------------------------------
    \2\ This briefing paper entitled ``The 10 March 2002 Parliamentary 
Elections in Colombia,'' can be accessed on ICG's Web site 
www.crisisweb.org
---------------------------------------------------------------------------
    As you know, in late February, the FARC hijacked a plane and 
kidnapped a sixth member of the Colombian congress, this time Senator 
Eduardo Gechem, the president of the Senate peace committee. This was 
the final straw that brought an end to the talks, to the demilitarized 
zone and to any remaining hope for an early ceasefire. There was 
virtually unanimous support inside and outside Colombia for ending the 
zone following the hijacking.
    As Colombia entered this unsettled transition period, with peace 
talks over and elections on the horizon, ICG found enormous frustration 
among the population with the oft-interrupted negotiations and the 
absence of concrete results. Every armed group in the country--the FARC 
\3\ and ELN \4\ leftist rebels and the AUC \5\ rightwing paramilitary--
has intensified its attacks in recent years. The FARC and AUC, and the 
Colombian police and military have grown significantly larger and 
stronger. The drug trade has also expanded, with coca cultivation more 
than doubling since 1996.
---------------------------------------------------------------------------
    \3\ The acronym for the Spanish abbreviation of Revolutionary Armed 
Forces of Colombia.
    \4\ The acronym for the Spanish abbreviation of National Liberation 
Army.
    \5\ The acronym for the Spanish abbreviation of United Self 
Defenses of Colombia.
---------------------------------------------------------------------------
    The nature of the conflict itself has changed. It is no longer a 
classic Latin American ideological guerrilla war, but a foul mixing 
bowl for drugs, weapons, money-laundering, criminals and terrorists. 
The character of the guerrilla groups also has shifted dramatically 
with the end of the Cold War and with their entry into Colombia's 
rising drug trade. Their rhetoric remains ideological, but they offer 
little in the way of a substantive agenda for change. They have lost 
virtually all of the popular sympathy they once had.
    The guerrillas now benefit by several hundred million dollars a 
year from protecting, processing, transporting and supporting coca and 
heroin cultivation. But so too do their paramilitary enemies. They 
claim and, U.S. officials have repeated the estimate, that 70 percent 
of the AUC income comes from drugs.
    Equally worrying, the conflict no longer resides within Colombia 
alone. Its consequences have already spilled over the borders of 
Brazil, Ecuador, Panama, Peru and Venezuela. As the conflict grows 
hotter, regional relations have come under strain, and tensions are 
rising across the entire Andean region. Ecuador, Venezuela and Peru 
have demonstrated their own internal fragility, and the influence of a 
spreading conflict on their stability should not be underestimated.
    The humanitarian costs of the conflict within Colombia cannot be 
ignored as guerrillas and paramilitary alike terrorize civilians in 
deliberate efforts to control territory, to deny safe harbors to their 
enemies and to expand their power:

  <bullet> 1.5 to 2 million citizens have been displaced from their 
        homes by the armed groups;
  <bullet> 3000 people have been kidnapped each year, most at the hands 
        of the insurgents, including now, in addition to the six 
        members of Congress, a dozen state legislators and presidential 
        candidate Ingrid Betancourt;
  <bullet> between 1000 and 2500 men, women and children were killed in 
        massacres last year, the vast majority the work of the 
        paramilitary;
  <bullet> perhaps an equal number were assassinated, with labor union 
        organizers, journalists, local and indigenous leaders and human 
        rights advocates among those targeted;
  <bullet> 400 credible reports of torture were registered; and
  <bullet> 6000 children have been forced into the armies of either 
        side.

    These abuses are a tragedy which must end--and a significant bar to 
progress toward peace.
    ICG also found that the government is unable to exercise permanent 
authority, extend basic social services or guarantee the rule of law in 
much of rural Colombia.
    Colombia is a democracy under attack. The government deserves 
international support for its efforts to defend its institutions and 
its citizens. However, Colombia also must make progress on internal 
reforms to strengthen the state, mend shortcomings in its judicial 
system, close gaps in addressing social and economic inequities, 
reemphasize respect for human rights and openly and clearly reject 
collusion and all links with the paramilitary. While the government has 
cited several hundred arrests of military personnel for paramilitary 
involvement, it is evident, as Administration witnesses have stated in 
the last few days and UN and NGO human rights reporting also have 
argued, that much more needs to be done. That presumably is why the 
Administration has not yet certified compliance with the human rights 
conditionality of last year's appropriations law.
    Given these concerns, Mr. Chairman, ICG has focussed its 
recommendations on four specific areas: protecting Colombian citizens 
against the insurgents and the paramilitary; re-energizing the peace 
process; combating the drug trade; and extending police and judicial 
institutions as well as basic social services to the rural areas.
    Protecting Colombian civilians from insurgents and paramilitaries 
requires a better and stronger military and police. Against 17,000 FARC 
soldiers and militia, 3,500 ELN, and some 8-10,000 AUC, a Colombian 
military force that can mount only 55,000 combat troops out of 154,000 
total forces is unlikely to be sufficient. Colombia must do more to 
finance its own defense; end draft evasion that appears to benefit the 
wealthy; and replicate its massive protective effort during the 
congressional elections to assure the safety and security of candidates 
and voters in the upcoming presidential polling.
    ICG also recommends specific actions to address the rising power of 
the paramilitary. Colombia, we suggest, should establish public 
benchmarks for the arrest and prosecution of AUC leaders, creating 
special police and prosecutorial units aimed at prosecuting AUC leader 
Carlos Castano and his cohorts, like the successful strike forces that 
ultimately dismantled the Cali and Medellin cartels in the early 1990s. 
Colombia should do more to prosecute military officers who assist the 
paramilitary, and to prosecute those who finance them.
    The United States has a special role in this area. We believe that 
there is justification to extend additional military aid and approve 
dual use of U.S.-trained forces currently permitted only to fight drug 
trafficking as the Bush Administration has requested; but only after 
the Colombian military makes significant further progress in ensuring 
accountability for human rights violations and severing all links with 
paramilitaries. The existing conditionality to those ends should apply 
to the new funds and the new authority. It will help Colombia in 
further professionalizing its military and police; it will strengthen 
those who are seeking to build internal safeguards against human rights 
abuses and break the links to the paramilitary; and it will increase 
the U.S. government's leverage for those same objectives.
    ICG also recommends ways to re-energize the peace process in the 
future. First, ICG recommends that President Pastrana pursue the talks 
in Cuba aimed at a verifiable ceasefire with the ELN, if at all 
possible before a new President takes office. At the very least, the 
process should be pressed to as close to a resolution as possible. In 
the meantime, President Pastrana should maintain the current group of 
international facilitators, engage the UN--and be sure to keep 
Presidential candidates informed.
    As for negotiations with the FARC, it must recognize that it can 
neither win a military victory nor continue forever to strike fear 
throughout Colombia. As its military capacity diminishes, the FARC must 
then be encouraged to engage in substantive negotiations. In the 
absence of a fully verifiable ceasefire, negotiations, as with the ELN, 
would have to take place outside the country. ICG recommends that 
Colombia's next President remedy one of the flaws of the past 
negotiations with the FARC--the absence of third party mediation. The 
next Administration should invite the UN Secretary General to play a 
much larger role, appointing a Special Representative and establishing 
a good offices mission in Colombia at the earliest useful moment. At 
some point, international monitors will likely be required to verify a 
ceasefire.
    UN help should be sought in developing a coherent negotiating 
strategy, providing extensive mediation assistance to the peace 
processes, including advice on ceasefire strategies, verification 
mechanisms and protection of insurgents during ceasefires. The latter 
is a fundamental concern given past experience in Colombia and another 
reason why controlling the paramilitary is vital.
    The U.S. should reconsider its own role and examine mechanisms by 
which it could respond favorably if the parties in the ELN negotiations 
continue to seek more active U.S. engagement. The same would apply in 
any future negotiations with the FARC. Clearly at some point, U.S. 
engagement would be viewed by the parties as a greater guarantee of the 
process itself.
    Mr. Chairman, our report also recognizes the importance of the drug 
issue. Our recommendations essentially mirror the concern expressed by 
Colombia's President and by other international leaders that there is a 
need for the U.S. to review and rethink the elements of its current 
strategy, as I know it is doing, and to engage the hemispheric 
community, perhaps through the OAS, in that process. We endorsed 
President Pastrana's call for a hemispheric summit on that subject, 
like the one that took place in Cartagena in 1990. A common strategy 
would have to recognize the shared responsibility for the drug trade 
between producer and consumer nations, bolster demand reduction and 
harm reduction efforts, and produce increased efforts to prosecute 
money laundering and restrict the flow of chemical precursors and 
weapons. That forum could also address doubts about spraying, the 
timing and nature of alternative economic approaches, and the linkage 
to rural land issues.
    We raise a fourth issue that should have equal time in discussion 
of the Colombian conflict--how to strengthen Colombia's democratic 
institutions and their ability to deliver services in partnership with 
civil society. Communities need to be assured that their property, 
homes and families will be protected by the law and its defenders--
after the area has been cleared of military combatants. The government 
needs to focus more fully on the problems of the 80 percent of the 
rural population estimated by the World Bank to be living in poverty. 
To this end, Colombia, with international help, needs to introduce 
legitimate police and justice sector forces into rural areas, pursue 
economic and social reform, and consolidate support for democratic 
procedures and institutions. Colombia, the U.S. and other partners 
should be ready to reach out to former combat areas, starting with the 
former demilitarized zone, with an emergency economic, political and 
social recovery program. More also needs to be done, building on EU, 
UNHCR, ICRC and USAID programs, to help displaced persons. For all of 
these efforts, along with the military, Colombia has to bring new 
resources to the table.
    Colombia's government and its new President face a significant 
military challenge in containing the FARC. They face an equal law 
enforcement challenge in confronting the paramilitary. And they face 
the political challenge of leading a nation to address both of these 
threats while initiating the democratic reforms that Colombia requires, 
extending legitimate state authority and services to rural Colombia, 
and bringing Colombia the peace its people so deeply desire. The United 
States and the international community should help Colombia achieve 
that peace.

    Senator Dodd. Thank you very much, Mark, very fine 
testimony.
    Jose, thank you for being here.

STATEMENT OF JOSE MIGUEL VIVANCO, EXECUTIVE DIRECTOR, AMERICAS 
          DIVISION, HUMAN RIGHTS WATCH, WASHINGTON, DC

    Mr. Vivanco. Mr. Chairman, Senator Chafee, I am honored to 
appear before you today. Thank you for your invitation to 
address the subcommittee. I am submitting written testimony for 
the record.
    Senator Dodd. You will have to pull that microphone very 
close to you, Jose.
    Mr. Vivanco. Mr. Chairman, the United States plays an 
important role in Colombia and can contribute to the defense of 
human rights. Human Rights Watch has no fundamental problem 
with the United States providing Colombia with the help it 
needs, including military aid. As I will stress today, human 
rights conditions on aid should be maintained, but limiting aid 
to counternarcotics purposes makes no sense in a society facing 
the onslaught of groups who violate human rights with such a 
flagrant disregard for the law and world opinion.
    The critical thing, Mr. Chairman, is that the assistance 
should be used to combat all sources of terror in Colombia. 
Clearly, the FARC commits acts of terror. So do the illegal 
paramilitary groups allied as the AUC, and their patrons in the 
Colombian security forces.
    Colombia faces serious security threats. Its democracy is 
under attack. Over the weekend, the Governor of Andioquia, and 
a former Defense Minister who I have met with frequently over 
the years, were abducted as they took part in a peace march. It 
is impossible to go anywhere in Colombia, via road or even 
airplane, without fear of a roadblock by the paramilitaries or 
hijacking by guerrillas.
    Mr. Chairman, let me be quite clear about the position of 
Human Rights Watch on the FARC. We criticize the peace process 
that gave a group guilty of so many abuses control over 
territory and power over the lives of Colombian citizens. We 
have repeatedly condemned the way the FARC terrorizes 
civilians, kidnaps and murders political candidates and 
leaders. Most recently, on April 15, I wrote a letter, a public 
letter to FARC leader Manuel Marulanda calling on him to 
release all hostages, including political figures, and to stop 
all kidnapings in Colombia.
    But the paramilitaries pose just as great a threat to human 
rights and to the lives of citizens as the FARC. Paramilitaries 
associated with the AUC commit most of the worst human rights 
violations in Colombia today. These acts of terror include 
massacres, targeted killings, and forced displacement. Like the 
FARC, the AUC kidnaps, threatens and kills political leaders. 
Like the FARC, paramilitaries fund acts of terror by 
trafficking in drugs. There is a direct connection, therefore, 
between the profits from trafficking and human rights abuses.
    By their own admission, paramilitaries collect 70 percent 
of their funding from the drug trade. The current leader of the 
AUC, Carlos Castano, helped form paramilitary groups in the 
1980s in coordination with Pablo Escobar. Mr. Chairman, you 
mentioned in your remarks the attack on the Colombian Supreme 
Court. Castano has admitted providing guerrillas the weapons 
they used in 1985 to seize the building of the Supreme Court. 
In the aftermath, 11 justices who were considering the 
extradition of known traffickers died, along with almost 100 
judicial employees, and yet despite these paramilitary abuses, 
the units of Colombia's military still maintain a close 
relationship with the AUC.
    These are not isolated incidents, but rather widespread 
patterns of behavior and collusion. At their most brazen, they 
involve active coordination during military operations, 
communications via radios, cellular telephones, and beepers, 
the sharing of intelligence, including the names of suspected 
guerrilla collaborators, the sharing of fighters, including 
active duty soldiers serving in paramilitary units and 
paramilitary commanders lodging on military bases, the sharing 
of vehicles, including army trucks used to transport 
paramilitary fighters, coordination of army roadblocks, which 
routinely let heavily armed paramilitary fighters pass 
unchallenged, and payment made from paramilitaries to military 
officers for their support.
    Mr. Chairman, I am quite concerned about the remarks of 
General Gary Speer here this morning, when he says that the 
plan, the U.S. plan is to set up forces to protect the pipeline 
in Arauca with a mixture of units coming from the 18th Brigade 
and the 5th Brigade. We have no information, credible 
information of human rights abuses committed by the 18th 
Brigade, but we do have information about serious human rights 
abuses committed by units working under the control of the 5th 
Brigade. This is one of our latest reports on Colombia that 
includes compelling, strong, and credible evidence of links 
between that unit and paramilitary organizations in that part 
of the country.
    Overall, President Andres Pastrana and his Defense Minister 
have failed to establish control over the security forces and 
break the persistent ties with paramilitary groups. Indeed, 
there have been serious setbacks, among them the release late 
last year of the only top paramilitary leader in custody in 
Colombia, Mr. Carranza.
    Again, let me stress, Mr. Chairman, none of this 
constitutes an argument for abandoning Colombia. Colombia needs 
help. The question is not whether to provide it, but how. A 
tempting answer for some might be to first help Colombia deal 
with the FARC and then, the thinking goes, the paramilitary 
threat will take care of itself. To me, that is about as naive 
as saying that the FARC is only interested in helping the poor. 
Both of those groups are mafias, Mr. Chairman. Both kill for 
money and for power. Neither is going to give up their guns 
just because their purported political goals are met.
    What will happen if Colombia delays confronting the 
paramilitaries as it fights the guerrillas? As the FARC 
weakens, the AUC will move in. It will become more powerful and 
more entrenched. The AUC will capture an even larger share of 
Colombian narcotics exports, giving it more money to pursue 
violence in Colombia. This is not just speculation, Mr. 
Chairman. It has already happened in Barranca, site of 
Colombia's largest oil refinery. There, the Colombian police 
report that the AUC now controls the criminal network that 
steals gasoline from pipelines to resell to cocaine 
laboratories.
    The AUC will try to seize greater political power in 
Colombia again. This is not just our speculation. They already 
have. Prior to March 2002, the congressional elections, the 
group claimed that it expected to have a hand in electing 35 
percent of the new legislature. Both Presidential candidates 
reported threats against their supporters throughout Colombia.
    Finally, as the AUC grows in power it will become even 
harder to convince FARC guerrillas to lay down their guns. 
Paramilitaries have a long history of murdering guerrilla 
leaders after they surrender.
    As you mentioned, Mr. Chairman, in 1984 paramilitaries have 
been linked to hundreds of killings of members of the Patriotic 
Union political party formed to create a way for guerrillas to 
lay down their weapons and participate peacefully in the 
political process. The longer Colombia waits to confront the 
paramilitaries, the harder they will be to beat. That is why 
Colombia needs to deal with both the FARC and the AUC at the 
same time.
    Secretary of State Powell recognized this when he placed 
the AUC on the list of foreign terrorist organizations on 
September 10, 2001. Subsequently, the United States suspended 
the visas of suspected AUC members and supporters and put 45 
names on a watch list in case those individuals applied for 
U.S. visas. These were positive steps, but more needs to be 
done.
    First, the United States should make it clear to Colombian 
officials that they expect military aid to be used equally 
against all designated terrorist groups in Colombia. With 
respect to the AUC, the goal should be to bring indicted 
leaders to justice and to reassert the full authority of the 
Colombian Government in those regions the paramilitaries 
currently control.
    Second, the Colombian Government must break persistent 
links between paramilitaries and its security forces, in 
particular the army and the navy. The United States must 
continue to condition all military aid on real and verifiable 
progress by the Colombian military in breaking these links to 
paramilitary groups and upholding human rights. Congress 
designed these conditions to encourage progress toward 
compliance with standards that Colombia's own elected leaders 
and military commanders say they support.
    As the State Department has acknowledged, these conditions 
have not yet been met. I was very pleased, Mr. Chairman, to 
hear Ambassador Grossman's commitment to human rights in 
Colombia. I would urge Ambassador Grossman to work with 
Congress to ensure that all conditionality remains in the law, 
including section 567, requiring progress on breaking these 
links and ensuring that the AUC and their patrons in the 
military are brought to justice.
    Finally, we also urge the U.S. Congress to ensure that 
there are funds allocated to support the critical institutions, 
the Office of the Attorney General, the Internal Affairs, and 
the Public Advocate, working at great odds to enforce the law 
in Colombia, to protect civilians and prosecute and punish 
those responsible for atrocities, guerrillas and 
paramilitaries.
    Finally, with the right kind of U.S. engagement, Colombia 
still has a chance to protect its people, to preserve its 
democracy, and to prevail against terrorism. The challenge is 
to help Colombia defeat one terrorism group without 
simultaneously empowering another. That can be done, but it is 
going to take affirmative leadership from Colombia as well as 
this committee and the administration.
    Thank you very much.
    [The prepared statement of Mr. Vivanco follows:]

Prepared Statement of Jose Miguel Vivanco, Executive Director, Americas 
                      Division, Human Rights Watch

    Mr. Chairman, Senator Chafee, members of the Subcommittee:
    I am honored to appear before you today. Thank you for your 
invitation to address the subcommittee.
    I am submitting written testimony for the record.
    The United States plays an important role in Colombia and can 
contribute to the defense of human rights and international 
humanitarian law. We support U.S. engagement when it furthers these 
goals. Colombia and the United States both benefit when human rights 
are fully respected. They are the foundation of the rule of law. They 
strengthen democracy against its foes, including those who use terror 
to achieve their goals.
    Colombia must combat terror regardless of its origin. It must do 
so, first and foremost, by applying and upholding the law. Otherwise, 
the logic of terror wins a place in Colombian society.
    Many brave Colombians have stood up to terror. Too many have lost 
their lives. Among them are human rights defenders, journalists, 
political and community leaders, trade unionists, and teachers. Some 
are prominent, among them the Archbishop of Cali, Isaias Duarte 
Cancino, cut down by assassins on March 16 of this year. Other victims 
are ordinary people--farmers, drivers, doctors, and store owners--
perceived as enemies by guerrillas or paramilitaries or just caught in 
the crossfire. According to the United Nations, Colombia now leads the 
world in forced displacement, as thousands of families are forced to 
abandon their homes and livelihoods to save the lives of their loved 
ones.
    Nevertheless, millions more Colombians remain committed to human 
rights and to democracy. They need help. Human Rights Watch has no 
fundamental problem with the United States providing that help. As I 
will stress today, human rights restrictions on aid should be 
maintained. But limiting aid to counter-narcotics purposes makes no 
sense in a society facing the onslaught of groups who violate human 
rights with such flagrant disregard for the law and world opinion.
    The question is not whether to help Colombia, but how.
    The critical thing, Mr. Chairman, is that the assistance under 
consideration today should be used to combat all sources of terror in 
Colombia. That includes the guerrillas known as the Revolutionary Armed 
Forces of Colombia (F.A.R.C.). It also means illegal paramilitary 
groups allied as the United Self-Defense Forces of Colombia (A.U.C.) as 
well as their patrons in the Colombian security forces.
    I don't need to tell this committee about the true nature of the 
F.A.R.C.--about the way it terrorizes civilians or about its 
kidnappings and murders of political candidates and leaders. Human 
Rights Watch has criticized the decision made by Colombia's leaders to 
cede to this group, with its devastating record on abuses, control over 
territory and power over the lives of Colombian citizens.
    We have repeatedly condemned F.A.R.C. abuses. On April 15, I wrote 
a letter to F.A.R.C. leader Manuel Marulanda, calling on him to release 
all hostages, including political figures, and to stop all kidnappings, 
a serious violation of international humanitarian law.
    The paramilitaries pose just as great a threat to Colombian 
democracy and to the lives of its citizens as the F.A.R.C.
    Paramilitaries associated with the A.U.C. commit most human rights 
violations in Colombia today. These acts of terror include massacres, 
targeted killings and forced displacement. Like the F.A.R.C., the 
A.U.C. kidnaps, threatens, and kills political leaders. It has also 
exercised exclusive control over vast areas of Colombia, particularly 
in the north, where it polices civilians and taxes economic activity. 
It has shown no interest in relaxing its control as guerrilla activity 
wanes.
    Also like the F.A.R.C., the A.U.C. traffics in drugs. With its 
profits, it funds acts of terror. There is a direct connection, 
therefore, between the profits from trafficking and human rights 
abuses.
    Indeed, paramilitaries have a long history of involvement in drugs. 
The current leader of the A.U.C., Carlos Castano, helped form 
paramilitary groups in the 1980s in coordination with Pablo Escobar and 
Gonzalo Rodriguez Gacha. He was trained by Israeli and British 
mercenaries to kill political figures, part of the traffickers' efforts 
to block Colombia's ability to extradite traffickers to the United 
States.
    In a recent memoir, Castano took responsibility for providing 
guerrillas with the weapons they used in 1985 to seize the building 
housing Colombia's Supreme Court. Castano claims that the purpose was 
to kill the justices considering extradition and burn the case files of 
known traffickers so that they would not face prosecution. In the 
aftermath, ten justices and the Chief Justice died along with almost 
one hundred judicial employees and visitors. To this day, families 
search for the bodies of some of those lost.
    Castano also admitted to planning and carrying out the 
assassination of a presidential candidate, Carlos Pizarro, in 1990. 
Traffickers are also believed responsible for the assassination of Luis 
Carlos Galan, the leading candidate, in 1989.
    Currently, Colombian government authorities say that paramilitaries 
have established ``an extremely close alliance'' with drug traffickers, 
including in areas once controlled by guerrillas. Colombian 
intelligence sources estimate that 40 percent of the country's total 
cocaine exports are controlled by paramilitaries and their allies in 
the narcotics underworld. Some paramilitaries are themselves wanted by 
Colombian authorities for trafficking, among them:

  <bullet> Diego Murillo Bejarano, ``Don Berna,'' a close adviser to 
        Castano and former security chief for the Galeano trafficking 
        family, part of the Medellin Cartel. Bejarano has also been 
        linked by the authorities to Medellin gangs, among them ``La 
        Terraza,'' used to carry out high profile assassinations, 
        including of human rights defenders;

  <bullet> Hernan Giraldo, an AUC associate, occupies the area around 
        Santa Marta on Colombia's Caribbean coast. His group is linked 
        to the murder in November 2001 of two Colombian police officers 
        working with the D.E.A. as well as dozens of political 
        killings. Along with murder, Giraldo is wanted for drug 
        trafficking and the formation of paramilitary groups. Newsweek 
        describes him as one of the top five traffickers in Colombia 
        (May 21, 2001) and says that Colombian police estimate that he 
        heads a burgeoning drug syndicate that accounts for $1.2 
        billion in annual shipments to the United States and Europe, 
        putting him among the country's top five cocaine traffickers;

  <bullet> Luis Eduardo Cifuentes, a former associate of Gonzalo 
        Rodriguez Gacha, Cifuentes is facing charges related to 
        trafficking and the torture and murders of Colombian police 
        officers Capt. William Javier Montilla and Ancizar Sanchez, 
        whose bodies were found on Oct. 25, 1998, near Puerto Salgar, 
        Cundinamarca.

    Mr. Chairman, it may be tempting to believe that if we help 
Colombia deal with the F.A.R.C, the paramilitary threat will take care 
of itself. The paramilitaries, it is said, are only interested in 
supporting the government against the F.A.R.C. Once the guerrillas go 
away, this line of thinking goes, the paramilitaries will lay down 
their arms.
    To me, that's about as naive as saying that the F.A.R.C. is only 
interested in social justice for the poor. Both these groups are 
mafias, Mr. Chairman. Both kill for money and for power. Neither is 
going to go back to farming just because its purported political goals 
are met.
    As a practical matter, let's consider what will happen if Colombia 
delays confronting the paramilitaries as it fights the guerrillas. As 
the F.A.R.C. cedes control over territory, the A.U.C. will move in. It 
will become more powerful and able to commit violations with impunity. 
The A.U.C. will capture an even larger share of Colombia's narcotics 
exports, giving it more money to purchase more powerful weapons and 
continue to terrorize Colombia.
    This is not just speculation. It has already happened in 
Barrancabermeja, site of Colombia's largest oil refinery. There, the 
Colombian police report that the A.U.C. now controls the city as well 
as the criminal syndicate that steals gasoline from pipelines to resell 
to cocaine laboratories, among others. Earlier this month, 
paramilitaries abducted a human rights worker, Diofanol Sierra Vargas, 
from his home in Barrancabermeja. They executed him on the spot.
    The A.U.C. will also try to seize greater political power in 
Colombia. Again, this is not just a ``what if'' question. Prior to 
March 2002 congressional elections, A.U.C. leader Salvatore Mancuso 
claimed that paramilitaries expected to have a hand in electing 35 
percent of the new legislature. Both presidential candidates Horacio 
Serpa and Juan Camilo Restrepo reported threats against their 
supporters throughout Colombia. Paramilitaries destroyed campaign 
posters for candidates they opposed and told voters to cast ballots for 
their slate or risk attack. Like the F.A.R.C., the A.U.C. kidnaps, 
threatens and kills political leaders.
    Finally, as the A.U.C. grows in power, it will become even harder 
to convince guerrillas to lay down their weapons. Paramilitaries have a 
long history of murdering guerrillas after they surrender. Since 1984, 
paramilitaries have been linked to hundreds of killings of members of 
the Patriotic Union political party, formed to create a way for 
guerrillas to give up violence and participate peacefully in the 
political process.
    Among those killed by paramilitaries was Patriotic Union Senator 
Manuel Cepeda, shot in Bogota in 1994. His assassins were 
paramilitaries working with active-duty army soldiers. Currently, a 
case involving 1,554 slain members of the Patriotic Union party is 
being negotiated between families of the victims and the Colombian 
government under the auspices of the Interamerican Commission on Human 
Rights.
    The longer Colombia waits to confront the paramilitaries, the 
harder they will be to beat. That's why Colombia needs to deal with 
both the F.A.R.C. and the A.U.C. at the same time rather than fighting 
one in a way that empowers the other.
    Secretary of State Colin Powell recognized this when he placed the 
A.U.C. on the list of Foreign Terrorist Organizations on September 10, 
2001. Subsequently, the United States suspended the visas of suspected 
A.U.C. members and supporters and put dozens of names on a watch list 
in case those individuals applied for U.S. visas.
    These were positive steps. More is needed.
    First, if the United States provides aid to Colombia for counter-
terrorism, the Administration must make clear to Colombian officials 
that it expects assistance to be used equally against all designated 
terrorist groups in Colombia. With respect to the A.U.C., the goal 
should be to bring indicted leaders to justice and to reassert the full 
authority of the Colombian government in those regions the 
paramilitaries currently control.
    Second, the Colombian government must break persistent links 
between paramilitaries and its security forces, in particular the army 
and the navy. At their most brazen, these relationships involve active 
coordination during military operations between government and 
paramilitary units; communication via radios, cellular telephones, and 
beepers; the sharing of intelligence, including the names of suspected 
guerrilla collaborators; the sharing of fighters, including active-duty 
soldiers serving in paramilitary units and paramilitary commanders 
lodging on military bases; the sharing of vehicles, including army 
trucks used to transport paramilitary fighters; coordination of army 
roadblocks, which routinely let heavily-armed paramilitary fighters 
pass unchallenged; and payments made from paramilitaries to military 
officers for their support. Human Rights Watch has found credible 
evidence showing that the source of these funds was taxes levied on 
traffickers, cocaine laboratories and farmers who grow coca leaf.
    One of the most disturbing forms of collaboration involves 
paramilitaries delivering corpses to military units that are supposed 
to be fighting the F.A.R.C. This allows those units to inflate their 
body counts, while ``legalizing'' killings by the paramilitaries. Some 
of the bodies may well be guerrillas the A.U.C. has killed in action; 
others are likely innocent victims. In both case, this practice 
encourages human rights violations while creating a distorted measure 
of military success against the F.A.R.C.
    These are not isolated incidents, but rather widespread patterns of 
behavior and collusion. These links paired with the A.U.C.'s 
involvement in trafficking make it, in the words of General Gary Speer, 
acting head of U.S. Southern Command, ``the most critical long-term 
threat'' to Colombian democracy.
    Overall, President Andres Pastrana and his defense ministers have 
failed to establish control over the security forces and break these 
criminal ties. Even as President Pastrana publicly deplores atrocities, 
the high-ranking officers he commands fail to take steps necessary to 
prevent killings by suspending security force members suspected of 
abuses, ensure that their cases are handed over to civilian judicial 
authorities for investigation and prosecution, and pursue and arrest 
paramilitary leaders.
    Indeed, we have seen serious setbacks, among them the release late 
last year of the only top paramilitary leader in custody in Colombia. A 
corrupt judge, now deceased, used a bogus legal technicality 
(vencimiento de terminos) to free Victor Carranza, who government 
investigators say maintains an alliance with Castano and the A.U.C. 
Carranza remains at large despite the fact that a new arrest warrant 
has been issued for him.
    In order to protect democracy and ensure the rule of law, the 
United States must continue to condition military aid on real and 
verifiable progress by the Colombian military in breaking these links 
to paramilitary groups and upholding human rights. The U.S. Congress 
designed these conditions to encourage progress towards compliance with 
standards that Colombia's own elected leaders and military commanders 
say they support.
    As the State Department has acknowledged, these conditions have not 
yet been met.
    The U.S. Congress also removed the presidential waiver option that 
was included in previous legislation, recognizing that this waiver sent 
a contradictory and damaging message that human rights is not really a 
priority in the U.S. relationship with Colombia. Those who continue to 
abuse human rights to achieve their goals understand this message very 
well.
    Finally, we also urge the U.S. Congress to ensure that there are 
also funds allocated to support the critical institutions--the office 
of the Attorney General (Fiscalia), Internal Affairs (Procuraduria) and 
the Public Advocate (Defensoria)--striving against great odds to 
enforce the law in Colombia, protect civilians, and prosecute and 
punish those responsible for crimes.

                                 ______
                                 

                    Colombia: Terror From All Sides

    Although their motives and goals are different, both the 
Revolutionary Armed Forces of Colombia (FARC) and the paramilitaries 
allied under the umbrella group the United Self-Defense Groups of 
Colombia (AUC) commit similar abuses and crimes.

 
----------------------------------------------------------------------------------------------------------------
                                                      FARC                                   AUC
----------------------------------------------------------------------------------------------------------------
Terrorism                             The FARC was designated a Foreign     The AUC was designated a Foreign
                                       Terrorist Organization on October     Terrorist Organization on September
                                       1, 1997. According to the State       10, 2001. The State Department
                                       Department, the FARC commits          noted that, ``The AUC has carried
                                       ``bombings, murder, kidnapping,       out numerous acts of terrorism,
                                       extortion, hijacking, as well as      including the massacre of hundreds
                                       guerrilla and conventional military   of civilians, the forced
                                       action against Colombian political,   displacement of entire villages and
                                       military and economic targets''.      the kidnapping of political figures
                                                                             to force recognition of AUC
                                                                             demands.''
----------------------------------------------------------------------------------------------------------------
Size                                  17,000--the largest guerrilla         11,000, according to AUC leader
                                       organization in Colombia.             Carlos Castano. This constitutes a
                                                                             560% increase since 1996.
----------------------------------------------------------------------------------------------------------------
Kidnappings                           The FARC committed over 1,000         The AUC was responsible for 296
                                       kidnappings of civilians in 2001.     kidnappings between June 2000 and
                                                                             June 2001.
----------------------------------------------------------------------------------------------------------------
Killings of Civilians or Political    The FARC was responsible for the      The AUC committed at least 1,015
 Killings                              killings of at least 197 civilians    killings and over 100 massacres in
                                       in 2001, and for 8% of all            2001--at least 50% of all political
                                       political killings.                   killings.
----------------------------------------------------------------------------------------------------------------
Targets                               Perceived supporters of the military  Perceived supporters of the FARC and
                                       and the AUC, including politicians    other guerrillas, as well as
                                       and political candidates, as well     judicial officials, police
                                       as civilians.                         officers, national and local
                                                                             politicians and activists.
----------------------------------------------------------------------------------------------------------------
Drug Trafficking                      At least two-thirds of the FARC's     Carlos Castano admitted in 2000 that
                                       units are believed to be involved     nearly 70% of the AUC's funding
                                       in the drug trade.                    derives from the drug trade.
----------------------------------------------------------------------------------------------------------------


                           in their own words
    ``We have to grab people from the Senate, from Congress, judges and 
ministers, from all the three powers (of the Colombian state), and 
we'll see how they''ll squeal.''--Jorge Briceno, a.k.a. ``Mono Jonoy,'' 
a top FARC Commander, in 2002.

    ``The methods the `self-defense' forces used to recover Uraba were 
no less violent and disgusting than those used by (guerrillas) . . . 
This should be absolutely clear! We copied the guerrillas' methods and 
confronted them with the same tactics.''--Carlos Castano in his 2001 
autobiography, Mi Confesion.

    Senator Chafee. Thank you very much. There is a vote on 
once again. The chairman has gone to do his constitutional 
duty, and I will pinch-hit, and certainly that is chilling 
testimony from both of you about the circumstances in Colombia, 
and it seems as though the prospects for progress seem so bleak 
from listening to your testimony, the alleged integration of 
the military with the AUC and where we go from there. But as we 
look ahead once again to the elections, I might ask, have 
either of you or both of you studied the position of the 
candidates, and will the political influence of the 
paramilitaries be altered in any way by the outcome of these 
elections on May 26?
    Mr. Schneider. We put out a report \3\ just about a week or 
so ago that looked at the March 10 parliamentary elections, and 
we noted the comment made by the paramilitary leader, but it 
should be understood that it is in no way substantiated.
---------------------------------------------------------------------------
    \3\ The report can be accessed at http://www.crisisweb.org
---------------------------------------------------------------------------
    What we found was that in general there was not a focus on 
human rights or paramilitary issues in the elections. It was 
much more related to local politics. The voting, however, 
clearly went in the direction of--those candidates who were 
supported by the more conservative candidate for the President. 
Then several independent candidates did well, who you would 
describe as on the left, including the former head of the M-19, 
who was one of the highest vote-getters for the Senate. So it 
is hard to make a clear judgment that there was a massive shift 
to the right in the polling for President.
    There is no question with respect to the Presidential 
campaign; the more conservative candidate has been consistently 
higher in the polls than the other three major candidates. The 
last poll was around 51 percent, and Uribe had gone as high as 
58 or 59 percent. In general, all the candidates have taken a 
position clearly emphasizing the need to confront the FARC 
militarily. And at the same time in terms of their public 
statements, I think that most of them have said when asked 
specifically that they clearly recognize the threat from the 
paramilitary.
    Senator Chafee. Have the paramilitaries, Castano in 
particular, given any indication of being involved in the 
election process as the Presidential election comes forward?
    Mr. Schneider. The paramilitary indicates they are clearly 
pressing for candidates who they will then have influence over. 
There is also evidence of the influence from drug money that we 
expressed concern about in our report.
    I think it is also accurate to say that the Presidential 
candidates, while they have been very strong in terms of the 
terrorism issue, there has probably been a greater degree of 
focus by some of them on the paramilitary issue than by others. 
No one that I have heard has in any way attempted to downplay 
the threat posed by the paramilitary.
    Senator Chafee. Before we go, Mr. Vivanco, in your 
testimony earlier, Mr. Schneider, you suggested that the U.N. 
Secretary General should be involved and appoint a Special 
Representative and establish offices in Colombia. Is there an 
entity to deal with if the United Nations were to get involved, 
or are these organizations so elusive that that would not be 
productive? An organized entity.
    Mr. Schneider. Clearly, in terms of the ELN process, if it 
moves further toward a cease-fire, the U.N. involvement would 
be very helpful to help define how you would manage a cease-
fire, verify it, and monitor it. At some point we would hope 
that the same situation--after there has been clear evidence 
that the FARC has, I think, been confronted militarily, at some 
point we would hope there would be an opportunity to restart 
negotiations with them, and, at that point, the U.N.'s presence 
would be quite helpful.
    Also, it should be noted that any kind of future 
negotiations would take place outside the country. No one is 
talking about reestablishing a demilitarized zone inside 
Colombia, so in that context the U.N. again could play a 
significant role.
    Senator Chafee. Very good.
    Mr. Vivanco, also going back to the elections, maybe you 
could comment on those and what you see coming forward, 
particularly the paramilitaries. The AUC, are they going to be 
influencing these elections? Is there any indication they want 
to be involved in the democratic process?
    Mr. Vivanco. Senator Chafee, the political environment in 
Colombia today, given the failure of the peace process and the 
recalcitrant attitude of the leftist guerrillas, the FARC in 
particular, and the record of kidnapings and killings, it is 
very much, the environment is kind of in favor of a military 
solution to this problem.
    There is a serious security concern in Colombia in every 
region, and some fear from paramilitary groups, from the FARC, 
but that means that the leading Presidential candidates, their 
discourse is quite similar in terms of, they are very, very 
tough in criticizing the peace efforts in which President 
Pastrana engaged, and they announced that they are committed to 
some sort of military solution for Colombia.
    But to try to address your question more directly, I have 
heard that one of the leading Presidential candidates, Oratio 
Serpa, the leader of the Liberal Party in Colombia, has alleged 
that Mr. Uribe, who is at the top of the poll, has been 
receiving active support from paramilitary organizations in 
Colombia, so that is at least the perception of Mr. Oratio 
Serpa and his supporters.
    In addition, as I said during my testimony, Carlos Castano 
himself and some other leaders of paramilitary organizations 
have publicly acknowledged that they have been involved in the 
process of congressional election, and they claim that they 
have the sympathy and the support of local representatives, 
deputies, Members of Congress today in Colombia by around 30 
percent, or 35 percent of them.
    Senator Chafee. So to point that out, if the leader in the 
poll, Uribe, is elected, and just for the sake of argument 
there are connections to the AUC, not that we take that as 
fact, it is an allegation from the other candidate; but just 
for the sake of argument, how does that play off for the future 
of Colombia? What happens if Uribe wins and is inaugurated?
    Mr. Schneider. That makes it even more important that the 
kind of conditioning we have been discussing is established, in 
order to ensure that the United States is clearly going to be 
focused on this issue in its dialog with the new President and 
with the new administration, in order to ensure that we do not 
become complicit in either the continuation or the extension of 
the relationship between the military and the paramilitary.
    Senator Chafee. Mr. Vivanco, you allege these groups are 
similar to a mafia, just criminal enterprises. Yet there seems 
to be some indication that Carlos Castano does want to get 
involved in the democratic process. Am I accurate in that he 
has written some kind of biography, or an autobiography? He 
makes TV appearances?
    Mr. Vivanco. Senator Chafee, I think Carlos Castano and his 
group has a better sense of PR. In other words, they try to 
project the image of, quote, ``a reasonable group,'' unlike the 
guerrillas. The guerrillas, the FARC in particular, they do not 
pay any attention to what the public in Colombia and the 
international community might think about their record or their 
actions. These are Marxist guerrillas that are still in the 
1960s, and the logic that they apply is extremely ideological, 
so they know better what is in the best interests of the 
peasants and the population of Colombia.
    On the other hand, the leaders of the paramilitary groups, 
and particularly Castano, is--how do we say it?--is very savvy 
in the way that he sends messages using the media to 
Colombians; but still, I do believe that the methodology of 
repression of both groups are quite similar.
    Senator Chafee. In your testimony, you said that he takes 
credit for the attack on the Supreme Court. How does that play 
into positive public relations? How did he defend that, if he 
is taking credit for it?
    Mr. Vivanco. He acknowledged direct participation in the 
killings of Presidential candidates in the past. He already 
indicated his actions, but he gives you an explanation. He 
tried to justify his atrocities as a reaction to the atrocities 
committed by the other side, and that is his logic.
    He is still a criminal, but his technique has been to tell 
the Colombian public that the only way to effectively deal with 
leftist guerrillas is by his way, and he has showed some 
concrete results like the vast areas of Colombia under his 
control. But I would argue that those who live under the 
control of paramilitary organizations live under the control of 
a mafia that you have to pay for security. They live under 
systematic extortion and fear.
    Senator Chafee. Also in your testimony you say that the AUC 
is responsible for killings in the Patriotic Union Movement, a 
political party. What does Carlos Castano say about being 
involved in a democratic effort if even that party which they 
are trying to be involved in, they are assassinating members of 
it? How do those two reconcile themselves?
    Mr. Vivanco. I am not sure whether they want to eventually 
become--I mean, the AUC wants to become a formal political 
party in Colombia to engage in politics as the other parties in 
Colombia, but my point is that the AUC leadership, and 
particularly Castano, is quite open with the media, and he has 
no remorse, no problem to recognize responsibility for past 
killings and assassinations. He believes that helps him with 
the Colombian people in terms of raising more sympathy and 
support for his actions. But I do not know whether his 
intention is to become himself fully involved in the political 
process and to participate in the elections and those sorts of 
things.
    Senator Chafee. And that is true of the ELN, they are 
making more positive steps toward moving in that direction, is 
that accurate?
    Mr. Schneider. They have been engaged in negotiations most 
recently, and indicated at least some willingness to move 
toward a cease-fire with the assumption that that would then 
lead to a negotiation over substantive issues that would 
include their demobilization and political involvement. But it 
is not by any means something that is going to happen tomorrow, 
and they raised some additional demands, apparently, recently 
that make it appear that they may be attempting to stretch the 
process out until the new President takes office.
    Senator Chafee. And of these three groups we most recently 
talked about, all of whom are on the terrorist list, am I 
correct, the AUC on the right, and the two, the ELN and the 
FARC on the left, are they equally dependent on the 
narcotrafficking revenues?
    Mr. Schneider. Well, you heard the statistics that we have 
received, because the AUC asserts it themselves, and the U.S. 
Government has repeated it, so presumably the administration 
believes it is accurate that 70 percent of the income of the 
AUC comes from drugs.
    In the case of the FARC, it is probably the second most 
dependent on drug money--in addition to the money that they 
receive from drugs, which is significant, several hundred 
million dollars, they obviously also receive significant 
amounts of money from kidnapings and from other extortion. The 
ELN apparently receives less from drugs and more from 
kidnapings and more from extortion of the oil companies.
    Senator Chafee. So the ELN less so?
    Mr. Schneider. Less so in terms of the drug activity.
    Senator Chafee. Well, that is all the questions I have. I 
see the clock has run out on my vote. I will call a recess, and 
if I can implore on you to have some patience, the, chairman 
will return, and I am sure he will have some good questions and 
engage in some dialog.
    Thank you, gentlemen, very much.
    [A brief recess was taken.]
    Senator Dodd. Thank you very much. Well, thank you both 
again, and if I ask any questions my colleague from Rhode 
Island has already asked, either you can tell me, or I presume 
my good staff here will say that question has already been 
addressed.
    Let me, if I can--you have said you have answered a couple 
of questions that I had, and was going to raise with you, the 
question of whether or not, in your view, there can be a 
military victory here. Now, you have both indicated that is not 
likely to be the case. I do not presume either one of you would 
say it is impossible, because I do not believe that to be the 
case, either, if you end up with a million displaced people, 
and hundreds of thousands of civilians are leaving Colombia 
every year.
    I am told it is hard to get a seat on a flight out of 
Bogota, that there are literally hundreds of Colombian children 
now attending schools in the United States rather than living 
in their own communities. You heard Senator Chafee talk about 
his family and how they have literally locked themselves, 80-
year-old people, in their home, fearful to go out because of 
the potential consequences to them.
    You have got at least, if the numbers are accurate--Human 
Rights Watch says almost 4,000 kidnapings a year. That is at 
least 10, 15 a day occurring. I am told it is just a regular 
basis, that you have people even of modest means now. We are 
not just talking about--when you talk about 4,000 a year, you 
have obviously gone far beyond that small percentage of 
affluent, and you have reached down into the middle classes and 
below, so that this has now created a reign of terror in the 
country.
    If you combine the forces of ELN, the FARC, the AUC, you 
are talking now in the neighborhood of 30,000 people who are 
engaged in this business of kidnaping, assassinations, 
narcotrafficking and the like. It seems we are looking at the 
complete shredding of civil society here, in this oldest 
continuing democracy in the hemisphere--in Latin America, 
excuse me.
    I hear what--Marc and I have talked about this already. We 
have been very impressed with the report that has been prepared 
by the ICG, but you heard Marc Grossman say earlier that to 
prioritize the issues, for them it would be security first. You 
cannot talk about--while they are not totally unrelated, the 
idea that you are going to be able to restore democratic 
institutions and democratic processes, economic vitality, and 
all of the other related issues in the absence of people 
feeling secure. There is nothing more fundamental.
    That is why in this country, I suppose, that if we had to 
allocate resources to just one area of the budget alone, the 
one that would probably trump all others would be defense, if 
it came down to that, in terms of where people would place 
their priorities.
    How do you address the issue, then, and first of all, do 
you agree with that assessment? I will ask you the same 
question in that litany of priorities, that our policy ought to 
be directed to human rights, democracy, and economic vitality, 
security, and the like. Do you agree with his prioritization of 
those issues?
    Second, how do you address the underlying question that if 
we condition entirely the support for the military on an 
improved human rights record here, which I do not disagree 
with, but if you do that, do you not then give, it seems to me, 
the AUC and the FARC sort of veto power over the aid in a 
sense?
    I mean, you now have turned, to the extent that they can 
just perpetuate human rights violations here, and even though 
they mount--if you subscribe to the notion that the AUC 
basically does not operate effectively without the imprimatur, 
implicit or explicit, of the military, and if they continue to 
watch human rights violations, and you condition the aid to 
them on that particular question, then does it not give, in 
fact, the AUC and the FARC indirectly the ability to sort of 
determine whether or not U.S. support is going to be 
forthcoming? And to the extent we are going to be able to deal 
with the security issue, and if you complete the syllogism 
here, the logic of it, that then the ranks of the AUC expand, 
because people look to somebody, anybody that will protect me 
and my family against these things, and I am willing to hire 
the vigilantes, in effect, to do it if my government cannot do 
it for me?
    How do you address that? And maybe I am not articulating 
that as well as others might, but that is sort of the quandary 
that I think a lot of people are asking who do not disagree 
with your conclusions about what is going on, on the ground. 
But in terms of your formulation of how we ought to provide 
assistance to this government, which no one else is going to 
provide--is there a European government that is going to help 
an Asian government? Is someone in a Latin American government 
going to step up to the plate and provide assistance and 
helicopters?
    And so if we do not, and if we condition it on this, are we 
not abandoning a country that is under siege? And I see here on 
the opposition side, whether it is the ELN or FARC or the AUC, 
that seems to be much more interested in the narco business, 
and sustaining themselves as a sort of mafia, to use the words 
that you have here, you call them mafia. I subscribe to that. 
So no one is going to step in and help this poor country from 
the mafia unless we do it. How do you get around that question?
    Mr. Schneider. Let me start by taking that term. If you 
have a town where you have got two mafia gangs operating, you 
go after them both. You strengthen security. You go after them 
both. You do not ally yourself with one of the mafias to deal 
with the other, or else you undermine the whole legitimacy of 
your own capacity to operate as an institution, as a democratic 
institution.
    I think what we are saying is that security and response to 
security threats in the case of Colombia requires that you 
also, at the same time, go after the AUC, maintain the human 
rights conditionality, and I think the answer historically is 
that it has been done. And the classic example was El Salvador, 
when the Vice President then went down, supported with 
congressional legislation that was going to cutoff aid, which 
did not happen, with the message: ``You are going to have to 
disband the death squads, period.'' Only after that happened 
did you begin to see a change in the process. That is a very 
high level, clear political statement, ``This is 
unacceptable.''
    In this particular case, I think that is what we are 
saying, is that yes, provide them with the new authority to use 
the equipment, et cetera, not only in counternarcotics, but it 
has to be while they are also taking action with respect to 
human rights and cutting off the relations with the 
paramilitary. And we believe they can do that.
    The other question is how do you begin to deal with 
questions of strengthening law enforcement or the judicial 
system and economic development when you do not have full 
security? You may not have full security nationwide, but you 
may be able to clear them out of a particular area and then 
provide an economic package in that area, and that is what I 
was suggesting in the demilitarized zone. In fact, that in an 
area where you can direct your military forces to clear out 
both the FARC and the AUC, to then respond with something 
positive.
    But the broader question you ask today. Yes, security is 
crucial, and we would like to see the Colombian Government, 
through their tax levies and their allocation of funding, 
demonstrate a higher priority for security. You know the 
percentages as well as I do. Clearly, they have not dedicated 
the level of resources to their own military and police that 
the threat would indicate that they should.
    But I think that the answer to your question is that we 
cannot say, ``Use the weapons, we are not going to be concerned 
about the relationship with the paramilitary.'' I think it 
undermines the effort in the long term, it undermines their 
democracy in the long term, and clearly undermines our own.
    Senator Dodd. You raise the El Salvador issue, which you 
recall I was very involved in, in fact authored the legislation 
that conditioned--in fact, Jose Napoleon Duarte, the President 
of El Salvador, was here in the country the very day the 
amendment was offered on the floor of the U.S. Senate, and he 
agreed, in fact, with the conditionalities of the military aid 
at the time.
    There, the sources of funding for the MFLN, if you will, at 
that particular time, were either pretty much an indigenous 
thing. There may have been some that were coming from Castro, 
some training and so forth, but I do not recall any suggestion 
that they were being funded by narcotrafficking. And so there 
was support for them, but nothing that quite equals, I gather 
anyway, the level of financial backing that the FARC and the 
AUC get as a result of their narco business. Do you agree with 
that?
    Mr. Schneider. Absolutely, no question about it.
    Senator Dodd. So I guess what I am trying to get at here 
is, how do we, when you are dealing with two organizations that 
are getting an almost equal amount of funding, it seems from--
in fact, the irony in all of this is that the United States is 
funding both sides of this conflict, one through private 
donations through the illicit drug trafficking and use in this 
country, and the other through taxpayer money. It may be one of 
the unique situations in the world where we are actually 
underwriting the cost of all this conflict through our habits 
and consumption and as a result of our commitment to support 
civil society.
    My concern here--in fact, I gather there are people who 
move between the FARC and the AUC. This is whoever offers the 
better deals financially. It is almost like the draft, or when 
you would have free agency, and here people can move back and 
forth based upon what either side is willing to offer and pay. 
This is what this has come to. This is why any kind of great 
social motivation seems to have disappeared almost entirely, 
and so you end up with the resources, financial resources from 
Europe, the United States--mostly from the United States, and 
so why don't you respond to this, Jose, if you would.
    Mr. Vivanco. Mr. Chairman, if I may, I would like to come 
to your first question. There is no question, based upon our 
research but also based upon the research done by the United 
Nations, the OAS, the Human Rights Commission and so forth, and 
even the State Department report, that there is a great deal of 
dependency on the paramilitaries by the Colombian military. In 
other words, the military in some areas, not across the 
country, but in some areas where the paramilitaries have a 
very, very strong presence and virtually control territory and 
population.
    The military rely on the paramilitaries to keep the zone, 
the area under control, and in our view, in our experience, 
based on our experience, the little amount of progress that has 
been done in terms of human rights in Colombia, and 
particularly in terms of the attempts to break those ties 
between the military and paramilitary organizations, has been 
done under international pressure, and specifically under U.S. 
pressure.
    We have no real hope that the Colombians will be able to 
address this issue of links with these criminal organizations 
by themselves. We do acknowledge the discourse, the public 
position of the Colombian leadership is perfectly compatible 
with international human rights standards. I have met several 
times with General Tabias, and his line, his public position, 
his discourse is, I would say, impeccable on these issues, but 
what we unfortunately are able to argue and to demonstrate is 
that in the field those links, that relationship is stronger 
and closer than ever. So this is a very, very serious, and I 
would say a very complex, very difficult issue for the military 
to deal with.
    There is one precedent that shows a very interesting degree 
of progress, which is that the ability of the Colombian police 
to improve its record and to break some links with paramilitary 
organizations. The Colombian police have been able to make 
some, I would say serious progress. It is not clean from human 
rights abuses or from relationship with paramilitary 
organizations, but their policy, their line, the way that they 
deal with these kinds of problems is very, very different than 
the way that the army and the navy in Colombia has been 
reacting to charges that they are working with paramilitary 
organizations.
    I would say that some of the credit should be given to 
General Serano for taking that line and for discharging more 
than 12,000 members of the police on grounds of corruption, 
narcotrafficking, and human rights abuses. But I do not think 
we should underestimate that practice, that change was possible 
as a result of U.S. engagement and U.S. conditionality, U.S. 
foreign policy conditionality, and the pressure from this 
Senate to improve their record and to effectively deal with 
those who engage in abuses.
    Senator Dodd. Well, I appreciate your comments, and by the 
way, I know you have to catch a plane. We will move on to other 
subject matters here.
    Mr. Schneider. Senator, can I just add one point on that? 
Both when I was in the government and now, talking to the 
current government, there is no question that the 
conditionality is used by those who are trying to push the 
policy in the right direction, and without it they would be 
weaker in terms of getting the policy right.
    Senator Dodd. Well, let me make the case, whether the 
language is included in the bill or not this year, it is 
certainly a fact that there is a growing connection. If, in 
fact, more evidence is forthcoming that there is a systemic 
problem here related, between the military forces and the AUC, 
then I would just predict flat out what is going to happen 
here; and that is, of course, the Congress of the United States 
and the American people will walk away from this, with a great 
sense of disappointment in many ways because of what the 
outcomes may be. But I would predict that would be the result.
    And again, I hope, if hearings have any value beyond 
extracting, sort of, restatements or clearer statements of 
policy, and can also serve as a means of communication, then 
let me just predict that if, in fact, we end up with growing 
evidence here of connections between the Colombian military and 
the AUC, then there will be an overwhelming reaction to that.
    There is a reluctance anyway on the part of the American 
people to be involved in these kinds of matters. This is a hard 
sell under the best of circumstances, and when you give anyone 
an argument to step away from it, particularly one that 
involves brutality, when we are seen as underwriting that, 
sustaining it, subsidizing it, then people will retreat from 
it, and I predict that would happen here.
    So I am hopeful that those in positions of authority, 
including those who will emerge victorious in the upcoming 
elections, hear clearly that for those of us up here who are 
very anxious to be helpful and constructive, and to build the 
kind of international support, particularly regional support 
for a sustainable effort here, need to know that this is a 
very, very important issue. And to not deal with it is to place 
all of this in jeopardy, and I hope they understand that.
    Let me ask you about the peace process itself and having, 
again, been involved in the Central American effort--and I did 
not think the Contadora effort, when we were dealing with the 
Nicaraguans and El Salvador, was going to be very effective, 
because it was--if you need to go, Jose, we might submit some 
questions to you in writing.
    Mr. Vivanco. Thank you very much. Actually, I have to fly 
to Colombia this afternoon.
    Senator Dodd. Be careful.
    Mark, let me ask you this. I always felt that when we moved 
from the Contadora process, which was sort of a friends group 
that involved Mexico and Brazil and other nations in the 
hemisphere, and shrank that down to the Central American 
countries very directly, the ones most directly affected, it 
changed the dynamic considerably. We were involved, obviously, 
but we were not a participant in those meetings in Esquipulas 
that ultimately produced the framework under the leadership of 
President Arias of Costa Rica, along with others in the region 
who supported him and that brought, along with other factors, a 
resolution.
    In this case here there has been a suggestion that somehow 
we ought to be involved in this question rather directly. I am 
uneasy about that. I would much prefer to see an Andean 
approach to this, where we play a supporting role, rather than 
a principal role. Tell me the pros and cons of both approaches, 
and which one--you seemed to indicate that more direct U.S. 
involvement was necessary.
    Mr. Schneider. There are two things. One, if you take the 
ELN process separately from the FARC, the ELN process now is 
one which is focused on how do you get a verifiable cease-fire. 
And from there, then, in that context of a cease-fire, how do 
you move beyond that for substantive negotiations on what 
ultimately would be a settlement and a demobilization of the 
ELN.
    As you know, and as you mentioned, there is Cuba, and in 
one of the recent sessions one of the conclusions was, they 
asked the United States to become part of that group of 
facilitators, and it seems to me that there are two things that 
are quite important. One is that the people on both sides 
understand that the United States will be a supporter of the 
ultimate settlement, helping to finance, helping to convince 
others to carry out what is needed with respect to the 
monitoring of the process.
    And the second is, to be very frank, given our relationship 
with the Colombian military and our assistance to the Colombian 
Government, the insurgent ELN will be much more convinced that 
their safety and security will be protected if we are part of 
that process. They may be satisfied if we are close to, if not 
part of, the negotiating process that resulted in an agreement 
on which they are going to rely to at some point give up their 
arms. And we know what has happened to past insurgents in 
Colombia. Once they gave up their arms they were killed, and so 
that role is very important.
    Whether we have to be there at the table today is another 
question. It seems to me we are capable of finding a mechanism 
in which we are linked to the negotiations, and I think we 
should examine what those might be.
    Senator Dodd. Why would you negotiate if you were the FARC?
    Mr. Schneider. I'm talking about the ELN.
    Senator Dodd. I want to move to the FARC. Why would you 
even bother--you have got a great deal here, 40 years living in 
the woods. You have got $1 billion or more a year coming from 
the narco business.
    Mr. Schneider. You had it good when you had the DMZ. I 
think it is not quite so good now. But I think the answer is 
that until the FARC in fact feels threatened militarily, until 
they see that they cannot achieve a maintenance of their 
income, and the maintenance of their institutional structure, 
by doing something other than carrying out these terrorist acts 
and acting as a pretty brutal insurgency, until there is a 
military threat, then I think the negotiations are unlikely to 
be successful.
    I think that the issue is to be prepared to have a more 
effective negotiating structure when that moment comes, not 
wait and say, well, at some point when it seems clear that they 
are ready to accept, let us say, a cease-fire. They have never 
been willing to accept a verifiable cease-fire, but if 3 months 
from now they say, yes, we are, then somebody should be 
prepared with, what does that mean, and what do you do next. 
And all I am saying is that what we are recommending is that 
that process needs to begin so that you are ready when that 
negotiating possibility exists. But we are also saying right 
now that the first step in achieving substantive negotiations 
is ensuring that the FARC does not believe that they have a 
military avenue to achieve their goals and to maintain 
themselves as they are.
    Senator Dodd. Let me ask you the question you asked 
Secretary Grossman and, first of all, let me ask the question 
that forms the premise, and that is, there seems to be 
deafening silence from some of our very good friends in the 
region, and they want me to support the Andean trade agreement, 
they want me to support all these things, provide for aid and 
step up to the plate here.
    We have 95 percent of cocaine and heroin pouring out of 
this country, killing kids and families in this country here. A 
lot of that responsibility falls on us to try to deal with it 
here at home, but obviously part of the solution rests, as 
well, in trying to deal with it on the ground in Colombia. Why 
aren't my friends here who were asking me for help all the 
time, and who I want to help and care about, why are they not 
more involved in helping us come up with some answers here? And 
is that necessary, in your view, to a successful conclusion of 
this effort?
    Mr. Schneider. One of the things we recommended, in fact, 
was that the United States should work closely with the 
neighboring countries, the Andean countries and Panama, in 
attempting to formulate the policies for improved security, 
intelligence-sharing, mutual controls on contraband, assistance 
to refugees, and also in the places where you have population 
centers, mainly in Ecuador and some in Peru, integrated border 
development activities.
    Yes, we think that there should be more international 
engagement, and we think that the regional Andean countries 
should be brought into the process of discussing what some of 
the steps ought to be. And I would not just focus it on the 
security and drug issue, but in general it seems to me----
    Senator Dodd. I would not disagree with that, but I do not 
get a sense that there is an effort being made here.
    Mr. Schneider. Part of the reason is, to be very frank, I 
think those countries want to keep away from it, because they 
are afraid. They are afraid that if they become active in terms 
of support for the Colombian Government, active militarily, 
that they will be threatened more by the FARC. They will give a 
reason for the FARC to go after some of them, and the AUC as 
well. I suspect that may be a factor.
    Senator Dodd. Well, those are very helpful observations, 
and I raised the issue earlier about----
    Mr. Schneider. By the way, Senator, let me just say one 
other thing in terms of our allies. The Europeans, as you know, 
are stepping up in terms of doing more on aid for displaced 
persons, and looking at some economic and social activities 
with respect to peace laboratories.
    One of the questions I would ask is whether, why the 
European Union and others should not become more engaged on the 
justice side as well. In other countries, as we know, around 
the world, they have. It seems to me we might be able to engage 
them in these areas.
    Senator Dodd. Well, you are right, and of course one only 
has to look back to their lack of appetite to get involved in 
the Bosnian situation, which was far closer to home 
geographically, and this one here, they have been involved, but 
more as critics than offering, in my view anyway, constructive 
efforts here. If they do not want to get involved in the 
military issues here, but only in the economic development side 
of the question, their participation has been rather anemic and 
rather disappointing. That is another set of questions.
    There is a limited ability to what neighboring countries 
can do in the region. I think, though, border security is one 
of them, and certainly helping contain this, and the obvious 
answer to the question you pose, or at least the observation 
you made is that if, in fact, for whatever reason we are 
successful in Colombia, this shows up someplace else, and you 
could be next, and so it seems to me it is that old statement 
made by the Protestant minister in Nazi Germany, when he said, 
when they went after the Jews, I was not a Jew, so what 
difference did it make, when they went after the Gypsies and I 
was not a Gypsy, they went after the homosexuals, down the 
line. And finally they came after me, and I looked around and 
there was no one there.
    In a sense, this scourge poses risks for everybody, and if 
you sort of pretend it is not affecting you and you stay away 
from it in fear that it might show up, I can almost predict it 
will, to some degree, and so I hope we can get more 
participation and support from the European community as well.
    Well, I will have some additional questions that I may 
submit for the record, but I want to thank you again for your 
report. I think it is an excellent job. I think the point you 
have made about the human rights issue is extremely valid, and 
again I hope these hearings serve a number of purposes, not the 
least of which is to communicate to those on the ground in 
Colombia that for those up here who have been very supportive, 
I think, over the years, and clearly want to stay involved here 
and recognize the importance of this issue, that we can only 
help those who are really interested in helping themselves. And 
if they are not, that becomes evident, and despite all of our 
desires to be cooperative and supportive, it becomes very hard 
to convince other Members of the Congress to cast ballots to 
allocate taxpayer resources if, in fact, there is a growing 
sense that people here are unwilling to take the necessary 
steps.
    And again, I want to state, as I did at the outset, I 
repeat the statistics about what the civil society has suffered 
in Colombia, from members of the press, the judiciary, 
executive branch, congressional branches, candidates for 
office, mayors, small towns--my admiration for their courage, 
to stand to be a mayor in a small town in Colombia, where there 
is going to be no notoriety for doing so, but merely because 
you believe democracy is the way people ought to be able to 
live their lives, and when you merely offer yourself up to try 
and deal with the problems of your town, you become a target 
for assassination and kidnaping, is something we cannot ignore.
    So I want to be involved in this, and I want to be 
supportive, and I know you do as well. With that, I want to 
thank my colleagues who were able to make it by here this 
morning for this hearing. We will leave the record open. This 
is an ongoing discussion. There will be more hearings and more 
debate about this issue as we move forward, but I think this 
morning's hearing has been helpful, and I thank all of our 
witnesses.
    The subcommittee will stand adjourned.
    [Whereupon, at 12:35 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Questions Submitted for the Record


   Responses from the Department of Defense to Additional Questions 
        Submitted for the Record by Senator Christopher J. Dodd

                      colombian military strategy
    Question. The Colombian military appear to be recalibrating its 
military strategy now that talks with the FARC have collapsed. What is 
different today about what the Colombian military is doing on the 
ground?

    Answer. Since 20 February 2002, the Colombian military has taken a 
very aggressive strategy against the FARC. They immediately committed 
eight brigades to offensive operations in southcentral Colombia in 
response to the elimination of the former FARC safehaven and to bolster 
the three brigades already located in the general area. Additionally, 
the Colombian Army ordered that each division plan and execute at least 
two offensive operations in its Area of Responsibility at any given 
time and the Colombian Air Force has been fully committed in both 
supporting ground offensive operations and in conducting unilateral 
offensive actions against insurgent FARC targets located by military 
intelligence systems.
    The above offensive actions were directly responsible for the lack 
of success of the FARC's March offensive surge operations and the 
FARC's inability to disrupt the national Congressional elections in 
early March 2002. The Colombian military worked diligently with the 
Ministry of Transportation and with the National Police to support and 
bolster a national transportation control plan, which has successfully 
interdicted both weapons and explosives destined for urban areas.
    The Colombian military's current operational tempo, however, is not 
sustainable. Its offensive operations and pace have come at a fiscal 
cost that the Colombian Government has not yet successfully addressed 
to continue operations through the end of the year, and many units are 
in need of a pause to recuperate and regenerate combat power. The 
Colombian military is now preparing to provide security for the 26 May 
presidential elections and respond to FARC operations to disrupt the 
elections.
    Despite the increased offensive posture against the insurgents, 
there has been no corresponding increase in human rights complaints 
against the Colombian military, whose human rights record in field 
operations remains excellent.
                  proposed change in legal authorities
    Question. Has the Department or the intelligence community 
conducted an assessment of the likely effect the proposed change in 
legal authorities discussed today will have on the military balance in 
Colombia? If so, please provide it. If not, what is the view of the 
Department whether the requested change in legal authorities will have 
a material effect on the course of the war against the guerrillas or 
the paramilitaries?

    Answer. The Department of Defense and, to my knowledge, the 
intelligence community have not conducted an assessment of how the 
proposed changes in legal authorities, allowing counternarcotics 
funding provided to Colombia to be used as a unified campaign against 
terrorism, would affect the military balance in Colombia. I believe the 
expanded authority will strengthen the Colombian security forces and 
consequently assist the Government of Colombia in providing basic 
security throughout its sovereign territory. Efforts to strengthen the 
rule of law, counter terrorism, assistance with alternative development 
and other aid programs, and counter drugs and arms trafficking have 
been futile where there has been no basic security. Congressional 
approval of the expanded authorities would therefore clear the path to 
make smarter use of U.S. Government supplied resources and help 
Colombia fight terrorism generated by both the guerrillas and 
paramilitaries.

    Question. What specific, new steps do you believe the Colombian 
military needs to take with respect to human rights; the 
paramilitaries; and military, political and economic reform, in order 
for U.S. policy to succeed?

    Answer. The most important thing we can do to stop and prevent 
human rights abuses is to strengthen the professionalism and 
effectiveness of the military and police. The Government of Colombia 
and the Colombian military have demonstrated a commitment to progress 
on human rights issues. The sharp decrease in allegations of human 
rights abuses by military personnel in recent years is the most 
dramatic evidence of that commitment. The Colombians have worked 
closely and cooperatively with us in creating human rights training 
programs for their armed forces and in setting up an effective human 
rights vetting mechanism to screen candidates for training and other 
assistance.
    Clearly, there have been and continue to be instances of Colombian 
armed forces aiding and abetting paramilitary operations or, more 
frequently, failing to act aggressively to prevent or respond to such 
operations. However, it is clear that President Pastrana, Defense 
Minister Bell, Armed Forces Commander Tapias, the service commanders, 
and other senior military leaders genuinely oppose and regularly 
condemn such collaboration.
    The Colombian armed forces will, we hope, also reduce the strength 
of the illegal self-defense groups by filling the current basic 
security vacuum with legitimate national security forces, continuing 
professionalization of their forces, as well as, recruiting, training, 
equipping, sustaining, and regulating a security force of sufficient 
size to perform its mission throughout Colombia.
                   severing links with paramilitaries
    Question. Are you satisfied that the Colombian armed forces have 
severed links between the Armed Forces and paramilitaries? What 
specific legal steps has the Colombian military taken against personnel 
found to have links with paramilitaries? What specific benchmarks will 
the U.S. Government apply to determine whether the objectives are being 
met and U.S. policy is succeeding?

    Answer. We regard the paramilitaries as the most serious long-term 
threat to democracy in Colombia. While the Colombian armed forces have 
undoubtedly not succeeded in completely severing links between nor 
curbing the activities of the ``self-defense forces,'' they have not 
been idle with respect to conducting operations against these groups. 
In 2000, security force operations against the paramilitaries resulted 
in 313 arrests and 92 killed in combat and in 2001, 992 were arrested 
and another 116 were killed. The 1,108 paramilitaries either captured 
or killed in 2001 represent a 270 percent increase over the previous 
year and are estimated to be approximately 10 percent of the 
paramilitary's force structure.
    There have been instances of Colombian armed forces aiding and 
abetting paramilitary operations or, more frequently, failing to act 
aggressively to prevent or respond to such operations. However, it is 
clear that President Pastrana, Defense Minister Bell, Armed Forces 
Commander Tapias, the service commanders, and other senior military 
leaders genuinely oppose and regularly condemn such collaboration.
                         u.s.-colombia strategy
    Question. If, over the next year, the war intensifies and there is 
no end in sight, what is the U.S. Government's long term strategy? Do 
we have an end game?

    Answer. Our strategy is to help Colombia achieve effective 
sovereignty over its entire national territory; to create a larger, 
more effective, and more professional military and police capable of 
protecting key national assets; and to enable the government to deal 
politically with the armed groups, if it so chooses, from a position of 
strength.
    We encourage the Colombians to devote more resources to the effort 
and do not believe the introduction of U.S. combat units will be 
required to achieve our aims.
    The fundamental U.S. objectives in Colombia is to assist a friendly 
democratic nation in its efforts to end violence by extremist from the 
right and left and to rebuild a peaceful, free, prosperous, and 
democratic society. In so doing, we seek to help Colombia defeat and 
eliminate narco-terrorist organizations that attack Colombians (and 
Americans) and to curtail illegal activities (e.g., drug trafficking, 
kidnapping, extortion) that provide funding for narco-terrorist groups.
                       colombian security funding
    Question. Mr. Rodman has testified that ``Colombia must shoulder 
more of the burden by funding its security structure--meaning both 
military and police--at levels that are more appropriate for a wartime 
footing.'' Does the Department have a view on what is the appropriate 
level?

    Answer. We will continue to discuss the need for adequate funding 
of the security structure with Colombia's current and future 
administrations. It is not unreasonable, considering the threats facing 
Colombia, to expect the Government of Colombia to expand its current 
security expenditures substantially. The Colombian security forces must 
be sized and equipped to meet the level of threats and challenges to 
ensure effective national sovereignty, but the increase of security 
forces must be in a manner so not to create training, leadership, and 
equipment shortfalls. Spending does not equal results. For instance, 
not included is the enormous sum that Colombians spend privately on 
security.
               dod support to counternarcotics activities
    Question. In 1998 and 2000, then-Secretary of Defense Cohen issued 
two memos related to military support to counter-narcotics activities. 
The 1998 memo said that--

        ``Department of Defense personnel are prohibited from 
        accompanying U.S. drug law enforcement agents or host nation 
        law enforcement forces and military forces with counterdrug 
        authority on actual counterdrug field operations or 
        participating in any activity in which counterdrug-related 
        hostilities are imminent.''

    The memo issued in 2000 related specifically to all ``Defense 
funded training in Colombia.'' It reiterates the language quoted above.

          a. Are these memos still applicable to U.S. military training 
        in Colombia? If not, why not?
          b. Is the Department developing, or planning to develop, any 
        changes in the policy they set forth?
          c. Have any other memos relevant to the issue of accompanying 
        host nation forces on operations been issued during this 
        administration?
          d. Given that training we will do for pipeline security is 
        not focused on counternarcotics, is it the intention of the 
        Department to limit the U.S. forces to training, and not permit 
        them to go out on actual operations?

Answer:

    a. The memorandums, subject: ``Military Support to Counternarcotics 
Activities,'' dated 6 October 1998 and ``Defense Funded Training in 
Colombia,'' dated 9 March 2000 are still applicable.

    b. The Department of Defense has not made any changes to these 
documents. These documents would require review if Congress approves of 
the expanded authorities for counterterrorism in Colombia that we have 
requested.

    c. No.

    d. The Administration's goal with respect to providing support to 
Colombia's critical infrastructure protection will be similar to our 
counternarcotics support. Our current programs in Colombia require a 
very modest Department of Defense footprint. With the addition of 
counterterrorism support, we do not require changes in the number of 
U.S. personnel nor contemplate the use of U.S. troops in a combat role.
                    u.s. assistance to plan colombia
    Question. In the initial stages of implementation of U.S. 
assistance to Plan Colombia, the Department of Defense contracted with 
the Rendon Group, a Washington firm, to provide public relations and 
communications advice and assistance to the Colombian Ministry of 
Defense (MOD).

          a. Is the contract still in effect? If not, is there another 
        contract or program the purpose of which is to provide 
        communications advice to the Colombian MOD? Please provide 
        detail, including the contract amount, duration of the 
        contract, and information about the scope of work.

          b. How much has been obligated and expended on such contract 
        or contracts since FY 2000?

    Answer. As part of the Department of Defense's counternarcotics 
support to Colombia, a program was started in January 2001 to train the 
Colombian military in military public affairs in support of Plan 
Colombia. The objective was, and continues to be, the training of the 
Colombian military, at the headquarters level, in the standard 
procedures for responding to media questions and issues to gain public 
support for Colombian military counternarcotics operations.
    The training included seminars, classroom instruction, and on-the-
job-training. The goal was to instill in the Colombian military the 
value of being completely truthful, and of getting out in front of 
stories.
    The Rendon Group is still under contract for this effort. The first 
contract and modifications included the period of January 2001 to 
January 2002 and cost a total of $2.6M. Follow-on efforts with 
modifications, cover the period of January 2002 to November 2002 and to 
date are costing $2.OM.

                                 ______
                                 

Responses of Hon. Marc Grossman, Under Secretary of State for Political 
   Affairs, to Additional Questions for the Record Submitted by the 
 Subcommittee on Western Hemisphere, Peace Corps and Narcotics Affairs

                                colombia
    Question. The United States has taken a hands off approach to the 
peace process. Under what conditions would the U.S. play a more active 
role in any future peace efforts?

    Answer. We supported President Pastrana's efforts to reach a 
negotiated settlement with the Revolutionary Armed Forces of Colombia 
(FARC) and with the National Liberation Army (ELN), but recognized that 
management of these processes was the Pastrana administration's 
prerogative. We publicly called on the FARC to reciprocate the Pastrana 
Government's good-faith efforts, but the terrorist group showed an 
unwillingness to begin serious, substantive negotiations with the 
Colombian government. In fact, the FARC left a trail of broken promises 
and commitments during the three year peace process, culminating in the 
terrorist offensive in early 2002 which led Pastrana to end the process 
on February 20.
    The United States recognizes that Colombia's various internal 
conflicts will likely end through negotiated settlements. The various 
presidential candidates have outlined specific conditions (such as a 
ceasefire, end to narcotrafficking and halt to terrorism) under which 
they would initiate peace talks with FARC, AUC and ELN.
    However, the United States Government will not engage in talks with 
the FARC until it begins to cooperate with the appropriate government 
authorities on cases involving American citizens. Specifically, the 
FARC must cooperate in the efforts to determine the whereabouts of the 
remains of the three New Tribes Missionaries it kidnapped in 1993 and 
in the investigation of the murders of three American non-governmental 
organization workers in 1999. In the latter case, the FARC has 
acknowledged that it has under its control the alleged perpetrators and 
we demand that they be turned over to the appropriate authorities.
                       colombia: aerial spraying
    Question. Fumigation has become a very controversial component of 
Plan Colombia. What chemical herbicide has been used in the fumigation 
program and at what concentrations? Does the herbicide have another 
name in the United States? When was this herbicide licensed for use in 
the United States? Are there any plans to change the type of herbicide 
being used? During what months has spraying been conducted, and when is 
future spraying planned? Why not consider manual eradication--which 
might be less controversial and would provide additional employment?

    Answer. The aerial eradication program uses the herbicide 
glyphosate against illicit drug crops in Colombia. This herbicide, 
first licensed for use in the United States in 1974, is registered for 
use in Colombia, the United States, and many other countries around the 
globe. The application rate for the spray mixture for coca is 2.53 
gallons per acre, with the percentages of the spray mixture being 55 
percent water, 44 percent glyphosate formulation (which itself contains 
41 percent glyphosate and 59 percent inert ingredients), and 1 percent 
the surfactant Cosmo-Flux 411F. The herbicide glyphosate is no longer 
protected by patent and is sold in the United States and throughout the 
world under many different brand names.
    The Department works continually with the Government of Colombia 
and the U.S. Department of Agriculture's Agricultural Research Service 
to maximize the effectiveness of the spray mixture against coca and to 
minimize the impact of the spray program on the environment or human 
health. No herbicide other than glyphosate offers assured effectiveness 
against coca while posing little risk for the environment where coca is 
grown. Spraying is conducted year round in Colombia, but is subject to 
strictly monitored local conditions, including weather, temperature, 
and wind speed.
    Aerial spraying is necessary in Colombia because of security 
concerns. It is the only effective way to safely eliminate an immense 
crop that is dispersed over a great amount of inaccessible and often 
hostile territory. Manual eradication is not a viable option because 
the illicit crop is protected by designated foreign terrorist 
organizations that depend heavily upon the coca business for 
substantial amounts of their income. During aerial eradication spray 
aircraft must be escorted by helicopter gunships because they routinely 
take hostile groundfire from these terrorist groups. Any other approach 
would result in unacceptable risks to the lives of eradicators. Aerial 
spraying also allows the eradication program to operate in distant, 
isolated areas where much of Colombia's coca is cultivated. The 
transportation requirements for manual eradication teams--and the armed 
forces required to protect them--would be prohibitively expensive. In 
short, aerial eradication is the only reasonable means of destroying 
illegal crops in the vast tracts of territory in Colombia in which they 
are located.
               colombia: health and environmental studies
    Question. What is the status of the studies of the health and 
environmental effects of the herbicide? (There are at least two studies 
in Narino and Putumayo, which were, at best, inconclusive.) Is there an 
epidemiological study planned, as was anticipated before the CDC pulled 
out? Who would conduct it and who would it involve?

    Answer. At the concentration level used in the spray mixture and 
with the methods used to apply it, glyphosate is highly unlikely to 
harm human beings. Numerous scientific studies have demonstrated again 
and again that glyphosate is non-carcinogenic, and that it has no 
effects on reproductive ability or developmental capacity. After 
reviewing multiple toxicity tests, EPA concluded that the potential for 
acute toxicity and irritation was low. In the worst case situation, a 
person directly exposed to the spray mixture may suffer some minor, 
temporary skin and/or eye irritation.
    Nevertheless, the Department's Bureau of International Narcotics 
and Law Enforcement Affairs (INL) has contracted a toxicological study 
of the spray mixture used against coca in Colombia. This study assesses 
the toxicological profile of the spray mix, exactly as it is mixed in 
Colombia. This study is currently underway and is scheduled to finish 
in August 2002. The Inter-American Drug Abuse Commission (CICAD) of the 
Organization of American States is also planning an independent 
monitoring project that will evaluate the environmental and human 
health considerations of the spray program in Colombia. While the 
details of this monitoring proposal are still being finalized, it is 
expected to include significant human and environmental health and 
safety assessment components, based on careful medical and scientific 
evaluation.
    The Department does not agree that the studies carried out in 
Narino and Putumayo were ``at best, inconclusive.'' To the contrary, 
the Narino study found that most of the complaints were made before 
spraying began or long after it had ended. In all but four cases, the 
diseases were parasitic or bacterial in origin. In the other four 
cases, the symptoms were not serious, with the treatments prescribed 
suggesting that the illnesses were not spray-related. The Putumayo 
toxicological study also demonstrated no connection whatsoever between 
health complaints and aerial spraying of coca.
    Health related complaints about the spray program often grab 
attention in the headlines, but are unsubstantiated by scientific 
evidence. Despite numerous investigations, not a single claim of harm 
to human health as a result of the spray program has ever been 
confirmed. Instead, the reported health problems are more likely to 
have been caused by the numerous bacteria, parasites, and infections 
endemic in the remote rural areas where illicit cultivation takes 
place. Many are also likely caused by exposure to the pesticides and 
processing chemicals used in the cultivation of illicit drug crops and 
production of illegal drugs.
                                colombia
    Question. The FY 2000 Emergency supplemental placed restrictions on 
the number of U.S. military and civilian personnel that could be 
deployed in support of Plan Colombia (500 and 300). The FY 2001 (sic) 
foreign appropriations bill modified the caps to 400 for each category. 
How many U.S. civilian and military personnel are in Colombia currently 
supporting Plan Colombia? How many foreign nationals are on contract 
for such purposes?

    Answer. On March 18, 2002, there were 164 temporary and permanent 
U.S. military personnel and 241 U.S. citizen individual civilian 
contractors in Colombia implementing authorized programs in support of 
Plan Colombia. In accordance with section 3204(b) and section 3204(f) 
of the emergency supplemental legislation, the President submits 
bimonthly reports on these numbers to the Congress. Ten such reports 
have been submitted and the eleventh will cover the period to mid-May. 
Although the aggregate numbers during January, February and March, 
2002, fluctuated with personnel rotations and the initiation, 
implementation, and/or completion of individual projects in support of 
Plan Colombia, at no time have these aggregate numbers ever exceeded 
the 400 and 400 ceilings. During this most recent period the overall 
number of U.S. military personnel in support of Plan Colombia varied 
between 111 and 284, and the number of U.S. citizen civilian 
contractors was between 181 and 250.
    The number of foreign nationals, including Colombians, employed by 
the U.S. government in support of Plan Colombia also varies as programs 
are begun and expanded or have been completed, but has been in the 
neighborhood of 270 for the last two years.

    Question. The Administration has not requested a waiver of these 
personnel caps in the FY 2002 emergency supplemental. Do you believe 
that cap limitations apply to the additional programs you are proposing 
to support in Colombia such as protection of infrastructure, 
antiterrorism programs, and counter insurgency support which arguably 
fall outside the scope of the definition contained in law? Will State 
and DOD support legislative language that makes it clear in statute 
that the existing caps apply to these additional activities?

    Answer. The Administration is committed for these new programs to 
not exceed the existing ceilings for personnel in support of Plan 
Colombia. These ceilings are mandated by section 3204(b) of Title III, 
Chapter 2 of the Emergency Supplemental Act, 2000, (P.L. 106-246) as 
amended by Title II of the Kenneth N. Ludden Foreign Operations, Export 
Financing, and Related Programs Appropriations Act, Fiscal Year 2002 
(P.L. 107-115). In view of this, the Department of State believes that 
additional legislative language is unnecessary.

    Question. In making the decision to request changes in U.S. 
restrictions on Colombia aid--has the administration undertaken medium 
term budget planning--what are the out year budget estimates for U.S. 
assistance to Colombia?

    Answer. The Administration has clearly indicated that the U.S. 
commitment to Colombia to support democracy and its fight against 
narcotics trafficking and terrorism, to promote human rights and socio-
economic development, is a long-term one. It is also one which is 
dependent upon a number of factors, including the development by the 
incoming Uribe administration of an expanded national political-
military strategy and an increase in the resources the Colombian 
government devotes to security, implementation of economic reforms, 
improvements in human rights protection as well as the sustainment of 
counternarcotics programs.
    For FY 2003 the Administration is seeking $439 million in 
International Narcotics Control and Law Enforcement funding to maintain 
our programs supporting Plan Colombia as well as $98 million in FMF 
funding to undertake the infrastructure protection initiative. While 
specific numbers for FY 2004 and beyond are only now beginning to be 
developed, it is our belief that programs to support Colombian 
democracy will continue in the range requested for FY 2003.

    Question. Is it U.S. policy to assist Colombia to defeat each of 
the armed groups--the FARC, the ELN, and the AUC--militarily? If so, 
can that objective be achieved if Congress approves the 
Administration's request?

    Answer. Our request for new authorities reflects our recognition 
that Colombia's narcotics and terrorist problems are increasingly 
intertwined. If approved, the authorities will give us the flexibility 
we need to help the Government of Colombia combat terrorist actions 
equally by the country's three main illegal armed groups--the AUC, 
FARC, and ELN.
    The new authorities will not resolve all the difficulties that 
Colombia faces. The military assistance we have so far provided to 
Colombia has been geared toward a limited, counternarcotics mission. 
Expanding the authorities for the use of aircraft and other assets to 
cover terrorist and other threats to Colombia's democracy does not 
ensure that Colombia will be able to address these multiple threats in 
the short-term. However they will enable us to help the Government of 
Colombia attack this hydra-headed threat more efficiently and more 
effectively.
    We continue to recognize that Colombia's various internal conflicts 
will likely end through negotiated settlements. Still, given the 
intransigence shown by the three terrorist groups in their peace talks 
or informal discussions with the Pastrana administration, we believe 
that increased military pressure by Colombia's security forces will be 
needed to bring the groups into a serious, substantive peace process 
with the Government of Colombia.

    Question. What is the primary objective, of the Government of 
Colombia in seeking to use U.S.-provided assets and U.S.-trained units 
for other than counternarcotics purposes?

    Answer. The Government of Colombia seeks to use U.S.-provided 
assets and U.S.-trained units for other than counternarcotics purposes 
so that it can conduct a unified campaign against narcotics trafficking 
and the activities of organizations designated as terrorist 
organizations. The proposed new authorities would offer us more 
flexibility in helping the Government of Colombia to counter the 
``cross-cutting'' threat posed by groups using narcotics trafficking to 
fund terrorist and criminal activities. New authorities would allow 
equipment provided by INCLE funds to be used for counterterrorism as 
well as counternarcotics. We will scrupulously follow the Leahy 
amendment requirement regarding human rights vetting and the Byrd 
Amendment caps on military trainers.
    At this point, the authorities would primarily involve assistance 
for the fully-vetted, U.S.-trained and equipped counternarcotics 
brigade as well as helicopters made available by the USG. We remain 
committed to robust counternarcotics programs in Colombia and will 
sustain that commitment as we work out details regarding use of INCLE-
funded equipment and units in counterterrorist missions.
        colombia: counternarcotics programs and new authorities
    Question. If, as requested by the President, Congress amends the 
law to allow counter-narcotics assets and units to be used for purposes 
other than counter-narcotics, U.S. counter-narcotics programs will 
surely be affected. Presumably, for example, if the assets are devoted 
to a greater degree to counter-insurgency or operations against the 
paramilitaries, we will be fumigating fewer crops and raiding fewer 
cocaine labs.

          a. As a practical matter, how would this change be carried 
        out? How will the U.S. Embassy monitor the use of U.S. provided 
        military equipment if it is used for a purpose other than 
        counter-narcotics?
          b. Has there been an assessment of the effect this proposal 
        will have on our counter-narcotics programs? If so, please 
        provide it.
          c. Have we discussed this subject with the Government of 
        Colombia? If so, what has been the nature of these discussions?
          d. Has any thought been given to how the use of these assets 
        will be allocated between counter-narcotics and counter-
        insurgency operations?
          e. Will the primary mission of the U.S.-trained troops or 
        U.S.-supplied equipment still be counternarcotics?
          f. Which element of the Embassy will be responsible for end-
        use monitoring--the Milgroup or the NAS?

    Answer:
    a. The pivotal role that the U.S. Embassy in Bogota plays in 
monitoring and overseeing the use of U.S.-provided resources will 
remain unchanged if, as requested, the authorities are expanded by 
Congress to include operation against terrorist groups. The Colombian 
Armed Forces that use these resources are keenly aware of the legal 
requirements that now govern the use of U.S.-provided equipment and 
coordinate with the Embassy while conducting mission planning. If the 
authorities change, Embassy personnel will fully brief GOC counterparts 
on the new guidelines. Department of State and U.S. Embassy Milgroup 
personnel will monitor the use of these resources on a daily basis. At 
present, Embassy personnel have considerable influence over the use of 
aircraft assets for individual missions and have exercised that 
influence to avoid missions that are too risky, inadequately planned, 
or outside of the limitations set for the use of U.S.-provided 
equipment. The Chief of Mission will continue to be the ultimate 
decision-maker regarding the use of U.S.-provided equipment. The GOC 
and Colombian military are very cooperative on this issue.
    b. The request for new authorities reflects a recognition that 
Colombia's narcotics and terrorist problems are increasingly 
intertwined and inseparable. If approved, the authorities will give us 
the flexibility we need to help the Government of Colombia combat 
terrorist actions by the country's three main terrorist groups--the 
FARC, AUC and ELN--which are deeply involved in narcotics trafficking. 
As a practical matter, expanded authorities would not have much, if 
any, adverse impact on the aerial eradication or drug interdiction 
operations of the Antinarcotics Directorate of the Colombian National 
Police and, in general, should facilitate our efforts to combat 
narcotrafficking.
    It is important to bear in mind that the new authorities will not 
resolve all the difficulties that Colombia faces. The military 
assistance we have provided to Colombia is geared toward a limited, 
counternarcotics mission. Expanding the authorities to cover terrorist 
and other threats to Colombia's democracy does not ensure that Colombia 
will be fully able to address these multiple threats in the short-term. 
They will, however, enable us to help the Government of Colombia attack 
this hydra-headed threat more effectively.
    c. U.S. Embassy and high-level State Department personnel have met 
frequently with Colombian government representatives to deliver the 
consistent message that the requested change in authorities is no magic 
bullet for Colombia's multiple problems. While the authorities may 
change, Colombian national aviation assets remain limited by GOC 
budgetary constraints. We have advised the GOC that expanding the range 
of missions without expanding the number of aircraft available will 
mean that missions are refused on occasion simply because of the 
limitations of those assets. Moreover, we have reminded the GOC that 
the primary purpose of all of the U.S.-supplied equipment and training 
remains counternarcotics.
    d. The Administration has not requested authority to provide 
support for counter-insurgency purposes in Colombia. Instead, the 
requested authorities would allow U.S. assistance to Colombia, 
including assistance previously provided, to be used by the Government 
of Colombia in a ``unified campaign against terrorist activities, 
narcotrafficking and other threats to national authority,'' would give 
us the flexibility to help Colombia deal with the narcoterrorist 
threat.
    With the exception of the training, equipment, and assistance 
requested for two brigades in Arauca to provide infrastructure 
protection, U.S.-funded assistance for the Colombia Armed Forces will 
continue to support counternarcotics programs as a primary goal. 
Furthermore, while the Government of Colombia has designated these two 
brigades to provide pipeline security as their primary responsibility, 
they are not precluded from supporting counternarcotics missions.
    e. See answer to d. above.
    f. NAS and/or the U.S. Milgroup in the Embassy will conduct end use 
monitoring of this equipment and training, depending on the type of 
assistance provided and the entity of the Government of Colombia that 
is the recipient of the training, equipment, or other assistance.
                                colombia
    Question. With regard to the security of U.S. government personnel 
serving in Colombia: Have you assessed whether supporting Colombia in 
its wars against its illegal armed groups will affect the safety of 
U.S. personnel in Colombia? If so, please provide details.

    Answer. U.S. assistance to Colombia advances critical U.S. national 
security objectives such as reducing the flow of illegal drugs, 
combating terrorism, strengthening an embattled democracy, and 
improving human rights conditions. U.S. personnel have worked closely 
with the Colombian authorities in counternarcotics efforts for many 
years. Given the deep involvement in the narcotics trade by the 
Revolutionary Armed Forces of Colombia (FARC), the United Self-Defense 
Forces of Colombia (AUC) and, to a lesser extent, the National 
Liberation Army (ELN), our personnel have long faced a degree of risk 
in Colombia.
    We take very seriously the safety of U.S. Government personnel--
civilian officials, civilian contractors and military personnel--in 
Colombia. The Regional Security Office of the U.S. Embassy in Bogota 
works closely with the Government of Colombia and its security services 
to monitor and evaluate relevant threat information. Colombian National 
Police and contract guards patrol the perimeter of the U.S. Embassy and 
its environs. The fact remains, however, ``that Colombia is a dangerous 
environment due to violence largely attributable to the activities of 
three illegal armed groups--FARC, the ELN and the AUC--each of which is 
a designated Foreign Terrorist Organization (FTO) under U.S. law. 
Hence, U.S. personnel will continue to face risks in Colombia in order 
to assist our Colombian allies and to accomplish key U.S. objectives.

    Question. With regard to the security of U.S. government personnel 
serving in Colombia: Is the FARC, ELN, or AUC currently targeting 
Americans? Will targeting become more aggressive with the change in 
U.S. policy?

    Answer. The Revolutionary Armed Forces of Colombia (FARC) in the 
past has stated publicly that it considers U.S. military personnel in 
Colombia to be legitimate targets. The FARC has kidnapped and murdered 
American citizens, as has the National Liberation Army (ELN). Our 
aggressive counternarcotics efforts in Colombia, which affect all three 
terrorist groups, already make U.S. personnel potential targets of 
these groups.
    It is difficult to predict whether or not targeting of American 
citizens by the FARC, the ELN or the United Self-Defense Forces of 
Colombia (AUC) will become more aggressive with the evolution of U.S. 
policy, except to note that this possibility does exist.
    We take very seriously the security of American citizens. Colombia 
is a difficult and often dangerous environment. The Department of State 
makes this point in detail in the Travel Warning currently in effect 
for Colombia, which warns Americans against travel to Colombia.

    Question. Will additional security measures be put in place to 
protect U.S. Government personnel in Colombia?

    Answer. The Department of State takes very seriously the security 
of U.S. Government personnel in Colombia. We continuously monitor and 
evaluate any credible threat information, and we receive superb 
security cooperation from all levels of the Government of Colombia. The 
Embassy is a secure facility.

    Question. The President's budget for Fiscal Year 2003 requests $98 
million to train and equip Colombian military units to protect the Cano 
Limon pipeline. General Speer testified that this training would be for 
two Colombian units, the 18th Brigade and the 5th Brigade.

          a. What types and amounts of equipment will be provided under 
        this proposal?
          b. Have the 18th Brigade and the 5th Brigade both been vetted 
        by the U.S. Embassy? If so, when was the vetting conducted? 
        Have elements of the 5th Brigade recently been assigned to the 
        18th Brigade? Are you aware that Human Rights Watch has 
        expressed concern about the human rights record of the 18th 
        Brigade?
          c. The Committee has been informed by representatives of 
        Occidental Petroleum that the 18th Brigade is already stationed 
        at or near the oil field and the pipeline, but that it rarely 
        goes out of the garrison. What is our understanding of the 
        activities of the 18th Brigade in the last year?
          d. Given the economic importance of the pipeline, why did 
        Colombia fail to take adequate measures to protect it in 2001?
          e. In the last four months, has Colombia provided additional 
        mobility assets to military units operating near the pipeline 
        in order to protect it?
          f. In the first three months of 2002, how many times has the 
        pipeline been attacked? During this period, how many times was 
        it shut down because of attacks?

    Answer:
    a. The Administration has requested funds in the FY 2003 budget to 
train and equip the Colombian 18th Brigade and the 5th Mobile Brigade. 
Equipment would be similar to that provided during 2000-2001 to the 1st 
Counternarcotics Brigade and include weapons and ammunition, night 
vision goggles, vehicles, communications, countermine and medical 
equipment, as well as aircraft for the two brigades' mission of 
patrolling, reconnaissance and immediate reaction to threats. Further 
planning with the Colombian Army will determine amounts of equipment.
    b. Vetting of the 18th Brigade was completed on January 30, 2002. 
The 5th Mobile Brigade is recently-established and the vetting process 
will be undertaken before any United States assistance, training or 
equipment is provided. The Department of State has received no 
information that elements of the 5th Mobile Brigade have been assigned 
to the 18th Brigade. It is our understanding that the 5th Mobile 
Brigade had been expected to deploy to Arauca Department in May, but 
that this may be delayed since it remains engaged in operations in the 
former despeje (demilitarized) zone. In any case, vetting of all 5th 
Mobile Brigade units to receive U.S. training and equipment would be 
accomplished before any of these activities begin.
    We are also aware that Human Rights Watch has expressed concerns 
about the human rights record of the 18th Brigade, but we have not 
received any concrete information upon which these concerns are based 
that would affect that positive vetting.
    c. As Occidental Petroleum has informed the Subcommittee, the 18th 
Brigade is stationed in and near Arauca, the capital city of Arauca 
Department. Limitations in intelligence collection capability, 
mobility, ground reconnaissance forces and quick reaction units 
contributed to a passive posture and during 2001 the 18th Brigade was 
not able to successfully limit attacks against the pipeline.
    d. When reinforced by other units, as occurred during some periods 
in 2000 and 2001, the rate of attacks against the pipeline were 
reduced. However, Colombian military forces are stretched so thinly 
across the country that these additional units were withdrawn to 
respond to threats elsewhere.
    e. While the Colombian government has established the 5th Mobile 
Brigade and intends it to be assigned to Arauca Department to assist in 
protection, that unit has not yet arrived there.
    f. In 2001, attacks on the pipeline resulted in the loss of nearly 
$500 million in revenue for the Government of Colombia. During the 
first three months of 2002 the pipeline was attacked 21 times and shut 
down for 33 days. This relative decline in the still serious rate of 
attacks in 2002 is attributed to increased patrolling around the 
pipeline, more aggressive Colombian military operations in the region, 
and the establishment in Arauca of an antiterrorism unit from the 
Prosecutor General's office.
               colombia: second counternarcotics brigade
    Question. The President's budget for FY2003 requests funds in the 
INL budget to train and equip a second new Army air mobile counter-
narcotics brigade.

          a. Is this a completely new unit?
          b. Where will this training occur? What is the schedule for 
        this training?
          c. What U.S. equipment will be provided or made available to 
        the brigade?
          d. Where will the brigade be located, once trained?

    Answer:

    a-d. The Department is actively engaged in discussion of these 
issues with the Government of Colombia and other members of the 
interagency community, but no final decisions have yet been made. As 
soon as issues regarding the composition of the brigade, location and 
schedule of training, and basing location are resolved we will provide 
this information to the Committee.

                                   - 

</pre></body></html>
